No. __________
IN THE
SUPREME COURT OF THE UNITED STATES
________________
VINCENT GINO CHAVEZ, PETITIONER
vs.
SULLIVAN, Warden, RESPONDENT
________________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
________________
APPENDIX TO
PETITION FOR WRIT OF CERTIORARI
________________
VICKI MAROLT BUCHANAN
Vicki Marolt Buchanan, P.C.
19201 Sonoma Highway, #243
Sonoma, CA 95476
(707) 343-1907
Counsel for Petitioner
Vincent Gino Chavez

INDEX TO APPENDIX
APPENDIX A

Ninth Circuit Memorandum Decision filed
December 17, 2020

APPENDIX B

Eastern District of California Judgment in Civil
Case dated February 15, 2019

APPENDIX C

Eastern District of California Memorandum
Decision dated February 15, 2019

APPENDIX D

California Court of Appeal Opinion on Rehearing
dated October 13, 2016

APPENDIX E

California Supreme Court Denial of Petition for
Review dated January 11, 2017

APPENDIX F

Abstract of Judgment and Prison Commitment
Superior Court of Shasta County
Dated June 30, 2017 (Amended)

APPENDIX G

Abstract of Judgment and Prison Commitment
Superior Court of Shasta County
Dated July 12, 2013 (Original)

APPENDIX H

Ninth Circuit Denial of Petition for Rehearing
dated January 29, 2021

APPENDIX A

Case: 19-15543, 12/17/2020, ID: 11930874, DktEntry: 45-1, Page 1 of 4

FILED
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

DEC 17 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT

VINCENT GINO CHAVEZ,
Petitioner-Appellant,

No. 19-15543
D.C. No. 2:18-cv-00952-JKS

v.
MEMORANDUM*
SULLIVAN, Warden,
Respondent-Appellee.

Appeal from the United States District Court
for the Eastern District of California
James K. Singleton, District Judge, Presiding
Submitted December 11, 2020**
San Francisco, California
Before: W. FLETCHER, IKUTA, and VANDYKE, Circuit Judges.
California prisoner Vincent Chavez petitions for review of the district court's
denial of his habeas petition under 28 U.S.C. § 2254. We have jurisdiction
pursuant to § 2253(a) and affirm.

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

Case: 19-15543, 12/17/2020, ID: 11930874, DktEntry: 45-1, Page 2 of 4

Chavez was convicted of first degree murder for the fatal stabbing of Sue
Saeturn. The jury also found true special allegations that Chavez used a deadly
weapon, and that the murder was gang-related. On appeal, the California Court of
Appeal reversed the gang-related special circumstance and enhancement, but
otherwise found no reversible error. Chavez subsequently filed a habeas petition
pursuant to § 2254 in district court. The district court denied his petition but
certified his cumulative error claim for appeal.
First, Chavez argues that the Superior Court’s decision not to instruct the
jury as to the “heat of the passion” lesser-included offense violated state law and
his right to present a defense. See Solis v. Garcia, 219 F.3d 922, 929 (9th Cir.
2000). The California Court of Appeal held that the trial court's decision not to
give the jury instruction was proper under state law because there was no evidence
of provocation, a required element of the offense. That determination is binding on
this court. See Bradshaw v. Richey, 546 U.S. 74, 76 (2005). The jury instruction
was not required under federal law because, without any evidence to satisfy the
provocation element, a reasonable jury could not have found in Chavez’s favor.
See Mathews v. United States, 485 U.S. 58, 63 (1988).
Second, Chavez contends that the testimony of one of the prosecution's gang
experts violated People v. Sanchez, 63 Cal. 4th 665 (2016). In Sanchez, the
2

Case: 19-15543, 12/17/2020, ID: 11930874, DktEntry: 45-1, Page 3 of 4

California Supreme Court held that expert witnesses’ use of case-specific
testimonial hearsay runs afoul of Crawford v. Washington, 541 U.S. 36 (2004).
Sanchez, 63 Cal. 4th at 684. Chavez does not, however, cite any U.S. Supreme
Court decision applying Crawford in the same manner as Sanchez.
Third, Chavez claims that because the prosecutor and expert witness referred
to him by name in hypothetical questions, the expert improperly opined on his
guilt, thereby depriving him of due process and violating People v. Vang, 52 Cal.
4th 1038 (2011). But in his brief, Chavez agreed with the district court that expert
testimony “on the ultimate issue is not contrary to or an unreasonable application
of Supreme Court precedent.”
Because the state appellate court could reasonably conclude that the only
two potential trial court errors—the heat of passion instruction and the gang
expert’s testimony—did not together render the trial fundamentally unfair, the state
appellate court’s rejection of Chavez’s cumulative error claim was not an
unreasonable application of Chambers v. Mississippi, 410 U.S. 284 (1973) for
purposes of Section 2254(d)(1).
We note that Chavez raises a number of additional arguments in his briefs,
some of which are framed as a motion to expand the certificate of appealability.

3

Case: 19-15543, 12/17/2020, ID: 11930874, DktEntry: 45-1, Page 4 of 4

These claims were not presented to the district court and are not cognizable on
appeal. See King v. Rowland, 977 F.2d 1354, 1357 (9th Cir. 1992).
AFFIRMED.

4

APPENDIX B

Case 2:18-cv-00952-JKS Document 24 Filed 02/15/19 Page 1 of 1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA

JUDGMENT IN A CIVIL CASE
VINCENT GINO CHAVEZ,
CASE NO: 2:18−CV−00952−JKS

v.
SULLIVAN,

XX −− Decision by the Court. This action came to trial or hearing before the Court. The issues
have been tried or heard and a decision has been rendered.
IT IS ORDERED AND ADJUDGED
THAT JUDGMENT IS HEREBY ENTERED IN ACCORDANCE WITH THE
COURT'S ORDER FILED ON 2/15/2019

Marianne Matherly
Clerk of Court

ENTERED: February 15, 2019

by: /s/ S. Washington
Deputy Clerk

ER 110

APPENDIX C

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 1 of 37

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF CALIFORNIA
VINCENT GINO CHAVEZ,
No. 2:18-cv-00952-JKS
Petitioner,
MEMORANDUM DECISION
vs.
SULLIVAN,
Respondent.

Vincent Gino Chavez, a state prisoner proceeding pro se, filed a Petition for a Writ of
Habeas Corpus with this Court pursuant to 28 U.S.C. § 2254. Chavez is in the custody of the
California Department of Corrections and Rehabilitation and incarcerated at California State
Prison, Corcoran. Respondent has answered, and Chavez has replied.
I. BACKGROUND/PRIOR PROCEEDINGS
On March 26, 2013, Chavez was charged with the premeditated murder of Sue Saeturn.
The information alleged as a special circumstance that Chavez intentionally killed the victim
while he was an active participant in a criminal street gang and that the murder was carried out to
further the activities of the gang. It was further alleged that Chavez personally used a deadly and
dangerous weapon, had suffered a prior strike conviction, and had served a prior prison term.
Chavez pleaded not guilty, denied the allegations, and proceeded to a jury trial on April 3, 2013.
On direct appeal of his conviction, the California Court of Appeal laid out the following facts
underlying the charges against Chavez and the evidence presented at trial:
A. The Prosecution
In August 2011, [Chavez] was living in San Jose but had been staying with his
mother, Rebecca Roman, in Redding for about two months. On August 13, 2011,
[Chavez] attended a birthday party at the home of his sister Jolean Roman. [Chavez’s]

ER 73

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 2 of 37

sister lived with her longtime boyfriend at a home on Howard Street in Anderson.
[Chavez’s] mother drove [Chavez], his “uncle” Francisco Rubalcava, and his uncle’s
girlfriend to the party.FN4 Prior to the party, [Chavez] texted his uncle and told him to
“[w]ear red.” [Chavez] wore a red hat, red shirt, and jeans to the party. [Chavez’s] uncle
wore a black shirt, black shorts, red shoes, and a red belt. He also died his facial hair red
and had a red bandana in his back pocket.
FN4. [Chavez] and Rubalcava are not related by blood. [Chavez’s] mother has
two children (other than [Chavez] & his sister Jolean) with Rubalcava’s
brother, and Rubalcava has known [Chavez] for 15 years. For ease of
discussion, we refer to Rubalcava as [Chavez’s] uncle herein.
That same night, Kaochanh (Joe) Saetern, his cousin Sue Saeturn, Jim Saefong,
and Sou Orn Sachao attended a birthday party at the Anderson Community Center, across
the street from [Chavez’s] sister’s house. They left the party around 11:45 p.m., after
helping to clean up, and headed to Joe’s truck, which was parked near [Chavez’s] sister’s
house.
Around that same time, [Chavez’s] sister left her party with Anna Webb and two
others to pick up a friend. While they were stopped at a stop sign in front of [Chavez’s]
sister’s house, they saw [Chavez’s] sister’s dog run across the street and begin barking at
Joe, Sue, Jim, and Sou as they were crossing the street on their way to Joe’s truck.
[Chavez’s] sister, who was extremely intoxicated, thought she saw one of the men kick
her dog, jumped out of the car, and began yelling and cussing at them.FN5 The men yelled
back at her, telling her they did not kick her dog. Anna followed [Chavez’s] sister,
retrieved the dog, and unsuccessfully attempted to get [Chavez’s] sister back in the car.
[Chavez’s] mother, who was standing on the front step of [Chavez’s] sister’s (her
daughter’s) house directed [Chavez] to go and get her.
FN5. Anna testified that the men were attempting to shoo the dog away; she did
not see the dog being kicked. Jim testified that the “dog was never
touched.” [Chavez’s] sister testified that she saw one of “them” kick her
dog. [Chavez’s] mother testified that she saw the dog “fly up in the air.”
[Chavez] and a few other men from the party approached [Chavez’s] sister and
the four men. [Chavez] told his sister to “shut up” and “back off.” A member of
[Chavez’s] group asked the four men what was going on, and the four men explained that
[Chavez’s] sister thought that they were trying to hurt the dog, but they were not. The
men exchanged pleasantries and shook hands, and the four men got into Joe’s truck and
prepared to leave.
After the four men were buckled up and ready to go, they heard a loud noise and
one of the truck’s passenger-side windows shattered. [Chavez’s] sister had struck the
window with her keys, causing it to shatter. Sue immediately got out of the truck,
followed by Joe, and then Jim and Sou. It was undisputed that a fight ensued and that

2

ER 74

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 3 of 37

Sue was stabbed by [Chavez] during the fight. Witnesses’ versions of the fight itself
varied.
Joe, who was seated in the driver’s seat of the truck, testified that he immediately
got out and began yelling and screaming at the group of party goers. He said, “What the
hell? Why are you guys doing this? What do you guys want to do?” He was confused
because he and his friends had just shaken hands with the people from the party. He
walked toward the tailgate of his truck and saw Sue standing there. Sue said he could not
breathe very well. Joe walked from the driver’s side to the passenger’s side of the truck,
still looking at the group of partygoers. Once he got to the sidewalk, he saw Sue lying on
the ground. He did not see anyone confront Sue or anyone near his truck. His initial
thought was that Sue had been shot when the window shattered. As he got out his phone
to call 911, he saw people from the party coming towards them. He then heard a few
people say, “He’s on the phone. Get him.” At that point, he ran back to the community
center to find help.
Jim, who was seated in the backseat of the truck, testified that he got out of the
truck a few seconds after Joe and Sue, and as soon as he did so, he observed a “tussle”
about 10 feet behind the truck involving Sue and “like three other people,” including
[Chavez] and [Chavez’s] sister. They were “swinging and fighting.” By the time Jim
reached the back of the truck, Sue was coming toward him. Sue told Jim that he could
not breathe. Jim walked Sue back to the passenger side of the truck. Sue told him that he
was bleeding and then collapsed next to the passenger-side door. At that point, many of
the people from the party who had been involved in the fight fled, including [Chavez].
Moments later, another group of about 7 to 10 people from [Chavez’s] sister’s party
attacked Jim and Sue. They kicked Sue in the chest and head while he lay on the ground
unconscious. The attack lasted about a minute, until Jim recognized one of the attackers
and said his name. Police officers arrived a few minutes later.
Sou testified that as soon as he got out of the car, [Chavez’s] sister attacked him
and knocked his cell phone out of his hand. Sou looked around and saw that Sue had
been stabbed and that there was blood all over his clothes. Frightened, he ran back to the
community center to get help. He did not see who stabbed Sue.
Anna testified that the truck’s driver, Joe, yelled, “You broke my fucking
window.” She did not hear any of the other occupants say anything. When she saw the
passenger door open and one of the occupants step out, she went to retrieve [Chavez’s]
sister. When she got to the back of the truck, she was knocked down. She did not see
who knocked her down. When she set her hand down to get up, she got blood on it, and
then smeared the blood in her hair. When she got up, she ran back to [Chavez’s] sister’s
house to clean up.
[Chavez’s] sister testified that she was intoxicated on the night in question and
could not recall certain events. She did recall that after she broke the window the four
men got out of the truck and a fight ensued. The victim, Sue, attempted to punch her but
missed. She then saw Anna fall to the ground but did not see how she fell. As Anna fell,
[Chavez] stepped in front of his sister and fought with Sue. Sue then fell to the ground.
Thereafter, [Chavez] whispered to his sister, “I did it for you.” As [Chavez’s] sister was

3

ER 75

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 4 of 37

attempting to leave the scene, one of the four men grabbed her arm, and she turned and
knocked the phone out of his hand.
[Chavez] did not make any gang-related statements or flash any gang signs during
the fight.
[Chavez’s] mother ran to her car when she saw people running toward the truck
after the window had been shattered. As she pulled up to the stop sign in front of
[Chavez’s] sister’s house, she saw “one of the Asians” hit Anna. [Chavez] got into the
car. He had blood on his hands and told his mother, “I got him. I got him twice.” He got
out of the car briefly to retrieve his knife, and when he returned they drove off.
Police officers arrived around midnight and described the scene as chaotic.
People were in the intersection screaming, others were attempting to leave, while others
retreated into [Chavez’s] sister’s house. A police officer administered cardio-pulmonary
resuscitation (CPR) to Sue until emergency medical technicians arrived, but Sue died
within minutes. The cause of death was a stab wound to the heart. [Chavez’s] red hat
was found next to Sue’s body.
[Chavez’s] uncle was in the backyard when his girlfriend advised him that
something was happening in front of the house. As he walked out the front door, he saw
[Chavez] get inside [Chavez’s] mother’s car and the car drive off. People were running
toward [Chavez’s] sister’s house, and he and his girlfriend “walked in with everybody
else.” Defendant sent a text to his uncle’s phone, reading: “Make sure you let them fools
know I was never there.”FN6 A text was later sent from [Chavez’s] uncle’s phone to
[Chavez] stating: “We can’t leave cuz the cops have the place surrounded.” Later,
another text was sent from [Chavez’s] uncle’s phone to [Chavez], stating: “And your hat,
nigga, you got them outtie.”FN7
FN6. [Chavez’s] uncle denied receiving the text.
FN7. [Chavez’s] uncle acknowledged that he may have sent the text regarding
the house being surrounded by the police but denied sending the text
regarding the hat.
[Chavez’s] mother drove [Chavez] to the home of Donica and John Wilson so that
he could wash the blood off his hands. They were there for 10 or 15 minutes. Before
leaving, [Chavez] told Donica that he had been in a car accident, and that the blood was
from broken glass. Donica said that she understood. [Chavez] then asked, “Do you
really understand,” and Donica responded, “Yes, I do.” Sometime thereafter, [Chavez’s]
mother told Donica that [Chavez] would kill Donica’s whole family if she told the police
what she had seen.FN8 [Chavez] disposed of the knife later that day.FN9
FN8. At trial, [Chavez’s] mother acknowledged threatening Donica and telling
her that she should keep her mouth shut about what she saw and that she
did not want to deal with [Chavez]. She denied telling Donica that
[Chavez] would kill her family.

4

ER 76

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 5 of 37

FN9. [Chavez’s] mother pleaded guilty to dissuading a witness by force or
threat and influencing testimony by a bribe in connection with this case
and admitted that those crimes were committed for the benefit of, in
association with, or at the direction of a criminal street gang. She agreed
to assist in the underlying investigation in exchange for no prison time and
so she “wouldn’t lose [her] girls.”
[Chavez’s] uncle testified that later that same day he asked [Chavez], “What
happened,” and [Chavez] responded, “I did what I had to do.” [Chavez] also told his
uncle that he had “gotten rid of” his knife by throwing it over a bridge. Later that same
day, [Chavez] accompanied his uncle to a friend’s house where [Chavez] burned the
clothes he had worn to the party.FN10
FN10. [Chavez’s] uncle pleaded guilty to accessory after the fact based on his
actions after the stabbing. He agreed to cooperate and give full and
truthful testimony in this case in exchange for no prison time.
After the incident, [Chavez] told his sister that people who talk to the police get
“dealt with” by being beaten or killed. He also told her to “stay loyal” to him.FN11
FN11. [Chavez’s] sister pleaded guilty to second degree commercial burglary and
unauthorized possession of food stamps in connection with another matter.
As part of plea deal, she agreed to testify truthfully at the trial in this case
in exchange for a reduction and dismissal of those convictions.
In addition to testifying about the events on the night in question and immediately
thereafter, [Chavez’s] uncle testified about his relationship with the Norteños, and the
Norteño gang in general. He, like [Chavez], grew up in San Jose. There were Norteños
“all around” his neighborhood, however, he denied being a member of the gang or
“functioning” as a member in San Jose, stating, “I was raised in the neighborhood, but I
was never what they call flamed up, wearing red, banging.” He explained that he was
forced to “choose sides” when he went to jail at the age of 22, and he chose “the
Northern side,” which meant he was a “Northerner” not a Norteño. He never put in the
work that was required to become a Norteño, such as eliminating sex offenders or
snitches. When he entered jail, he was screened by the gang before they would permit
him to associate with them. He was never fully cleared because he had been convicted of
having sex with a minor, a crime that is frowned upon by the gang. He was “faking”
being a Norteño when he went to the party with [Chavez] and falsely represented to
[Chavez] that he was a Norteño.
[Chavez’s] uncle also testified that red is the primary color of the Norteño gang,
and that members often use monikers, or nicknames. [Chavez’s] moniker was
“Monster.” Norteños use the number 14 because it stands for the letter “N.” He has
various tattoos on his body, which he testified showed his affiliation with Northerners,
not Norteños. Those tattoos include: red colored webbing, “408,” a picture of the State
5

ER 77

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 6 of 37

of California with a red star representing San Jose, two sharks with the letters “SJ” in
their mouths, and a Huelga bird above the word “San Jose.” [Chavez] told him that he
was an active member of Norte San Jose, a subset of the Norteños.
On August 14, 2011, the day after the party, [Chavez] told his then girlfriend that
he had “killed someone” during a confrontation over someone kicking his sister’s dog.
He explained that “he grabbed [the victim's] shirt and then ... stabbed him in the chest a
few times.” He also told her that that the victim never touched or threatened him, and that
he did not intend to kill him. He said that if she told anyone what he had told her that “it
would ... be all bad” for her.FN12
FN12. [Chavez’s] then girlfriend agreed to testify against [Chavez] at trial as part
of a negotiated plea deal in another case. In exchange for her truthful
testimony, she was allowed to plead guilty to attempted robbery and
assault with a deadly weapon with no prison time.
[Chavez’s] uncle and his then girlfriend testified that [Chavez] usually carried a
pocket knife in his back pocket.
Michael Whittington, a former gang detective and gang intelligence officer with
the San Jose Police Department, testified for the prosecution as an expert on gangs. He
gained his expertise from “the area surrounding San Jose, Santa Clara County.” He
testified that the Norteño gang is the predominant gang in San Jose, and that the majority
of his hundreds of gang contacts were with Norteño members. There are at least 30
active subsets of the Norteños in San Jose. Norteños are aligned with the prison gang
Nuestra Familia. Norteños are “foot soldiers” who “are on the streets selling the drugs,
[and] doing the crimes for the purposes of sending money and proceeds up to the Nuestra
Familia.”
Whittington explained that violence is a part of gang life, and that it “is done in
order to enact fear in the community, [and] fear in rivals for the purposes of gaining
territory and control.” It is common for gang members to carry weapons. “Weapons are
tools of the trade” and “benefit the gang because the gang needs to be able to fight at a
moment's notice; therefore, weapons will traditionally be found in or around gang
members.” In gang culture, respect is synonymous with fear. Someone who disrespects
a gang member will be assaulted.
Whittington testified that Norteños claim the color red and dress in the colors red,
black, and white. Tattoos are used to instill fear and show allegiance. The number “14”
represents the letter “N,” which is the 14th letter of the alphabet, and stands for Norteños.
“408” is the area code for San Jose and shows allegiance to that area or the area the gang
claims; it is used by Norteños and Sureños. The same is true of symbols associated with
sharks. Other symbols associated exclusively with Norteños include the roman numeral
XIV, the Huelga bird, and a combination of five dots—one dot on one side and four on
the other representing the number 14.
The prosecution solicited testimony from Whittington and presented documentary
evidence regarding three “predicate offenses” involving Norteño gang members in Santa
Clara County. The first was an assault that occurred on July 25, 2011. A Norteño and a
6

ER 78

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 7 of 37

Crip, who wanted to become a Norteño, confronted a 13–year–old boy who was wearing
a red belt at a park on the south side of San Jose and asked the boy, “Do you bang?”
When the boy responded, “I’m nothing,” the two men beat and stabbed him. The men
were convicted of attempted murder with a gang enhancement. The second crime was an
assault that occurred on May 11, 2011. A Norteño gang member riding in his family van
along with his wife and four children saw a Sureño he recognized from juvenile hall in
the car next to his, got out of his van, and began stabbing the Sureño in the chest. The
Norteño was convicted of attempted murder. The third crime was a robbery committed
by [Chavez], a Norteño, in San Jose on November 6, 2010. [Chavez] was convicted of
robbery, but the crime was not considered gang related.
Whittington also testified that [Chavez] associated with Norteños in jail.
[Chavez] had various gang-related tattoos, including: the word “Norte” on his chest; a
shark fin coming out of the water at the base of his left bicep; the number “408” on his
left arm; the phrase “San Jo” across his back; one dot on one side of his hand and four
dots on the other side; the Huelga bird on his left hand; a “B” in the same form as the
Boston Red Sox on his right hand, which is specific to the Norteño subset Barrio East
Side; the letters “S” and “J” and a shark fin; and a red “14” on his legs. He also wrote
several gang-related pieces of graffiti.
Whittington opined that [Chavez] is a Norteño gang member based on his tattoos,
his writings, his prior conviction, and his actions on the night in question. In responding
to a hypothetical based on some, but not all, of the circumstances of this case,
Whittington opined that such a crime would have been committed for the benefit of and
in association with the Norteño criminal street gang. He based his opinion on “the
prearrangement, the documentation, the tattoos, those elements prior to the assault and
then those actions after the assault.”FN13 More particularly, he noted that by wearing red
and showing visible tattoos, the two Norteños were “demonstrat[ing] their allegiance out
in the open” and “showing their strength in numbers.” He also observed that gang
members are obligated to retaliate with violence when a family member is disrespected;
thus, the first Norteño’s violent response to the disrespect shown to his family member
was required by the gang. With respect to the Norteño who remained at the party,
Whittington observed, “Norteño’s come together for the purposes of assisting and
associating with themselves to protect themselves to further their criminal activity;
therefore, Norteños acting in concert after the crime . . . occurs quite frequently.” The
additional circumstance that no gang signs were thrown or gang slurs made did not
change Whittington’s opinion.
FN13. The hypothetical posed was as follows: “Two documented gang members
who are Norteños go to a party. They pre-arrange to wear red. They both
have visible Norteño tattoos. [¶] At some point in the party a person
disrespects one of the Norteño[s’] family members. This Norteño’s whole
family was present. This Norteño walks up and stabs the victim dead
through the heart. The Norteño flees the scene, forgetting his red hat and
his knife. [¶] Within minutes of leaving the scene, the Norteño texts back
to the remaining Norteño, instructing him to keep the party quiet. The
7

ER 79

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 8 of 37

remaining Norteño assists the stabbing Norteño by alerting him to
forgetting evidence. The stabbing Norteño later provides his clothing and
they both destroy the clothing. The witnesses in the case claim they are
terrified of the stabber, who is a Norteño.”
Whittington acknowledged that a gang member can commit a crime that is not
gang related, and pointed to the robbery committed by [Chavez] as an example of such a
crime, reasoning that [Chavez] “acted alone, nothing was shouted. There was no other
evidence of anything besides a robbery.”
Robert Marquez, a veteran gang investigator who had been assigned to the
Redding Police Department, also testified as a gang expert for the prosecution. He had
spoken to over 1,000 gang members about their tattoos, the structure and methodologies
of the gang, and their involvement with and status within the gang. He testified about the
structure of the gang and its origins. The first prison gang was the Mexican Mafia. Its
purpose was to protect all Hispanics. It eventually splintered into two groups, one of
which was Our Family, which became Nuestra Familia or “NF.” The Nuestra Familia
commissioned the Northern Structure prison gang. In the late 1970’s and early 1980’s
there became a “huge distinction” between north and south, and “what we call Sureños
and Norteños.” He explained that “there has been a migration of southern Hispanic street
gangs moving north, but we have not seen Norteños going south.” In 2010 and 2011, the
Nuestra Familia was attempting to establish a “street regiment” in Shasta County.
Marquez had spoken directly with Norteños who were trying to gain a foothold in Shasta
County, and by August 14, 2011, law enforcement had identified at least 20 Norteños
who were trying to establish a “street regimen[t]” in Shasta County, members of which
had committed a variety of crimes in Shasta County, including assault with a deadly
weapon, attempted murder, and murder.
According to Marquez, violence is crucial to the Norteños and all prison and
street gangs because it translates into fear, which translates into power. Fear benefits the
gang because it helps it control its members, creates a level of notoriety which helps with
recruiting new members, and dissuades members of the community from reporting the
criminal activities of gang members. Marquez also testified about Norteño clothing,
tattoos, colors, and the various ways members are brought into the gang.
Marquez further testified that the primary activities of the Norteños “would be
any of the 33 crimes that are outlined in Penal Code [section] 186.22.” He testified
specifically as to two such crimes. The first occurred in Shasta County in July 2010. A
Norteño dressed as a Sureño kidnapped an active Sureño gang member, drove him to the
west side of Redding, and “fired a firearm at him attempt[ing] to kill him.” The Norteño
was convicted of attempted murder and kidnapping. The second incident also took place
in Shasta County. In June 2000, a Norteño encountered a Sureño inside a Circle K
market, asked the Sureño which gang he belonged to, and when the Sureño did not
respond, the Norteño and another man beat the Sureño. The Norteño was convicted of
assault with force likely to cause great bodily injury.
Marquez opined that [Chavez] was a Norteño gang member and a Northern
Structure prison associate. He based his opinion on two incidents. The first incident
8

ER 80

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 9 of 37

occurred in Corning and involved [Chavez] attacking a rival gang member, while
wearing clothing associated with the Norteño street gang, shouting Norteño gang terms,
and “throwing” Norteño gang signs. The second incident occurred at the Tehama County
Jail and involved [Chavez] assaulting another prisoner. The victim advised jail staff that
he believed [Chavez] attacked him on behalf of another Norteño with whom the victim
had argued.
The prosecution posed the same hypothetical to Marquez as it posed to
Whittington, with the additional fact that the Norteño who stabbed the nongang member
arrived at the party armed with a knife. In response to the hypothetical, Marquez opined
that such a crime “was a gang-related act that benefits that gang.” He testified that the
crime was gang related because two gang members agreed to show up to the party
dressed in gang colors, and as a general rule gang members arm themselves for their
personal protection and for the protection of other gang members. In responding
violently to the disrespect shown to his immediate family member, the Norteño acted in
accordance with established street gang rules. Had the Norteño failed to respond in that
manner, he would have lost stature in the gang and been viewed as weak. The crime
benefited the gang because the “sheer ferocity” of the act would encourage fellow gang
members to follow orders and instill fear in the community. It would also increase the
Norteño’s notoriety within the gang, and the gang’s stature within the community.
On cross-examination, Marquez acknowledged that it would be “completely out
of character” for a Norteño who sees his sister being yelled at and disrespected by a
group of people to come up and shake hands with those people. Such behavior would not
increase the Norteño’s status within the gang. Marquez also acknowledged that it is
possible for a gang member to commit a crime not for the benefit of a gang.
B. The Defense
Dr. Rahn Minagawa, a clinical and forensic psychologist, testified for the defense
as an expert in gang psychology. Minagawa testified that [Chavez] was a Norteño gang
member. He based his opinion on [Chavez’s] tattoos, history, and prior interactions with
law enforcement. He explained that it was possible for a gang member to engage in
criminal activity that was not for the benefit of the gang, such as a response to an attack
on a family member. In response to a hypothetical that mirrored the circumstances of
this case, Minagawa opined that the gang member coming to the aid of his sister would
not be for the benefit of the gang.
[Chavez] did not testify at trial. During closing argument, the defense conceded
that [Chavez] is a gang member and that he stabbed Sue. The defense’s theory was that
the stabbing was the result of a “sudden, rash decision,” and thus, [Chavez] lacked the
malice aforethought required for murder. The defense argued [Chavez] was guilty of
voluntary manslaughter because there was no malice aforethought, and even if there was,
he acted in imperfect defense of his sister when he stabbed Sue.
People v. Chavez, No. C074316, 2016 WL 3609233, at *1-8 (Cal. Ct. App. Jun. 28, 2016).

9

ER 81

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 10 of 37

At the conclusion of trial, the jury found Chavez guilty of first-degree murder and also
found true allegations that the murder was committed for the benefit of, at the direction of, or in
association with a criminal street gang, with the specific intent to promote, further, or assist in
criminal conduct by gang members, and that he personally used a deadly weapon (a knife) in
committing the murder. In a bifurcated proceeding, the court found true the allegations that
Chavez suffered one prior conviction and had served one prior prison term. The trial court
subsequently sentenced Chavez to life imprisonment without the possibility of parole (“LWOP”)
for the murder, plus a consecutive year for the weapon enhancement.1 The court stayed
imposition of sentence on the remaining enhancements pursuant to California Penal Code § 654.2
Through counsel, Chavez appealed his conviction, arguing that: 1) the gang expert’s
reliance on hearsay evidence violated his constitutional right to confrontation; 2) the trial court
improperly admitted gang evidence; 3) the hypothetical questions posed to and answered by one
of the prosecution’s gang experts resulted in a violation of Chavez’s rights; 4) the trial court
erred in admitting Chavez’s prior robbery conviction as a predicate offense; 5) there was
insufficient evidence to support the true findings on the gang enhancement and special
circumstance; 6) Chavez received the ineffective assistance of counsel; 7) the trial court should
have instructed the jury on voluntary manslaughter based on heat of passion; 8) the cumulative
effect of the errors warranted relief; and 9) one of the court’s minute orders did not reflect the

1

The court also imposed a nine-year imprisonment term on another matter.

2

Section 654 provides in relevant part that “[a]n act or omission that is punishable
in different ways by different provisions of law shall be punished under the provision that
provides for the longest potential term of imprisonment, but in no case shall the act or omission
be punished under more than one provision.” CAL. PENAL CODE § 654.
10

ER 82

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 11 of 37

oral pronouncement of the court. Respondent agreed that the minute order should be corrected
but otherwise opposed the appeal. In a divided opinion, the California Court of Appeal agreed
that there was insufficient evidence to support the gang-murder special-circumstance and gangenhancement findings. Chavez, 2016 WL 3609233, at *17-19.3 The appellate court reversed the
judgment as to those true findings, and remanded the case to the trial court for resentencing and
correction of the minute order. Id. at *22.
After the initial opinion was issued, the California Supreme Court decided People v.
Sanchez, 374 P.3d 320, 327-28 (Cal. 2016), in which it held that a gang expert may testify about
his general knowledge but not about case-specific facts of which he has no personal knowledge.
The California Supreme Court determined that such statements violate the Confrontation Clause
if the hearsay is testimonial, unless there is a showing of unavailability and the defendant had a
prior opportunity for cross-examination or forfeited that right by wrongdoing. Id. at 324. On its
own motion, the Court of Appeal granted rehearing in light of Sanchez. The Court of Appeal
issued another divided opinion in which it again reversed the true findings on the gang-murder
special circumstance and gang enhancement, but otherwise affirmed the judgment against
Chavez. People v. Chavez, No. C074316, 2016 WL 5940068, at *21 (Cal. Ct. App. Oct. 13,
2016). Chavez petitioned the California Supreme Court for review of his unsuccessful claims,
which was summarily denied on January 11, 2017. His conviction became final on direct review
90 days later, when his time to file a petition for certiorari in the U.S. Supreme Court expired on

3

One member of the three-justice panel disagreed that there was insufficient
evidence to support the true findings on the gang-murder special circumstance and gangenhancement allegations, and would have affirmed the judgment in its entirety. Chavez, 2016
WL 3609233, at *22-23 (Mauro, J., dissenting).
11

ER 83

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 12 of 37

April 11, 2017. See Jiminez v. Quarterman, 555 U.S. 113, 119 (2009); Spitsyn v. Moore, 345
F.3d 796, 798 (9th Cir. 2003).
Chavez then timely filed a pro se Petition for a Writ of Habeas Corpus to this Court on
March 31, 2018. Docket No. 1 (“Petition”); see 28 U.S.C. § 2244(d)(1)(A).
II. GROUNDS RAISED
In his pro se Petition before this Court, Chavez argues that: 1) the trial court’s failure to
instruct the jury on voluntary manslaughter based on heat of passion violated his due process
rights; 2) the trial court erred in allowing one of the prosecution’s gang experts to testify as to a
hypothetical with direct reference to Chavez and the incident in question; 3) the trial court erred
in allowing the prosecution’s experts to relate case-specific testimonial hearsay in explaining the
basis of their opinions; and 4) his judgment of conviction must be reversed due to cumulative
error.
III. STANDARD OF REVIEW
Under the Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”), 28 U.S.C.
§ 2254(d), this Court cannot grant relief unless the decision of the state court was “contrary to, or
involved an unreasonable application of, clearly established Federal law, as determined by the
Supreme Court of the United States,” § 2254(d)(1), or “was based on an unreasonable
determination of the facts in light of the evidence presented in the State court proceeding,”
§ 2254(d)(2). A state-court decision is contrary to federal law if the state court applies a rule that
contradicts controlling Supreme Court authority or “if the state court confronts a set of facts that
are materially indistinguishable from a decision” of the Supreme Court, but nevertheless arrives
at a different result. Williams v. Taylor, 529 U.S. 362, 406 (2000).

12

ER 84

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 13 of 37

The Supreme Court has explained that “clearly established Federal law” in § 2254(d)(1)
“refers to the holdings, as opposed to the dicta, of [the Supreme Court] as of the time of the
relevant state-court decision.” Id. at 412. The holding must also be intended to be binding upon
the states; that is, the decision must be based upon constitutional grounds, not on the supervisory
power of the Supreme Court over federal courts. Early v. Packer, 537 U.S. 3, 10 (2002). Where
holdings of the Supreme Court regarding the issue presented on habeas review are lacking, “it
cannot be said that the state court ‘unreasonabl[y] appli[ed] clearly established Federal law.’”
Carey v. Musladin, 549 U.S. 70, 77 (2006) (citation omitted).
To the extent that the Petition raises issues of the proper application of state law, they are
beyond the purview of this Court in a federal habeas proceeding. See Swarthout v. Cooke, 131 S.
Ct. 859, 863 (2011) (per curiam) (holding that it is of no federal concern whether state law was
correctly applied). It is a fundamental precept of dual federalism that the states possess primary
authority for defining and enforcing the criminal law. See, e.g., Estelle v. McGuire, 502 U.S. 62,
67-68 (1991) (a federal habeas court cannot reexamine a state court’s interpretation and
application of state law); Walton v. Arizona, 497 U.S. 639, 653 (1990) (presuming that the state
court knew and correctly applied state law), overruled on other grounds by Ring v. Arizona, 536
U.S. 584 (2002).
In applying these standards on habeas review, this Court reviews the “last reasoned
decision” by the state court. See Robinson v. Ignacio, 360 F.3d 1044, 1055 (9th Cir. 2004)
(citing Avila v. Galaza, 297 F.3d 911, 918 (9th Cir. 2002)). A summary denial is an adjudication
on the merits and entitled to deference. Harrington v. Richter, 562 U.S. 86, 99 (2011). Under
the AEDPA, the state court’s findings of fact are presumed to be correct unless the petitioner

13

ER 85

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 14 of 37

rebuts this presumption by clear and convincing evidence. 28 U.S.C. § 2254(e)(1); Miller-El v.
Cockrell, 537 U.S. 322, 340 (2003).
IV. DISCUSSION
A.

Instructional Error (Ground 1)
Chavez first argues that the trial court erred in refusing to instruct the jury on the lesser

included offense of voluntary manslaughter. Because jury instructions in state trial are typically
matters of state law, federal courts are bound by a state appellate court’s determination that a
jury instruction was not warranted under state law. See Bradshaw v. Richey, 546 U.S. 74, 76
(2005) (noting that the Supreme Court has repeatedly held that “a state court’s interpretation of
state law, including one announced on direct appeal of the challenged conviction, binds a federal
court sitting in habeas corpus.”); see also Williams v. Calderon, 52 F.3d 1465, 1480-81 (9th Cir.
1995). An instructional error, therefore, “does not alone raise a ground cognizable in a federal
habeas proceeding.” Dunckhurst v. Deeds, 859 F.2d 110, 114 (9th Cir. 1986) (citation omitted).
A challenged instruction violates the federal constitution if there is a “reasonable
likelihood that the jury has applied the challenged instruction in a way that prevents the
consideration of constitutionally relevant evidence.” Boyde v. California, 494 U.S. 370, 380
(1990). The question is whether the instruction, when read in the context of the jury charges as a
whole, is sufficiently erroneous to violate the Fourteenth Amendment. Francis v. Franklin, 471
U.S. 307, 309 (1985). This Court must also assume in the absence of evidence to the contrary
that the jury followed those instructions. Weeks v. Angelone, 528 U.S. 225, 234 (2000);
Richardson v. Marsh, 481 U.S. 200, 206 (1987) (noting the “almost invariable assumption of the

14

ER 86

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 15 of 37

law that jurors follow their instructions”); see Francis, 471 U.S. at 323-24 & n.9 (discussing the
subject in depth).
It is well-established that not only must the challenged instruction be erroneous but it
must violate some constitutional right, and it may not be judged in artificial isolation but must be
considered in the context of the instructions as a whole and the trial record. Estelle, 502 U.S. at
72. This Court must also bear in mind that the Supreme Court has admonished that the inquiry is
whether there is a reasonable likelihood that the jury applied the challenged instruction in a way
that violates the constitution and that the category of infractions that violate “fundamental
fairness” is very narrowly drawn. Id. at 72-73. “Beyond the specific guarantees enumerated in
the Bill of Rights, the Due Process clause has limited operation.” Id. Where the defect is the
failure to give an instruction, the burden is even heavier because an omitted or incomplete
instruction is less likely to be prejudicial than an instruction that misstates the law. See
Henderson v. Kibbe, 431 U.S. 145, 155 (1977).
Here, Chavez contends that the trial court erroneously rejected his request to instruct the
jury pursuant to CALCRIM No. 570, which states that a killing that would otherwise be murder
is reduced to voluntary manslaughter if the defendant acted based on a sudden quarrel or heat of
passion. In rejecting the request, the trial court stated that it did not “believe there was any
actual provocation or evidence of provocation by the victim toward [Chavez].” After the verdict,
Chavez moved for a new trial based in part on the failure to give the instruction, arguing that the
evidence presented required it, and again challenged the decision on direct appeal. In rejecting
this claim on direct appeal, the Court of Appeal laid out the following guidelines under
California law:

15

ER 87

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 16 of 37

A trial court must instruct the jury on all general principles of law relevant to the
issues raised by the evidence, including lesser included offenses. (People v. Moye (2009)
47 Cal.4th 537, 548 (Moye).) Instructions on a lesser included offense must be given
when there is substantial evidence from which the jury could conclude the defendant is
guilty of the lesser offense, but not the greater. (People v. Thomas (2012) 53 Cal.4th
771, 813.) The existence of any evidence, no matter how weak, will not justify
instruction on a lesser included offense. (People v. Whalen (2013) 56 Cal.4th 1, 68.)
We independently review the question of whether the trial court erred by failing
to instruct on a lesser included offense. (People v. Souza (2012) 54 Cal.4th 90, 113.)
When considering whether lesser included offense instructions should have been given,
we view the evidence in the light most favorable to the defendant. (People v. Millbrook
(2014) 222 Cal.App.4th 1122, 1137.)
Voluntary manslaughter is the intentional but nonmalicious killing of a human
being, and is a lesser offense of murder. (§ 192, subd. (a); Moye, supra, 47 Cal.4th at p.
549.) A killing may be reduced from murder to voluntary manslaughter if it occurs upon
a sudden quarrel or in the heat of passion on sufficient provocation, or if the defendant
kills in the unreasonable, but good faith, belief that deadly force is necessary in defense
of another. (People v. Beltran (2013) 56 Cal.4th 935, 942, 951 (Beltran); People v.
Manriquez (2005) 37 Cal.4th 547, 583.)
“Heat of passion arises when ‘at the time of the killing, the reason of the accused
was obscured or disturbed by passion to such an extent as would cause the ordinarily
reasonable person of average disposition to act rashly and without deliberation and
reflection, and from such passion rather than from judgment.’ [Citations.]” (People v.
Barton (1995) 12 Cal.4th 186, 201.) “‘“Although section 192, subdivision (a), refers to
‘sudden quarrel or heat of passion,’ the factor which distinguishes the ‘heat of passion’
form of voluntary manslaughter from murder is provocation.”’” (People v. Souza, supra,
54 Cal.4th at p. 116.)
A heat of passion theory of manslaughter thus has both an objective and a
subjective component. (Moye, supra, 47 Cal.4th at p. 549.) “The provocation which
incites the defendant to homicidal conduct . . . must be caused by the victim . . . or be
conduct reasonably believed by the defendant to have been engaged in by the victim.”
(People v. Lee (1999) 20 Cal.4th 47, 59.) The victim’s conduct may have been physical
or verbal, but it must have been sufficiently provocative to cause an ordinary person of
average disposition to act rashly or without due deliberation and reflection. (Beltran,
supra, 56 Cal.4th at p. 939.)
To satisfy the subjective component, the defendant must have killed “while under
‘the actual influence of a strong passion’ induced by [adequate] provocation.” (Moye,
supra, 47 Cal.4th at p. 550.) “‘“[N]o specific type of provocation [is] required,”’” and
“the passion aroused need not be anger or rage, but can be any ‘“‘[v]iolent, intense,
high-wrought or enthusiastic emotion’”’ [citations] other than revenge [citation].”
(People v. Breverman (1998) 19 Cal.4th 142, 163.)
Chavez, 2016 WL 5940068, at *19-20.

16

ER 88

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 17 of 37

The United States Supreme Court has held that the failure to instruct on a lesser included
offense in a capital case is constitutional error if there was evidence to support the instruction.
Beck v. Alabama, 447 U.S. 625, 638 (1980). The Supreme Court, however, has not decided
whether to extend this rationale to non-capital cases. The Ninth Circuit, like several other
federal circuits, has declined to extend Beck to find constitutional error arising from the failure to
instruct on a lesser included offense in a non-capital case. See Solis v. Garcia, 219 F.3d 922,
929 (9th Cir. 2000); Windham v. Merkle, 163 F.3d 1092, 1106 (9th Cir. 1998) (“[T]he failure of
a state trial court to instruct on lesser included offenses in a non-capital case does not present a
federal constitutional question.”); James v. Reese, 546 F.2d 325, 327 (9th Cir. 1976) (“Failure of
a state court to instruct on a lesser offense fails to present a federal constitutional question and
will not be considered in a federal habeas corpus proceeding.”). Accordingly, the decision of the
California courts denying Chavez relief as to this claim was not contrary to United States
Supreme Court authority as set forth in Beck.
Nevertheless, the Ninth Circuit has stated, without deciding, that “the refusal by a court
to instruct a jury on lesser included offenses, when those offenses are consistent with defendant’s
theory of the case, may constitute a cognizable habeas claim” under clearly established United
States Supreme Court precedent. Solis, 219 F.3d at 929.4 Contrary to Chavez’s argument,

4

A number of district courts in the Ninth Circuit, including this one, have
questioned whether the Ninth Circuit’s statement in Solis is required by the holdings of clearlyestablished Supreme Court authority. See, e.g., Garcia v. Sherman, No. 14-cv-00980, 2018 WL
347866, at *15 n.1 (E.D. Cal. Jan. 10, 2018) (explaining that subsequent Ninth Circuit cases
have cited Solis “for the absolute proposition that there is no clearly established federal
constitutional right to instructions on lesser-included offenses in non-capital cases); Chaidez v.
Knowles, 258 F. Supp. 2d 1069, 1096 n.15 (N.D. Cal. 2003) (suggesting that there is no clearly
established Supreme Court authority for the Solis proposition). As discussed above, however,
Chavez does not benefit from the Solis proposition in any event.
17

ER 89

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 18 of 37

however, the evidence simply did not support such instruction. In rejecting his claim, the
appellate court recounted the following evidence:
Here, the evidence showed that [Chavez’s] sister was intoxicated and hysterical at
all relevant times herein. When she initially accused the four men of kicking her dog,
[Chavez] intervened and the matter was peacefully resolved. Thereafter, the four men
got inside a truck and were preparing to leave, when [Chavez’s] sister shattered the
truck’s window with her keys. At that point, the victim Sue and the other three men got
out of the truck. Jim, who had been seated in the backseat of the truck, testified that when
he got out, he observed a “tussle” about 10 feet behind the truck involving Sue and “like
three other people,” including [Chavez and his] sister. They were “swinging and
fighting.” [Chavez’s] sister testified that Sue attempted to punch her but missed.
[Chavez] then stepped in front of her and fought with Sue. Sue then fell to the ground.
Immediately thereafter, [Chavez] got into a car driven by his mother. Before they drove
off, [Chavez] got out of the car and retrieved his knife.
Id.
As the Court of Appeal reasonably concluded, even assuming that a jury could find Sue’s
conduct sufficiently provocative to cause an ordinary person of average disposition to act rashly
or without due deliberation or reflection, “there is no evidence, direct or circumstantial, that
would support an inference that [Chavez] subjectively harbored such strong passion, or acted
rashly or impulsively while under its influence” when he stabbed the victim. Id. As the Court of
Appeal noted:
To the contrary, what little evidence there is regarding [Chavez’s] state of mind
suggests that his judgment was not obscured. After stabbing Sue, [Chavez] immediately
proceeded to a waiting car, driven by his mother, and before departing, had the presence
of mind to get out of the car, return to the scene, and retrieve the murder weapon.
Id. Thus, Chavez fails to satisfy the subjective component of a heat of passion theory of
manslaughter. Because an instruction on the lesser included offenses was not supported by the
evidence, no due process violation arose from the failure to instruct the jury on the lesser
included offense. See Bradley v. Duncan, 315 F.3d 1091, 1098-1101 (9th Cir. 2002) (finding

18

ER 90

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 19 of 37

federal due process violation where defendant’s request for instruction on the only theory of
defense was denied); Solis, 219 F.3d at 929.
In addition to the possibility of demonstrating a due process violation based on the failure
to instruct on a theory of the defense, clearly established federal law provides that, in order to
establish a violation of his federal due process rights by the failure to give a requested jury
instruction, Chavez must demonstrate that the instruction should have been given, and that its
omission “so infected the entire trial that the resulting conviction violates due process.”
Henderson, 431 U.S. at 154; see Clark v. Brown, 442 F.3d 708, 726 (9th Cir. 2006) (holding that
trial court’s failure to give instruction was not harmless because there was a “reasonable
probability” that, armed with the omitted instruction, the jury would have concluded that the
arson was “incidental” and that the felony-murder special circumstance was not true). Here,
Chavez has not carried this heavy burden because, as the Court of Appeal noted, the jury found
Chavez guilty of premeditated, deliberate murder under properly given instructions and therefore
implicitly rejected any theory that Chavez acted impulsively or without careful consideration.
See Chavez, 2016 WL 5940068, at *21. It is thus clear that the failure to instruct on voluntary
manslaughter could not have had any adverse effect whatsoever on the jury’s decision, much less
the “substantial and injurious effect” required to show the error was harmful. Brecht v.
Abrahamson, 507 U.S. 619, 637 (1993). Thus, the Appellate Court’s alternate conclusion that
any error in failing to give a heat of passion instruction was harmless was both reasonable and
fully supported by the record. Accordingly, Chavez is not entitled to relief on this instructional
error claim.

19

ER 91

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 20 of 37

B.

Erroneous Gang Expert Testimony (Grounds 2, 3)
Chavez next avers that the trial court made two errors with respect to the prosecution’s

proffered gang testimony.
1.

Improper hypotheticals (Ground 2)

Chavez first claims that the trial court improperly allowed the prosecution’s gang expert
to opine on Chavez’s guilt by responding to hypotheticals that mirrored the facts of his case with
direct references to Chavez and the incident at issue. The Court of Appeal laid out the following
facts underlying this claim:
In her case-in-chief, the prosecutor posed a hypothetical to Marquez based on the
facts of the charged crime and asked him whether the crime “was committed for the
benefit [of] or in association with a criminal street gang?” Marquez testified that “it is
definitely a gang-related offense.” The prosecutor then asked Marquez to explain the
basis of his opinion. Marquez said that his opinion was “based on the totality of the
incident. You have a gang member request that another gang member show up to a party
wearing gang colors. Gang members, as a general rule, arm themselves for their personal
protection and for the protection of other gang members. [¶] Whether or not the family
member was a gang member, for me, is irrelevant, in that the non-gang family member is
still related to the gang member. Family is family and that extends across the gang to the
immediate family who may have or may not have gang ties. [¶] Again, for, in this case,
Chavez, not to respond to defend his sister to avenge this slight or perceived disrespect
would be seen as cowardice or weakness on his part. And again, it would diminish his
stature within the gang in front of the other gang member who was there. And so Chavez
had an obligation to act to protect his own reputation within the gang.”
The prosecutor then asked Marquez, “How, under that set of facts, do you think it
would further promote the gang and the criminal conduct of the gang specifically?”
Marquez explained that “a gang member committing such a vicious act” would gain
notoriety for himself and stature for the gang in the community. Marquez continued, “I
can assure you that people in prison have heard about this incident. They get newspapers
and they are allowed to watch TV and they see a newscast, so they have heard about this
incident so it has increased the stature of the Norteños in Shasta County.” [Chavez’s]
trial counsel objected on the grounds the testimony was speculative “as far as who has
seen what on what TV.” The trial court overruled the objection and then sought to clarify
that Marquez had no personal knowledge that anyone in prison had actually read about
the underlying crime in the paper, and Marquez responded, “Not read in the paper, but . .
. I have talked to confidential informants who have stated things about Vinny Chavez,
Vincent Chavez, in relationship to this homicide.” The prosecutor then asked, “[I]n my
20

ER 92

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 21 of 37

hypothetical there were people around who may or may not have been gang members
who watched and knew that Vincent Chavez had killed an innocent man. Would it have
needed to have been another gang member who knew or watched this for the gang to
have benefited from the act?” Marquez responded in the negative, explaining that
anyone who had seen or heard about such an act would fear the perpetrator and that fear
would translate into power.
The prosecutor next asked Marquez, “Hypothetically, would a street gang
member who went to prison after having viciously stabbed someone through the heart
gain additional status in the Norteño gang in custody?” Marquez responded, “It has been
my experience that that is the case. An individual is going to show up into the in-custody
setting in prison, he’s going to have to fill out his new arrival questionnaire, talk about
the criminal offenses he’s committed in custody and out of custody, and individuals that
belong to the Norteño gang and the Northern Structure prison gang are going to review
that new arrival questionnaire . . . and they are going to know about the ferocity of that
crime.” Thereafter, the trial court asked Marquez, “[I]n general, is your opinion as to
individuals who would commit a crime of murder and then enter the prison, not as to this
specific defendant, but this is based on your training and experience from what may
occur in a similar situation; is that fair to say?” Marquez responded in the affirmative,
explaining that “an individual who commits a murder would have greater status than an
individual that sold narcotics or robbed a 7/11.” The trial court then admonished the jury
“that that part of [Marquez’s] answer doesn’t apply to [Chavez] in this particular case,
that that is something that is going to happen with [Chavez] because that is up to the jury
to decide what the outcome is of this particular case. So he’s talking in generalities of
individuals who would enter prison after having committed a crime that would be
gang-related . . . .”
Chavez, 2016 WL 5940068, at *12-13.
Chavez argues, as he did on direct appeal, that Marquez improperly offered direct
opinions on his guilt and that such testimony should have been excluded. The Court of Appeal
rejected the claim as follows:
Here, Marquez properly opined that a homicide committed in the manner
described in the hypothetical was gang related. We recognize that some of his responses
and one of the prosecutor’s questions strayed from the hypothetical and referred directly
to [Chavez] and/or the incident in question. Marquez, however, never testified directly
that [Chavez] stabbed Sue for a gang purpose or with the intent of promoting, furthering,
or assisting the criminal conduct of gang members. In explaining the basis for his
opinion that the crime described in the hypothetical was gang related, Marquez stated that
he considered it irrelevant that the family member who had been involved in the
argument that led to the stabbing was not a gang member because “[f]amily is family and
that extends across the gang to the immediate family . . . .” He then applied that general
21

ER 93

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 22 of 37

statement directly to [Chavez], stating in pertinent part, “Chavez ha[d] an obligation to
act to protect his own reputation within the gang.” When considered in context, it is clear
that Marquez was offering an opinion as to the expected response of a gang member
under the circumstances of this case. Significantly, he did not testify directly that
[Chavez] stabbed Sue to protect his own reputation within the gang, but rather that a gang
member in [Chavez’s] position would have felt obligated to respond with violence.
Marquez’s subsequent statement that he had been told that prison inmates knew about
[Chavez’s] crime as a basis for his opinion that [Chavez’s] actions increased the stature
of the gang, does not amount to an opinion concerning [Chavez’s] subjective intent. In
any event, the trial court clarified that Marquez’s opinion “as to individuals who would
commit a crime of murder and then enter . . . prison” was “not as to this specific
defendant” and admonished the jury that Marquez’s response did not apply to “the
defendant in this particular case.” Finally, the prosecutor’s direct reference to [Chavez]
in the midst of her hypothetical did not turn Marquez’s response thereto into improper
opinion testimony. The prosecutor observed that “in my hypothetical there were people
around who may or may not have been gang members who watched and knew that
Vincent Chavez had killed an innocent man. Would it have needed to have been another
gang member who knew or watched this for the gang to have benefited from the act?”
Marquez responded to the question in hypothetical terms and did not refer directly to
[Chavez] but rather to “this individual.” Given the context in which the challenged
remarks were made, we find that it was sufficiently clear to the jury that Marquez was
expressing an opinion on how he would expect a gang member to react under the
circumstances described in the hypothetical, not on [Chavez’s] subjective intent in this
instance.
Id. at *14.
Under California law, expert testimony on criminal street gangs is admissible to prove
the elements of the criminal street gang substantive offense and the gang enhancement. See
People v. Jasso, 150 Cal. Rptr. 3d 464, 484 (Cal. Ct. App. 2012) (relying on expert testimony in
part to support a conviction for the substantive offense); see also People v. Hernandez, 94 P.3d
1080, 1085 (Cal. 2004) (“In order to prove the elements of the criminal street gang enhancement,
the prosecution may, as in this case, present expert testimony on criminal street gangs.”).
Chavez nonetheless argues that Marquez’s testimony was improper because he commented on
Chavez’s guilt by referring to Chavez directly in response to a hypothetical question. According
to Chavez, it was error to admit Marquez’s testimony because it invaded the province of the jury
22

ER 94

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 23 of 37

on an ultimate issue in the case—whether the homicide was gang-related and there was no other
motive for the killing. Chavez bases this argument on People v. Vang, a California Supreme
Court decision holding that, while a witness may be asked a hypothetical based on the facts
supported by the evidence, the hypothetical cannot ask the witness to opine as to the actions of
the specific defendant at trial. 262 P.3d 581, 588 (Cal. 2011) (commenting that expert testimony
regarding the specific defendant at issue acted for a gang reason might be objectionable, but
declining to address the issue because the expert there did not testify directly about the defendant
in that case). However, Chavez’s contention is that the testimony violated state law, and federal
habeas relief is not available for errors of state law. Estelle, 502 U.S. at 67-68.
Chavez additionally argues that the testimony deprived him of due process in violation of
federal law. But under federal law, there is no support for “the general proposition that the
Constitution is violated by the admission of expert testimony concerning an ultimate issue to be
resolved by the trier of fact.” Moses v. Payne, 555 F.3d 742, 761 (9th Cir. 2009). “[I]t is
‘well-established . . . that expert testimony concerning an ultimate issue is not per se improper.’
Although ‘[a] witness is not permitted to give a direct opinion about the defendant’s guilt or
innocence . . . an expert may otherwise testify regarding even an ultimate issue to be resolved by
the trier of fact.’” Id. (internal citations omitted); see also Duvardo v. Giurbino, 410 F. App’x
69, 70 (9th Cir. 2011) (noting that the Supreme Court “has never held that the admission of
expert testimony on an ultimate issue to be resolved by the trier of fact violates the Due Process
Clause”); Briceno v. Scribner, 555 F.3d 1069, 1077-78 (9th Cir. 2009), overruled on other
grounds as recognized in Emery v. Clark, 643 F.3d 1210, 1215 (9th Cir. 2011). Indeed, the
Ninth Circuit has recently reiterated that “because ‘there is no clearly established constitutional

23

ER 95

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 24 of 37

right to be free of an expert opinion on an ultimate issue . . . the admission of the opinion
testimony of [a gang expert] cannot be said to be contrary to, or an unreasonable application of,
Supreme Court precedent.’” Maquiz v. Hedgpeth, 907 F.3d 1212, 1217 (9th Cir. 2018) (quoting
Briceno, 555 F.3d at 1077-78).
Moreover, Chavez fails to show that the challenged testimony had a “substantial and
injurious effect or influence on” his case. Brecht, 507 U.S. at 623. Here, the gang-related
testimony would have directly affected only the jury’s verdict as to the gang-murder special
circumstance and the gang enhancement, but the Court of Appeal reversed the true findings on
those allegations on direct appeal. Chavez does not demonstrate that the gang expert opinion
testimony had a “substantial and injurious effect or influence” on the jury’s first-degree murder
conviction, as the Court of Appeal reasonably concluded in rejecting Chavez’s related
Confrontation Claim, see infra. The trial court also instructed the jury that it was not to interpret
Marquez’s opinions as comments on what Chavez did or why because such questions were
squarely within the jury’s own province to decide. This Court must assume in the absence of
evidence to the contrary that the jury followed those instructions. Weeks v. Angelone, 528 U.S.
225, 234 (2000); Richardson v. Marsh, 481 U.S. 200, 206 (1987) (noting the “almost invariable
assumption of the law that jurors follow their instructions”); see Francis, 471 U.S. at 323-24 &
n.9 (discussing the subject in depth). For all these reasons, Chavez is not entitled to relief on this
claim.

24

ER 96

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 25 of 37

2.

Confrontation violation (Ground 3)
Chavez additionally argues that the admission of hearsay evidence through the testimony

of the prosecution’s gang experts violated his right to confrontation. The California Court of
Appeal considered and rejected this claim as follows:
Citing Crawford v. Washington (2004) 541 U.S. 36 (Crawford), [Chavez]
contends that his Sixth Amendment right to confront and cross-examine witnesses was
violated when the prosecution’s gang experts were allowed to rely on and present large
amounts of testimonial hearsay to the jury in explaining their opinions. We initially
rendered a decision in this case on June 28, 2016. Relying on our Supreme Court’s
decision in People v. Gardeley (1996) 14 Cal.4th 605 (Gardeley), which held that reliable
hearsay evidence is admissible under Evidence Code sections 801 and 802 for the
nonhearsay purpose of revealing the basis for an expert witness’s opinion and in that
context is not admitted for the truth, we rejected [Chavez’s] claim. We concluded that
because the challenged evidence was admitted for the limited purpose of explaining the
basis of the gang experts’ opinions and not for its truth, neither the hearsay doctrine nor
the confrontation clause were implicated.
Two days after we rendered our decision, our Supreme Court rendered its
decision in People v. Sanchez (2016) 63 Cal.4th 665 (Sanchez), which “clarif[ied] the
proper application of Evidence Code sections 801 and 802, relating to the scope of expert
testimony,” (id. at p. 670) and disapproved of Gardeley “to the extent it suggested an
expert may properly testify regarding case-specific out-of-court statements without
satisfying hearsay rules.” (Id. at p. 686, fn. 13.) The court adopted the following rule: “If
an expert testifies to case-specific out-of-court statements to explain the bases for his
opinion, those statements are necessarily considered by the jury for their truth, thus
rendering them hearsay. Like any other hearsay evidence, it must be properly admitted
through an applicable hearsay exception.” (Id. at p. 684.)
We granted rehearing in light of the court’s decision in Sanchez, vacated our
decision, and directed the parties to submit supplemental letter briefs addressing
Sanchez’s impact on defendant’s arguments.FN14 Having reviewed those briefs, we shall
conclude that many of the out-of-court statements related by the prosecution’s gang
experts were not case-specific, and thus, did not constitute inadmissible hearsay under
California law. Assuming for argument’s sake that the remaining statements were
case-specific and testimonial, and thus, should have been excluded under Crawford, we
conclude that their admission was harmless beyond a reasonable doubt.
FN14. In their supplemental letter brief, the People appear to question whether
Sanchez “applies retroactively to cases pending on direct appeal.” The
People, offer no legal authority that would support a finding that Sanchez
does not apply, and we are not aware of any such authority. Rather, “‘[a]s
a matter of normal judicial operation, even a non-retroactive decision [i.e.,
25

ER 97

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 26 of 37

one that cannot serve as a basis for collateral attack on a final judgment]
ordinarily governs all cases still pending on direct review when the
decision is rendered.’” (People v. Guerra (1984) 37 Cal.3d 385, 400; see
also In re Richardson (2011) 196 Cal.App.4th 647, 663.) While we issued
our initial decision in this matter two days before the court rendered its
decision in Sanchez, the remitittur had not yet issued. Moreover, we have
since vacated that decision and granted rehearing in this case. Thus, the
case is pending on direct review and is governed by Sanchez.
“The admission of expert testimony is governed not only by state evidence law,
but also by the Sixth Amendment’s confrontation clause, which provides that, ‘[i]n all
criminal prosecutions, the accused shall enjoy the right . . . to be confronted with the
witnesses against him . . . .’” (Sanchez, 63 Cal.4th at p. 679, quoting U.S. CONST., 6th
Amend.). In Crawford, the United States Supreme Court held that the admission of
testimonial hearsay against a criminal defendant violates the confrontation clause unless
the declarant is unavailable to testify, and the defendant had a prior opportunity for
cross-examination. (Crawford, supra, 541 U.S. at p. 59, & fn. 9.) “[A] court addressing
the admissibility of out-of-court statements must engage in a two-step analysis. The first
step is a traditional hearsay inquiry: Is the statement one made out of court; is it offered
to prove the truth of the facts it asserts; and does it fall under a hearsay exception? If a
hearsay statement is being offered by the prosecution in a criminal case, and the
Crawford limitations of unavailability, as well as cross-examination or forfeiture, are not
satisfied, a second analytical step is required. Admission of such a statement violates the
right to confrontation if the statement is testimonial hearsay, as the high court defines that
term.” (Sanchez, at p. 680.) Improper admission of hearsay constitutes state law statutory
error subject to the harmless error test set forth in Watson.FN15 Improper admission of
testimonial hearsay implicates constitutional rights and is therefore subject to the
ChapmanFN16 test for harmless error. (Sanchez, at pp. 698–699.)
FN15. People v. Watson (1956) 46 Cal.2d 818.
FN16. Chapman v. California (1967) 386 U.S. 18 [17 L.Ed.2d 205].
“While lay witnesses are allowed to testify only about matters within their
personal knowledge (EVID. CODE, § 702, subd. (a)), expert witnesses are given greater
latitude . . . . In addition to matters within their own personal knowledge, experts may
relate information acquired through their training and experience, even though that
information may have been derived from conversations with others, lectures, study of
learned treatises, etc. . . . An expert’s testimony as to information generally accepted in
the expert’s area, or supported by his own experience, may usually be admitted to
provide specialized context the jury will need to resolve an issue. When giving such
testimony, the expert often relates relevant principles or generalized information rather
than reciting specific statements made by others.” (Sanchez, supra, 63 Cal.4th at p. 675.)

26

ER 98

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 27 of 37

“The hearsay rule has traditionally not barred an expert’s testimony regarding his
general knowledge in his field of expertise.” (Sanchez, supra, 63 Cal.4th at p. 676.) “By
contrast, an expert has traditionally been precluded from relating case-specific facts about
which the expert has no independent knowledge. Case-specific facts are those relating to
the particular events and participants alleged to have been involved in the case being
tried.” (Ibid.) “If an expert testifies to case-specific out-of-court statements to explain
the bases for his opinion, those statements are necessarily considered by the jury for their
truth, thus rendering them hearsay. Like any other hearsay evidence, it must be properly
admitted through an applicable hearsay exception. Alternatively, the evidence can be
admitted through an appropriate witness and the expert may assume its truth in a properly
worded hypothetical question in the traditional manner.” (Id. at p. 684, fn. omitted.)
Sanchez “does not affect the traditional latitude granted to experts to describe background
information and knowledge in the area of his expertise.” (Id. at p. 685.) “Gang experts,
like all others, can rely on background information accepted in their field of expertise
under the traditional latitude given by the Evidence Code. They can rely on information
within their personal knowledge, and they can give an opinion based on a hypothetical
including case-specific facts that are properly proven.” (Ibid.)
In his supplemental letter brief, [Chavez] asserts that both of the prosecution’s
gang experts related case-specific testimonial hearsay in explaining the basis for their
shared opinion that Norteño members are engaged in a pattern of criminal activity.FN17
[Chavez] contends that “Whittington’s testimony violated Sanchez when he testified to
the case specific facts underlying each of the predicate offenses that he gathered during
an investigation.” Whittington testified about two attempted murder convictions suffered
by two Norteño gang members, each of which involved a stabbing. Whittington’s
knowledge of the facts underlying those convictions came from his own investigation.
Marquez testified about two convictions—one for attempted murder and kidnapping and
the other for assault with force likely to cause great bodily injury—suffered by two
Norteño gang members. Marquez testified as an expert witness in the attempted murder
and kidnapping case, and was one of the officers who took the defendant in the assault
case into custody. Under Sanchez, an expert is “precluded from relating case-specific
facts about which the expert has no independent knowledge. Case-specific facts are
those relating to the particular events and participants alleged to have been involved in
the case being tried.” (Sanchez, supra, 63 Cal.4th at p. 676, italics added.) None of the
convictions at issue here involved [Chavez], and none of the facts testified to by
Whittington or Marquez related to the events or participants involved in this case.
Accordingly, the underlying facts related by the prosecution’s experts concerning those
convictions are not “case-specific,” and thus, their admission did not run afoul of state
hearsay rules or the Sixth Amendment.FN18 (Sanchez, at p. 676.) Rather, it is more akin
to background information concerning the gang. (Ibid.) Moreover, to the extent that
Whittington and Marquez’s testimony was based on their own personal knowledge and
investigation, it was not subject to exclusion on hearsay grounds regardless of whether it
was case-specific. (Ibid.)

27

ER 99

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 28 of 37

FN17. [Chavez] objected to the challenged testimony on hearsay and Crawford
grounds. He interposed his objection during the prosecutor's direct
examination of Whittington. The trial court overruled the objection on the
grounds that (1) experts can rely on hearsay, and (2) the testimony was
“not being offered for the truth,” but rather “as the basis for his expertise
and opinion.” Thereafter, the trial court granted [Chavez’s] request for a
standing objection.
FN18. Whittington also testified about a robbery conviction suffered by [Chavez]
to establish that Norteño members engage in a pattern of criminal activity.
[Chavez], however, does not claim that such testimony violated state
hearsay rules or the Sixth Amendment.
[Chavez] also claims that Marquez related case-specific testimonial hearsay to the
jury when he testified about prior gang-related assaults committed by [Chavez] in
explaining the basis of his opinion that [Chavez] is a member of the Norteño street gang,
and that such evidence “could have led . . . the jury to impute the basest motive to [him]
and conclude [he] deserved conviction of the most serious offenses based on his prior
conduct.” As we shall explain, any error in admitting this testimony was harmless
beyond a reasonable doubt.
Marquez testified that he based his opinion that [Chavez] is [a] Norteno street
gang member and a Northern Structure prison associate in part on a 2001 conviction in
Tehama County and an incident at the Tehama County Jail. Marquez elaborated: “One
was an incident that happened in Corning where it is documented that [Chavez] attacked
a rival gang member, was wearing Norteño gang clothing, shouted gang terms and threw
gang signs. [¶] The second case that I considered came from the Tehama County Jail.
And in that case it’s documented that [Chavez] assaulted another prisoner. The other
prisoner relayed to staff that he believed [Chavez] specifically attacked him on behalf of
another Norteño gang member that the victim had an argument with prior.” Marquez
learned of the facts underlying the conviction and the incident at the Tehama County Jail
from a Tehama County probation report. Marquez further testified that he also
considered [Chavez’s] “CDC file” in concluding that defendant is a gang member. In
particular, he testified concerning “a rules violation report, CDC 115, where [Chavez]
was found guilty, along with another Northern Hispanic from Santa Clara County, of
assaulting another Northern Hispanic from Stanislaus County.”
Assuming for argument’s sake that Marquez’s testimony concerning these prior
incidents constituted case-specific testimonial hearsay and should have been excluded
under the confrontation clause, its admission was harmless beyond a reasonable doubt
because other witnesses testified, without objection, that [Chavez] admitted engaging in
similar conduct. [Chavez’s] sister testified that [Chavez] told her that he had “beaten up”
another gang member whom he said was a “drop out” while defendant was in prison.
[Chavez’s] uncle testified that [Chavez] told him that he “beat up” someone who had
snitched on [Chavez] while [Chavez] was in prison. Donica Wilson testified that
[Chavez] told her that he was part of the Norteño street gang and had “beat up” a lot of
28

ER 100

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 29 of 37

people and committed a lot of crimes. Moreover, documentary evidence of [Chavez’s]
2001 conviction for assault with a deadly weapon was admitted without objection, and
evidence of his 2011 robbery conviction was properly admitted [.]FN19
FN19. Records of prior convictions are business records and, therefore,
nontestimonial statements. (People v. Moreno (2011) 192 Cal.App.4th
692, 710.)
[Chavez] also takes issue with the following out-of-court statements related by
Marquez in support of his opinions: [Chavez] is a “squad member” for the Northern
Structure prison gang at the Solano prison; [Chavez] goes by the moniker “Monster”;
[Chavez] threatened to attack “Southerners” if released in the prison yard; [Chavez]
refused to “program” on the “Lassen yard” and was placed in “administrative detention”;
[Chavez] has a Huelga Bird tattoo on his hand; [Chavez] is an active Norteño gang
member in Redding; and inmates at the Shasta County Jail learned of this incident from
reading newspapers. Again, assuming for argument’s sake that the challenged testimony
constituted case-specific testimonial hearsay, its admission was harmless beyond a
reasonable doubt. In section V (infra at p. 35), we reverse the jury’s true findings as to
the gang enhancement and gang-murder special circumstance. Thus, to the extent the
challenged testimony may have influenced the jury’s findings as to the gang
enhancement and gang-murder special circumstance, any prejudice has been mitigated.
To the extent defendant contends that the admission of the out-of-court statements listed
above contributed to the jury’s first degree murder verdict by leading “the jury to impute
the basest motive to [Chavez],” we disagree. While evidence that a defendant is a
member of a criminal street gang can be prejudicial, here, the defense conceded that
[Chavez] was a Norteño gang member, and even if they had not, the evidence
overwhelming established that he was a member. Evidence that [Chavez] was known by
the moniker “Monster” and had threatened to attack rival gang members while in prison
might also suggest that defendant is a violent individual, however, other evidence showed
that he goes by the moniker “Monster” and at least three witnesses testified that
defendant told them he had engaged in assaultive conduct while in prison. On the record
before us, we conclude beyond a reasonable doubt that [Chavez] would not have been
convicted of a lesser offense had Marquez’s testimony concerning [Chavez] and his prior
bad acts been excluded.
Chavez, 2016 WL 5940068, at *8-10.
The Confrontation Clause of the Sixth Amendment mandates that a criminal defendant
has the right to confront and cross-examine the witnesses against him. See Pennsylvania v.
Ritchie, 480 U.S. 39, 51 (1987). This generally means that out-of-court testimonial statements
by a witness are not admissible against a defendant unless the witness is available for
29

ER 101

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 30 of 37

cross-examination at trial or the defendant had an opportunity to cross-examine the witness
about the statements before trial. Crawford v. Washington, 541 U.S. 36, 53-54 (2004).
As the Court of Appeal noted, shortly after the initial appellate decision in this case was
rendered, the California Supreme Court issued People v. Sanchez, 374 P.3d 320, 327-28 (Cal.
2016), in which it held that a gang expert may testify about his general knowledge but not about
case-specific facts of which he has no personal knowledge. It determined that such statements
violate the Confrontation Clause if the hearsay is testimonial, unless there is a showing of
unavailability and the defendant had a prior opportunity for cross-examination or forfeited that
right by wrongdoing. Id. at 334-35 (“In sum, we adopt the following rule: When any expert
relates to the jury case-specific out-of-court statements, and treats the content of those statements
as true and accurate to support the expert’s opinion, the statements are hearsay.”).
The Court concludes that Sanchez does not establish a right to federal habeas relief here.
First, the California Supreme Court’s determination of federal constitutional law does not
constitute “clearly established Federal law, as determined by the Supreme Court of the United
States” and is not binding on this Court. See Casey v. Moore, 386 F.3d 896, 907 (9th Cir. 2004)
(“Although lower federal court and state court precedent may be relevant when that precedent
illuminates the application of clearly established federal law as determined by the United States
Supreme Court, if it does not do so, it is of no moment.”); Hernandez v. Small, 282 F.3d 1132,
1140 (9th Cir. 2002) (“[D]ecisions of [the United States Supreme] Court are the only ones that
can form the basis justifying habeas relief . . . .”). Moreover, even assuming that Sanchez is
binding on this Court, as the Court of Appeal reasonably concluded, it is nonetheless
distinguishable from the facts of this case because, unlike in Sanchez, the vast majority of out-of-

30

ER 102

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 31 of 37

court statements related by the gang experts were not case-specific and, to the extent any were,
their admission was harmless beyond a reasonable doubt. See Chavez, 2016 WL 5940068, at *8.
Indeed, California courts have since interpreted Sanchez to bar expert-witness testimony only if
it relates “to the particular events and participants alleged to have been involved in the case
being tried.” See, e.g., People v. Vega-Robles, 224 Cal. Rptr. 3d 19, 43 (Cal. Ct. App. Mar. 7,
2017) (no Sanchez error in admitting gang-expert testimony about gang’s history and founding
because it constituted background information and not case-specific facts barred by hearsay
rule).
Furthermore, the Federal Rules of Evidence permit an expert to rely on inadmissible
hearsay evidence as long as the evidence is of the kind experts in the field regularly consult.
FED. R. EVID. 703; see United States v. Hankey, 203 F.3d 1160, 1169 (9th Cir. 2000) (holding
that police officer possessing years of experience and special knowledge of gangs may qualify as
expert witnesses); see also United States v. Steed, 548 F.3d 961, 976 n.13 (11th Cir. 2008)
(noting that there exists no Supreme Court precedent pertaining to expert witness’ reliance on
otherwise inadmissible sources). Likewise, the Constitution does not prevent an expert from
relying on hearsay to form his or her opinion. See United States v. Beltran–Rios, 878 F.2d 1208,
1213 (9th Cir. 1989) (stating that where a defendant is given ample opportunity to examine an
expert whose opinion is based in part on hearsay, no confrontation clause violation occurs).
Based on the foregoing precedent, numerous federal courts have specifically held since
Crawford that the introduction of otherwise inadmissible evidence in support of the testimony of
a gang expert witness does not violate the Confrontation Clause. See, e.g., United States v.
Palacios, 677 F.3d 234, 243-44 (4th Cir. 2012); Mundell v. Dean, No. CV 11-7367, 2014 WL

31

ER 103

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 32 of 37

7338819, at *6 (C.D. Cal. Dec. 22, 2014) (“[A] gang expert’s reliance on hearsay evidence does
not violate the Confrontation Clause where the underlying hearsay is not admitted for the truth of
the matter asserted, but rather to explain the basis of the gang expert’s opinion.”); Alejandre v.
Brazelton, No. C 11–4803, 2013 WL 1729775, at *10-11 (N.D. Cal. April 22, 2013) (expert
witness’ testimony concerning the meaning of defendant’s tattoos based in part on hearsay
statements from undisclosed parolees did not violate Confrontation Clause); Her v. Jacquez, No.
2:09-cv-612, 2011 WL 1466868, at *33 (E.D.Cal. Apr. 18, 2011) (gang expert’s testimony about
specific gangs and their activities and membership, based on information imparted to him by
others, did not violate Confrontation Clause because underlying information not offered for its
truth but merely to support expert’s opinion); Walker v. Clark, No. CV 08–5587, 2010 WL
1643580, at *15 n. 8 (C.D. Cal. Feb. 18, 2010) (citing cases); Lopez v. Jacquez, No. 1:09-cv1451, 2010 WL 2650695, at *5 (E.D. Cal. July 1, 2010) (“[T]he Court does not find that an
objective application of Crawford would result in a finding that the gang expert’s reliance on
hearsay testimony to explain his opinion that Petitioner was a member of the West Fresno
Nortenos, and that the West Fresno Nortenos area criminal street gang, to be in violation of
Petitioner’s Confrontation Clause rights.”).
Under these guidelines and existing precedent, the Court cannot find the state courts’
rejection of Chavez’s confrontation claim unreasonable or contrary to Supreme Court authority.
A review of the record indicates that whatever conversations the experts may have had with
other persons, the experts did not testify at Chavez’s trial as to the truth of the statements made
by those persons. Rather, any such statements were used solely to form the basis for the experts’
opinions. In this regard, the jury was specifically instructed that hearsay matters relied on by

32

ER 104

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 33 of 37

expert witnesses to form their opinions were not offered for the truth of those matters but were to
be considered only in evaluating the basis of the expert’s opinions. Further, as experts, under
federal law they could properly base their opinion on inadmissible evidence, including hearsay,
of a kind that experts in the field regularly consult.
Moreover, even if the statements relied on by the experts in forming their opinion
testimony could be considered testimonial in nature, their admission did not implicate Chavez’s
right to confrontation. As the Fourth Circuit has explained:
An expert witness’s reliance on evidence that Crawford would bar if offered
directly only becomes a problem where the witness is used as little more than a conduit
or transmitter for testimonial hearsay, rather than as a true expert whose considered
opinion sheds light on some specialized factual situation. Allowing a witness simply to
parrot “out-of-court testimonial statements of cooperating witnesses and confidential
informants directly to the jury in the guise of expert opinion” would provide an end run
around Crawford. United States v. Lombardozzi, 491 F.3d 61, 72 (2d Cir. 2007). For
this reason, an expert’s use of testimonial hearsay is a matter of degree. See Ross
Andrew Oliver, Note, Testimonial Hearsay as the Basis for Expert Opinion: The
Intersection of the Confrontation Clause and Federal Rule of Evidence After Crawford v.
Washington, 55 HASTINGS L.J. 1539, 1560 (2004) (describing a “continuum of
situations” in which experts rely on testimonial hearsay). The question is whether the
expert is, in essence, giving an independent judgment or merely acting as a transmitter
for testimonial hearsay. As long as he is applying his training and experience to the
sources before him and reaching an independent judgment, there will typically be no
Crawford problem. The expert’s opinion will be an original product that can be tested
through cross-examination.
United States v. Johnson, 587 F.3d 625, 635 (4th Cir. 2009); see also United States v. Law, 528
F.3d 888, 911-12 (D.C. Cir. 2008) (finding no Confrontation Clause violation based on
admission of an expert’s testimony because the expert did not simply convey statements by other
declarants); but cf. United States v. Mejia, 545 F.3d 179, 197 (2d Cir. 2008) (noting that police
expert’s testimony explaining inadmissible evidence he relied upon in reaching his conclusion
may implicate the Confrontation Clause as the expert simply transmitted hearsay to the jury).

33

ER 105

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 34 of 37

Here, a review of the record indicates that the experts were not merely transmitters of
testimonial hearsay. Chavez was given the opportunity to cross-examine the experts regarding
opinions as well as the basis thereof, and the jury was able to judge the credibility of the expert
testimony in light of the sources described in testimony and upon which they relied.
Furthermore, a Confrontation Clause violation is subject to harmless error analysis.
Delaware v. Van Arsdall, 475 U.S. 673, 684 (1986). A Confrontation Clause violation is
harmless, and does not justify habeas relief, unless it had substantial and injurious effect or
influence in determining the jury’s verdict. Brecht v. Abrahamson, 507 U.S. 619, 623 (1993);
Ocampo v. Vail, 649 F.3d 1098, 1114 (9th Cir. 2011). Here, the Court of Appeal concluded that,
even if a confrontation violation occurred, it was harmless beyond a reasonable doubt “because
other witnesses testified, without objection, that [Chavez] admitted engaging in similar conduct.”
Chavez, 2016 WL 594006, at *10. This conclusion was both reasonable and fully supported by
the record.
For these reasons, the Court does not find unreasonable or contrary to clearly established
federal law the state courts’ conclusion that the prosecution’s expert testimony did not violate
Chavez’s rights under the Confrontation Clause. Accordingly, Chavez is not entitled to federal
habeas relief on this ground.
C.

Cumulative Error (Ground 4)
Finally, Chavez claims that the cumulative effect of the errors committed in his case

warrants habeas relief. The Ninth Circuit has stated “[t]he Supreme Court has clearly
established that the combined effect of multiple trial court errors violates due process where it
renders the resulting trial fundamentally unfair.” Parle v. Runnels, 505 F.3d 922, 927 (9th Cir.

34

ER 106

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 35 of 37

2007) (citing Chambers v. Mississippi, 410 U.S. 284, 298 (1973)); see also Whelchel v.
Washington, 232 F.3d 1197, 1212 (9th Cir. 2000). “Cumulative error applies where, although no
single trial error examined in isolation is sufficiently prejudicial to warrant reversal, the
cumulative effect of multiple errors has still prejudiced a defendant.” Jackson v. Brown, 513
F.3d 1057, 1085 (9th Cir. 2008) (quoting Whelchel v. Washington, 232 F.3d 1197, 1212 (9th Cir.
2000)). Where “there are a number of errors at trial, ‘a balkanized, issue-by-issue harmless error
review’ is far less effective than analyzing the overall effect of all the errors in the context of the
evidence introduced at trial against the defendant.” United States v. Frederick, 78 F.3d 1370,
1381 (9th Cir. 1996) (quoting United States v. Wallace, 848 F.2d 1464, 1476 (9th Cir. 1988)).
“While the combined effect of multiple errors may violate due process even when no
single error amounts to a constitutional violation or requires reversal, habeas relief is warranted
only where the errors infect a trial with unfairness.” Peyton v. Cullen, 658 F.3d 890, 896-97 (9th
Cir. 2011) (citing Chambers, 401 U.S. at 298, 302-03). Such “infection” occurs where the
combined effect of the errors had a “substantial and injurious effect or influence in determining
the jury’s verdict.” Brecht v. Abrahamson, 507 U.S. 619, 623 (1993) (citation omitted). In other
words, where the combined effect of individually harmless errors renders a criminal defense “far
less persuasive than it might [otherwise] have been,” the resulting conviction violates due
process. See Chambers, 401 U.S. at 294.
Here, the Court of Appeal rejected Chavez’s cumulative error claim as follows:
We have concluded that the only potential error was the failure to give a heat of
passion instruction, and that any such error was harmless under any standard. There are
no additional errors to cumulate with that error.
Chavez, 2016 WL 5940068, at *21.

35

ER 107

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 36 of 37

Under Ninth Circuit precedent, “[t]here can be no cumulative error when a defendant
fails to identify more than one error.” United States v. Solorio, 669 F.3d 943, 956 (9th Cir.
2012) (citing United States v. Laurienti, 611 F.3d 530, 551 (9th Cir. 2010). In addressing this
claim, the Court of Appeal identified only one potential error—the failure to give a heat of
passion instruction—and thus determined that cumulation was not possible. A review of the
Court of Appeal decision, however, reveals that the appellate court addressed two potential
errors. In addition to determining that any error in failing to give a heat of passion was harmless,
the Court of Appeal specifically concluded that “any error in allowing the prosecution’s experts
to relate case-specific testimonial hearsay in explaining the basis of their opinions was harmless
beyond a reasonable doubt.” Chavez, 2016 WL 5940068, at *8. Given that, as discussed more
thoroughly above, the failure to give an instruction on a lesser-included offense is not cognizable
on federal habeas review, and federal law mandates that the introduction of otherwise
inadmissible evidence in support of the testimony of a gang expert witness does not violate the
Confrontation Clause, Chavez does not demonstrate federal constitutional errors that would
establish prejudice in the aggregate. See, e.g., Hayes v. Ayers, 632 F.3d 500, 524 (9th Cir. 2011)
(“Because we conclude that no error of constitutional magnitude occurred, no cumulative
prejudice is possible.”). Chavez is therefore not entitled to relief on this claim.
V. CONCLUSION AND ORDER
Chavez is not entitled to relief on any ground raised in his Petition.
IT IS THEREFORE ORDERED THAT the Petition under 28 U.S.C. § 2254 for Writ
of Habeas Corpus is DENIED.

36

ER 108

Case 2:18-cv-00952-JKS Document 23 Filed 02/15/19 Page 37 of 37

IT IS FURTHER ORDERED THAT the Court grants a Certificate of Appealability
solely with respect to Chavez’s cumulative error claim (Ground 4). See 28 U.S.C. § 2253(c);
Banks v. Dretke, 540 U.S. 668, 705 (2004) (“To obtain a certificate of appealability, a prisoner
must ‘demonstrat[e] that jurists of reason could disagree with the district court’s resolution of his
constitutional claims or that jurists could conclude the issues presented are adequate to deserve
encouragement to proceed further.’” (quoting Miller-El, 537 U.S. at 327)). Any further request
for a Certificate of Appealability must be addressed to the Ninth Circuit Court of Appeals. See
FED. R. APP. P. 22(b); 9TH CIR. R. 22-1.
The Clerk of the Court is directed to enter judgment accordingly.
Dated: February 15, 2019.
/s/James K. Singleton, Jr.
JAMES K. SINGLETON, JR.
Senior United States District Judge

37

ER 109

APPENDIX D

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 15 of 121

Filed 10/13/16 P. v. Chavez CA3
Opinion following rehearing

NOT TO BE PUBLISHED
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions not certified for
publication or ordered published, except as sfecified by rule 8.111 S(b). This opinion has not been certified for publication
or ordered published for purposes of rule 8.1 15.

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
THIRD APPELLATE DISTRICT
(Shasta)

THE PEOPLE,
Plaintiff and Respondent,

C074316
(Super. Ct. No. 12F1499)

V.

OPINION ON REHEARING
VINCENT GINO CHAVEZ,
Defendant and Appellant.

A jury found defendant Vincent Gino Chavez guilty of the first degree murder of
Sue Saeturn (Pen. Code, 1 § 187, subd. (a)) and found true the special circumstance that
defendant intentionally killed Sue2 while defendant was an active participant in a

1

Further undesignated statutory references are to the Penal Code.

2

We shall refer to the victim and many of the witnesses by their first names to avoid
confusion. No disrespect is intended.

ER 1369

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 16 of 121

criminal street gang and that the murder was carried out to fu1iher the activities of the
gang. (§ 190.2, subd. (a)(22).) The murder occun-ed during an altercation precipitated by
defendant's sister who had broken a window of the truck in which Sue was seated
because she thought that Sue and his colleagues had kicked her dog.
The jury found true allegations that the murder was committed for the benefit of,
at the direction of, or in association with a criminal street gang, with the specific intent to
promote, further, or assist in criminal conduct by gang members (§ 186.22, subd. (b)),
and defendant personally used a deadly weapon, namely a knife, in committing the
murder(§ 12022, subd. (b)).
In a bifurcated proceeding, the trial couti found true al_legationsthat defendant
suffered one prior conviction within the meaning of sections 1170.12 and 667,
subdivision (a), and served .one prior prison term within the meaning of section 667 .5,
subdivision (b ).
The trial court sentenced defendant to life in prison without the possibility of
pamle for the murder(§ 190.2, subd. (a)(22)), plus a consecutive one year for the weapon
enhancement(§ 12022, subd. (b)), and a consecutive nine years on another matter. 3
Defendant appeals, contending the trial court committed various evidentiary and
instructional errors, and there is insufficient evidence to support the gang-murder specialcircumstance and gang-enhancement findings. We shall conclude that there is
insufficient evidence to support the true findings on the gang-murder specialcircumstance and gang-enhancement allegations, reverse the judgment as to those
findings, and affirm in ail other respects.

3

Sentences on the remaining enhancements were imposed and stayed.
2

ER 1370

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 17 of 121

FACTUAL AND PROCEDURAL BACKGROUND
A. The Prosecution
In August 2011, defendant was living in San Jose but had been staying with his
mother, Rebecca Roman, in Redding for about two months. On August 13, 2011,
defendant attended a birthday party at the home of his sister Jo lean Roman. Defendant's
sister lived with her longtime boyfriend at a home on Howard Street in Anderson.
Defendant's mother drove defendant, his "uncle" Francisco Rubalcava, and his uncle's
girlfriend to the party. 4 Prior to the party, defendant texted his uncle and told him to
"[w]ear red." Defendant wore a red hat, red shirt, and jeans to the party. Defendanf s
uncle wore a black shirt, black shorts, red shoes, and a red belt. He also died his facial
hair red and had a red bandana in his back pocket.
That same night, Kaochanh (Joe) Saetern, his cousin Sue Saeturn, Jim Saefong,
and Sou Orn Sachao attended a birthday party at the Anderson Community Center, across
the street from defendant's sister's house. They left the party around 11 :45 p.m., after
helping to clean up, and headed to Joe's tmck, which was parked near defendant's sister's
house.
Around that same time, defendant's sister left her party with Anna Webb and two
others to pick up a friend. While they were stopped at a stop sign in front of defendant's
sister's house, they saw defendant's sister's dog run across the street and begin barking at
Joe, Sue, Jim, and Sou as they were crossing the street on their way to Joe's truck.
Defendant's sister, who was extremely intoxicated, thought she saw one of the men kick

4

Defendant and Rubalcava are not related by blood. Defendant's mother has two
children (other than defendant & his sister Jolean) with Rubalcava's brother, and
Rubalcava has known defendant for 15 years. For ease of discussion, we refer to
Rubalcava as defendant's uncle herein.
3

ER 1371

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 18 of 121

her dog, jumped out of the car, and began yelling and cussing at them. 5 The men yelled
back at her, telling her they did not lcick her dog. Anna followed defendant's sister,
retrieved the dog, and ·unsuccessfully attempted to get defendant's sister back in the car.
Defendant's mother, who was standing on the front step of defendant's sister's (her
daughter's) house directed defendant to go and get her.
Defendant and a few other men from the party approached defendant's sister and
the four men. Defendant told his sister to "shut up" and "back off." A member of
defendant's group asked the four men what was going on, and the four men explained
that defendant's sister thought that they were trying to hurt the dog, but they were not.
The men exchanged pleasantries and shook hands, and the four men got into Joe's truck
and ptepared to leave.
After the four men were buckled up and ready to go, they heard a loud noise and
one of the truck's passenger-side windows shattered. Defendant's sister had struck the
window with her keys, causing it to shatter. Sue immediately got out of the truck,
followed by Joe, and-then Jim and Sou. It was undisputed that a fight ensued and that
Sue was stabbed by defendant during the fight. Witnesses' versions of the fi_ghtitself
varied.
Joe, who was seated in the driver's seat of the truck, testified that he immediately
got out and began yelling and screaming at the group of party goers. He said, "What the
hell? Why are you guys doing this? What do you guys want to do?" He was confused
because he and his friends had just shaken hands with the people from the party. He
walked toward the tailgate of his truck and saw Sue standing there. Sue said he could not

5

Anna testified that the men were attempting to shoo the dog away; she did not see the
dog being kicked. Jim testified that the "dog was never touched." Defendant's sister .
testified that she saw one of "them" kick her dog. Defendant's mother testified that she
saw the dog "fly up in the air."
4

ER 1372

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 19 of 121

breathe very well. Joe walked from the driver's side to the passenger's side of the truck,
still looking at the group of partygoers. Once he got to the sidewalk, he saw Sue lying on
the ground. He did not see anyone confront Sue or anyone near his truck. His initial
thought was that Sue had been shot when the window shattered. As he got out his phone
to call 911, he saw people from the party coming towards them. He then heard a few
people say, "He's on the phone. Get him." At that point, he ran back to the community
center to find help.
Jim, who was seated in the backseat of the truck, testified that he got out of the
truck a few seconds after Joe and Sue, and as soon as he did so, he observed a "tussle"
about 10 feet behind the truck involving Sue and "like three other people," including
defendant and defendant's sister. They were "swinging and fighting." By the time Jim
reached the back of the truck, Sue was coming toward him. Sue told Jim that he could
not breathe. Jim walked Sue back to the passenger side of the truck. Sue told him that he
was bleeding and then collapsed next to the passenger-side door. At that point, many of
the people from the party who had been involved in the fight fled, including defendant.
Moments later, another group of about 7 to 10 people from defendant's sister's party
attacked Jim and Sue. They kicked Sue in the chest and head while he lay on the ground
unconscious. The attack lasted about a minute, until Jim recognized one of the attackers
and said his name. Police officers arrived a few minutes later.
Sou testified that as soon as he got out of the car, defendant's sister attacked him
and knocked his cell phone out of his hand. Sou looked around and saw that Sue had
been stabbed and that there was blood all over his clothes. Frightened, he ran back to the
community center to get help. He did not see who stabbed Sue.
Anna testified that the truck's driver, Joe, yelled, "You broke my fucking
window." She did not hear any of the other occupants say anything. When she saw the
passenger door open and one of the occupants step out, she went to retrieve defendant's
sister. When she got to the back of the truck, she was knocked down. She did not see
5

ER 1373

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 20 of 121

who knocked her down. When she set her hand down to get up, she got blood on it, and
then smeared the blood in her hair. When she got up, she ran back to defendant's sister's
house to clean up.
Defendant's sister testified that she was intoxicated on the night in question and
could not recall certain events. She did recall that after she broke the window the four
men got out of the truck and a fight ensued. The victim, Sue, attempted to punch her but
missed. She then saw Anna fall to the ground but did not see how she fell. As Anna fell,
defendant stepped in front of his sister and fought with Sue. Sue then fell to the ground.
Thereafter, defendant whispered to his sister, "I did it for you." As defendant's sister was
attempting to leave the scene, one of the four men grabbed her arm, and she turned and
knocked the phone out of his hand. Prior to the night in question, defendant told his
sister that while he was in prison he had "beaten up" another gang member who had
attempted to "drop out" of the gang.
Defendant did not make any gang-related statements or flash any gang signs
during the fight.
Defendant's mother ran to her car when she saw people running toward the truck
after the window had been shattered. As she pulled up to the stop sign in front of
defendant's sister's house, she saw "one of the Asians" hit Anna. Defendant got into the
car. He had blood on his hands and told his mother, "I got him. I got him twice." He got
out of the car briefly to retrieve his knife, and when he returned they drove off.
Police officers arrived around midnight and described the scene as chaotic. People
were in the intersection screaming, others were attempting to leave, while others retreated
into defendant's sister's house. A police officer administered cardio-pulmonary
resuscitation (CPR) to Sue until emergency medical technicians arrived, but Sue died
within minutes. The cause of death was a stab wound to the heart. Defendant's red hat
was found next to Sue's body.

6

ER 1374

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 21 of 121

Defendant's uncle was in the backyard when his girlfriend advised him that
something was happening in front of the house. As he walked out the front door, he saw
defendant get inside defendant's mother's car and the car drive off. People were running
toward defendant's sister's house, and he and his girlfriend "walked in with everybody
else." Defendant sent a text to his uncle's phone, reading: "Make sure you let them fools
know I was never there. " 6 A text was later sent from defendant's uncle's phone to
defendant, stating: "We can't leave cuz the cops have the place surrounded." Later,
another text was sent from defendant's uncle; s phone to defendant, stating: "And your
hat, nigga, you got them outtie. " 7
Defendant's mother drove defendant to the home of Donica and John Wilson so
that he could wash the blood off his hands. They were there for 10 or 15 minutes.
Before leaving, defendant told Donica that he had been in a car accident, and that the
blood was from broken glass. Donica said that she understood. Defendant then asked,
"Do you really understand," and Donica responded, "Yes, I do." Defendant had
previously told Donica that he was part of the Nortefio street gang and had "beat up" a lot
of people. Sometime thereafter, defendant's mother told Donica that defendant would
kill Donica's whole family if she told the police what she had seen. 8 Defendant disposed
of the knife later that day. 9

6

Defendant's uncle denied receiving the text.

7

Defendant's uncle acknowledged that he may have sent the text regarding the house
being surrounded by the police but denied sending the text regarding the hat.
8

At trial, defendant's mother acknowledged threatening Donica and telling her that she
should keep her mouth shut about what she saw and that she did not want to deal with
defendant. She denied telling Donica that defendant would kill her family.
9

Defendant's mother pleaded guilty to dissuading a witness by force or threat and
influencing testimony by a bribe in connection with this case and admitted that those
crimes were committed for the benefit of, in association with, or at the direction of a
7

ER 1375

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 22 of 121

Defendant's uncle testified that later that same day he asked defendant, "What
happened," and defendant responded, "I did what I had to do." Defendant also told his
uncle that he had "gotten rid of' his knife by throwing it over a bridge. Later that same
day, defendant accompanied his uncle to a friend's house where defendant burned the
clothes he had worn to the party. 10
After the incident, defendant told his sister that people who talk to the police get
"dealt with" by being beaten or killed. He also told her to "stay loyal" to him. 11
In addition to testifying about the events on the night in question and immediately
thereafter, defendant's uncle testified about his relationship with the Nortefios, and the
Nortefio gang in general. He, like defendant, grew up in San Jose. There were Nortefios
"all around" his neighborhood, however, he denied being a member of the gang or
"functioning" as a member in San Jose, stating, "I was raised in the neighborhood, but I
was never what they call flamed up, wearing red, banging." He explained that he was
forced to "choose sides" when he went to jail at the age of 22, and he chose "the Northern
side," which meant he was a "Northerner" not a Nortefio. He never put in the work that
was required to become a Nortefio, such as eliminating sex offenders or snitches. When
he entered jail, he was screened by the gang before they would permit him to associate
with them. He was never fully cleared because he had been convicted of having sex with
a minor, a crime th~t is frowned upon by the gang. He was "faking" being a Nortefio

criminal street gang. She agreed to assist in the underlying investigation in exchange for
no prison time and so she "wouldn't lose rherl girls."
IO Defendant's uncle pleaded guilty to accessory after the fact based on his actions ·after
the st~bbing. He agreed to cooperate and give full and truthful testimony in this case in
exchange for no prison time.
11

Defendant's sister pleaded guilty to second degree commercial burglary and
unauthorized possession of food stamps in connection with another matter. As part of
plea deal, she agreed to testify truthfully at the trial in this case in exchange for a
reduction and dismissal of those convictions.
8

ER 1376

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 23 of 121

when he went to the party with defendant and falsely represented to defendant that he
was a Nortefio.
Defendant's uncle also te~tified that red is the primary color of the Nortefio gang,
and that members often use monikers, or nicknames. Defendant's moniker was
"Monster." Nortefios use the number 14 because it stands for the letter "N." He has
various tattoos on his body, which he testified showed his affiliation with Northerners,
not Nortefios. Those tattoos include: red colored webbing, "408," a picture of the State
of California with a red star representing San Jose, two sharks with the letters "SJ" in
their mouths, and a Huelga bird above the word "San Jose." Defendant told him that he
was an active member of Norte San Jose, a subset of the Nortefios. Defendant also told
him that defendant had "beat up" someone who had snitched on him while he was in
pnson.
On August 14, 2011, the day after the party, defendant told his then girlfriend that
he had "killed someone" during a confrontation over someone kicking his sister's dog.
He explained that "he grabbed [the victim's] shirt and then ... stabbed him in the chest a
few times." He also told her that that the victim never touched or threatened him, and
that he did not intend to kill him. He said that if she told anyone what he had told her that
"it would ... be all bad" for her. 12
Defendant's uncle and his then girlfriend testified that defendant usually carried a
pocket knife in his back pocket.
Michael Whittington, a fonner gang detective and gang intelligence officer with
the San Jose Police Department, testified for the prosecution as an expert on gangs. He

12

Defendant's then girlfriend agreed to testify against defendant at trial as part of a
negotiated plea deal in another case. In exchange for her truthful testimony, she was
allowed to plead guilty to attempted robbery and assault with a deadly weapon with no
prison time ..
9

ER 1377

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 24 of 121

gained his expertise from "the area surrounding San Jose, Santa Clara County." He
testified that the Nortefio gang is the predominant gang in San Jose, and that the majority
of his hundreds of gang contacts were with Nortefio members. There are at least 30
active subsets of the Nortefios in San Jose. Nortefios are aligned with the prison gang
Nuestra Familia. Nortefios are "foot soldiers" who "are on the streets selling the drugs,
[and] doing the crimes for the purposes of sending money and proceeds up to the Nuestra
Familia."
Whittington explained that violence is a part of gang life, and that it "is done in
order to enact fear in the community, [and] fear in rivals for the purposes of gaining
territory and control." It is common for gang members to carry weapons. "Weapons are
tools of the trade" and "benefit the gang because the gang needs to be able to fight at a
moment's notice; therefore, weapons will traditionally be found in or around gang
members." In gang culture, respect is synonymous with fear. Someone who disrespects
a gang member will be assaulted.
Whittington testified that Nortefios claim the color red and dress in the colors red,
black, and white. Tattoos are used to instill fear and show allegiance. The number "14"
represents the letter"N," which is the 14th letter of the alphabet, and stands forNortefios.
"408" is the area code for San Jose and shows allegiance to that area or the area the gang
claims; it is used by Nortefios and Surefios. The same is true of symbols associated with
sharks. Other symbols associated exclusively with Nortefios include the roman numeral
XIV, the Huelga bird, and a combination of five dots--one dot on one side and four on the
other representing the number 14.
The prosecution solicited testimony from Whittington and presented documentary
evidence regarding three "predicate offenses" involving Nortefio gang members in Santa
Clara County. The first was an assault that occurred on July 25, 2011. A Nortefio and a
Crip, who wanted to become a Nortefio, confronted a 13-year-old boy who was wearing a
red belt at a park on the south side of San Jose and asked the boy, "Do you bang?" When
10

ER 1378

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 25 of 121

the boy responded, "I'm nothing," the two men beat and stabbed him. The men were
convicted of attempted murder with a gang enhancement. The second crime was an
assault that occurred on May 11, 2011. A Nortefio gang member riding in his family van
along with his wife and four children saw a Surefio he recognized from juvenile hall in
the car next to his, got out of his van, and began stabbing the Surefio in the chest. The
Nortefio was convicted of attempted murder. The third crime was a robbery committed
by defendant, a Nortefio, in San Jose on November 6, 2010. Defendant was convicted of
robbery, but the crime was not considered gang related.
Whittington also testified that defendant associated with Nortefios in jail.
Defendant had various gang-related tattoos, including: the word "Norte" on his chest; a
shark fin coming out of the water at the base of his left bicep; the number "408" on his
left arm; the phrase "San Jo" across his back; one dot on one side of his hand and four
dots on the other side; the Huelga bird on his left hand; a "B" in the same form as the
Boston Red Sox on his right hand, which is specific to the Nortefio subset Barrio East
Side; the letters "S" and "J" and a shark fin; and a red "14" on his legs. He also wrote
several gang-related pieces of graffiti.
Whittington opined that defendant is a Nortefio gang member based on his tattoos,
his writings, his prior conviction, and his actions on the night in question. In responding
to a hypothetical based on some, but not all, of the circumstances of this case,
Whittington opined that such a crime would have been committed for the benefit of and
in association with the Nortefio criminal street gang. He based his opinion on "the
prearrangement, the documentation, the tattoos, those elements prior to the assault and
then those actions after the assault." 13 More particularly, he noted that by wearing red

13

The hypothetical posed was as follows: "Two documented gang members who are
Nortefios go to a party. They pre-arrange to wear red. They both have visible Nortefio
tattoos. [1.1At some point in the party a person disrespects one of the Nortefio[s'] family
11

ER 1379

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 26 of 121

and showing visible tattoos, the two Nortefi.os were "demonstrat[ing] their allegiance out
in the open" and "showing their strength in numbers." He also observed that gang
members are obligated to retaliate with violence when a family member is disrespected;
thus, the first Nortefi.o's violent response to the disrespect shown to his family member
was required by the gang. With respect to the Nortefi.0 who remained at the party,
Whittington observed, "Nortefi.o's come together for the purposes of assisting and
associating with themselves to protect themselves to further their criminal activity;
therefore, Nortefi.os acting in concert after the crime ... occurs quite frequently." The
additional circumstance that no gang signs were thrown or gang slurs made did not
change Whittington's opinion.
Whittington acknowledged that a gang member can commit a crime that is not
gang related, and pointed to the robbery committed by defendant as an example of such a
crime, reasoning that defendant "acted alone, nothing was shouted. There was no other
evidence of anything besides a robbery."
Robert Marquez, a veteran gang investigator who had been assigned to the
Redding Police Department, also testified as a gang expert for the prosecution. He had
spoken to over 1,000 gang members about their tattoos, the structure and methodologies
of the gang, and their involvement with and status within the gang. He testified about the
structure of the gang and its origins. The first prison gang was the Mexican Mafia. Its
purpose was to protect all Hispanics. It eventually splintered into two groups, one of
which was Our Family, which became Nuestra Familia or "NF." The Nuestra Familia

members. This Nortefi.o's whole family was present. This Nortefi.o walks up and stabs
the victim dead through the heart. The Nortefi.o flees the scene, forgetting his red hat and
his knife. [ii] Within minutes of leaving the scene, the Nortefi.o texts back to the
remaining Nortefi.o, instructing him to keep the party quiet. The remaining Nortefio
assists the stabbing Nortefi.o by alerting him to forgetting evidence. The stabbing
Nortefi.o later provides his clothing and they both destroy the clothing. The witnesses in
the case claim they are terrified of the stabber, who is a N ortefio."
12

ER 1380

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 27 of 121

commissioned the Northern Structure prison gang. In the late 1970's and early 1980's
there became a "huge distinction" between north and south, and "what we call Surefios
and Nortefios." He explained that "there has been a migration of southern Hispanic street
gangs moving north, but we have not seen Nortefios going south." In 2010 and 2011, the
Nuestra Familia was attempting to establish a "street regiment" in Shasta County.
Marquez had spoken directly with Nortefios who were trying to gain a foothold in Shasta
County, and by August 14, 2011, law enforcement had identified at least 20 Nortefios
who were trying to establish a "street regimen[t]" in Shasta County, members of which
had committed a variety of crimes in Shasta County, including assault with a deadly
weapon, attempted murder, and murder.
According to Marquez, violence is crucial to the Nortefios and all prison and street
gangs because it translates into fear, which translates into power. Fear benefits the gang
because it helps it control its members, creates a level of notoriety which helps with
recruiting new members, and dissuades members of the community from reporting the
criminal activities of gang members. Marquez also testified about Nortefio clothing,
tattoos, colors, and the various ways members are brought into the gang.
Marquez further testified that the primary activities of the Nortefios "would be any
of the 33 crimes that are outlined in Penal Code [section] 186.22." He testified
specifically as to two such crimes. The first occurred in Shasta County in July 2010. A
Nortefio dressed as a Surefio kidnapped an active Surefio gang member, drove him to the
west side of Redding, and "fired a firearm at him attempt[ing] to kill him." The Nortefio
was convicted of attempted murder and kidnapping. The second incident also took place
in Shasta County. In June 2000, a Nortefio encountered a Surefio inside a Circle K
market, asked the Surefio which gang he belonged to, and when the Surefio did not
respond, the Nortefio and another man beat the Surefio. The Nortefio was convicted of
assault with force likely to cause great bodily injury.

13

ER 1381

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 28 of 121

Marquez opined that defendant was a Nortefio gang member and a Northern
Structure prison associate. He based his opinion on two incidents. The first incident
occurred in Corning and involved defendant attacking a rival gang member, while
wearing clothing associated with the Nortefio street gang, shouting Nortefio gang terms,
and "throwing" Nortefio gang signs. The second incident occurred at the Tehama County
Jail and involved defendant assaulting another prisoner. The victim advised jail staff that
he believed defendant attacked him on behalf of another Nortefio with whom the victim
had argued.
The prosecution posed the same hypothetical to Marquez as it posed to
Whittington, with the additional fact that the Nortefio who stabbed the nongang member
arrived at the party armed with a knife. In response to the hypothetical, Marquez opined
that such a crime "was a gang-related act that benefits that gang." He testified that the·
crime was gang related because two gang members agreed to show up to the party
dressed in gang colors, and as a general rule gang members arm themselves for their
personal protection and for the protection of other gang members. In responding
violently to the disrespect shown to his immediate family member, the Nortefio acted in
accordance with established street gang rules. Had the Nortefio failed to-respond in that
manner, he would have lost stature in the gang and been viewed as weak. The crime
benefited the gang because the "sheer ferocity" of the act would encourage fellow gang
members to follow orders and instill fear in the community. It would also increase the
Nortefio's notoriety within the gang, and the gang's stature within the community.
On cross-examination, Marquez acknowledged that it would be "'completely out of
character" for a Nortefio who sees his sister being yelled at and disrespected by a group
of people to come up and shake hands with those people. Such behavior would not
increase the Nortefio's status within the gang. Marquez also acknowledged that it is
possible for a gang member to commit a crime not for the benefit of a gang.
B. The Defense
14

ER 1382

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 29 of 121

Dr. Rahn Minagawa, a clinical and forensic psychologist, testified for the defense
as an expert in gang psychology. Minagawa testified that defendant was a Nortefio gang
member. He based his opinion on defendant's tattoos, history, and prior interactions with
law enforcement. He explained that it was possible for a gang member to engage in
~riminal activity that was not for the benefit of the gang, such as a response to an attack
on a family member. In response to a hypothetical that mirrored the circumstances of this
case, Minagawa opined that the gang member coming to the aid of his sister would not be
for the benefit of the gang.
Defendant did not testify at trial. During closing argument, the defense conceded
that defendant is a gang member and that he stabbed Sue. The defense's theory was that
the stabbing was the result of a "sudden, rash decision," and thus, defendant lacked the
malice aforethought required for murder. The defense argued defendant was guilty of
voluntary manslaughter because there was no malice aforethought, and even if there was,
he acted in imperfect defense of his sister when he stabbed Sue.

I
Any Error in Allowing the Prosecution's Experts to Relate Case-Specific Testimonial
Hearsay in Explaining the Basis of Their Opinions Was Harmless Beyond a Reasonable
Doubt
Citing Crawford v. Washingtorz (2004) 541 U.S. 36 ( Crawford), defendant
contends that his Sixth Amendment right to confront and cross-examine witnesses was
violated when the prosecution's gang experts were allowed to rely on and present large
amounts of testimonial hearsay to the jury in explaining their opinions. We initially
rendered a decision in this case on June 28, 2016. Relying on our Supreme Court's
decision in People v. Gardeley (1996) 14 Cal.4th 605 ( Gardeley), which held that reliable
hearsay evidence is admissible under Evidence Code sections 801 and 802 for the
nonhearsay purpose of revealing the basis for an expert witness's opinion and in that
context is not admitted for the truth, we rejected defendant's claim. We concluded that

15

ER 1383

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 30 of 121

because the challenged evidence was admitted for the limited purpose of explaining the
basis of the gang experts' opinions and not for its truth, neither the hearsay doctrine nor
the confrontation clause were implicated.
Two days after we rendered our decision, our Supreme Court rendered its decision
in People v. Sanchez (2016) 63 Cal.4th 665 (Sanchez), which "clarif(ied] the proper
application of Evidence Code sections 801 and 802, relating to the scope of expert
testimony," (id. at p. 670) and disapproved of Gardeley "to the extent it suggested an
expert may properly testify regarding case-specific out-of-court statements without
satisfying hearsay rules." (Id. at p. 686, fn. 13.) The court adopted the fo !lowing rule:

"If an expert testifies to case-specific out-of-court statements to explain the bases for his
opinion, those statements are necessarily considered by the jury for their truth, thus
rendering them hearsay. Like any other hearsay evidence, it must be properly admitted
through an applicable hearsay exception."

(Id. at p. 684.)

We granted rehearing in light of the court's decision in Sanchez, vacated our
decision, and directed the parties to submit supplemental letter briefs addressing

Sanchez's impact on defendant's arguments. 14 Having reviewed those briefs, we shall
conclude that many of the out-of-court statements related by the prosecution's gang
experts were not case-specific, and thus, did not constitute inadmissible hearsay under
California law. Assuming for argument's sake that the remaining statements were case14

In their supplemental letter brief, the People appear to question whether Sanchez
"applies retroactively to cases pending on direct appeal." The People, offer no legal
authority that would support a finding that Sanchez does not apply, and we are not aware
of any such authority. Rather," '[a]s a matter of normal judicial operation, even a nonretroactive decision [i.e., one that cannot serve as a basis for collateral attack on a final
judgment] ordinarily governs all cases still pending on direct review when the decision is
rendered.' " (People v. Guerra (1984) 37 Cal.3d 385, 400; see also In re Richardson
(2011) 196 Cal.App.4th 647, 663.) While we issued our initial decision in this matter
two days before the court rendered its decision in Sanchez, the remitittur had not yet
issued. Moreover, we have since vacated that decision and granted rehearing in this case.
Thus, the case is pending on direct review and is governed by Sanchez.
16

ER 1384

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 31 of 121

specific and testimonial, and thus, should have been excluded under Crawford, we
conclude that their admission was harmless beyond a reasonable doubt.
"The admission of expert testimony is governed not only by state evidence law,
but also by the Sixth Amendment's confrontation clause, which provides that, '[i]n all
criminal prosecutions, the accused shall enjoy the right ... to be confronted with the
witnesses against him .... ' " (Sanchez, 63 Cal.4th at p. 679, quoting U.S. Const., 6th
Amend.) In Crawford, the United States Supreme Court held that the admission of
testimonial hearsay against a criminal defendant violates the confrontation clause unless
the declarant is unavailable to testify, and the defendant had a prior opportunity for crossexamination. (Crawford, supra, 541 U.S. at p. 59, & fn. 9.) "[A] court addressing the
admissibility of out-of-court statements must engage in a two-step analysis. The first step
is a traditional hearsay inquiry: Is the statement one made out of court; is it offered to
prove the truth of the facts it asserts; and does it fall under a hearsay exception?

If a

hearsay statement is being offered by the prosecution in a criminal case, and the

Crawford limitations of unavailability, as well as cross-examination or forfeiture, are not
satisfied, a second analytical step is required. Admissjon of such a statement violates the
right to confrontation if the statement is testimonial hearsay, as the high court defines
that term." (Sanchez, at p. 680.) Improper admission of hearsay constitutes state law
statutory error subject to the harmless error test set forth in Watson. 15 Improper
admission of testimonial hearsay implicates constitutional rights and is therefore subject
to the Chapman 16 test for harmless error. (Sanchez, at pp. 698-699.)
"While lay witnesses are allowed to testify only about matters within their
personal knowledge (Evid. Code,§ 702, subd. (a)), expert witnesses are given greater

15

People v. Watson (1956) 46 Cal.2d 818.

16

Chapman v. California (1967) 386 U.S. 18 [17 L.Ed.2d 205].
17

ER 1385

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 32 of 121

latitude ....

In addition to matters within their own personal knowledge, experts may

relate information acquired thro~gh their training and experience, even though that
information may have been derived from conversations with others, lectures, study of
learned treatises, etc ....

An expert's testimony as to information generally accepted in

the expert's area, or supported by his own experience, may usually be admitted to provide
specialized context the jury will need to resolve an issue. When giving such testimony,
the expert often relates relevant principles or generalized information rather than reciting
specific statements made by others." (Sanchez, supra, 63 Cal.4th at p. 675.)
"The hearsay rule has traditionally not barred an expert's testimony regarding his
general knowledge in his field of expertise." (Sanchez, supra, 63 Cal.4th at p. 676.) "By
contrast, an expert has traditionally been precluded from relating case-specific facts about
which the expert has no independent knowledge. Case-specific facts are those relating to
the particular events and participants alleged to have been involved in the case being
tried." (Ibid.) "If an expert testifies to case-specific out-of-court statements to explain
the bases for his opinion, those statements are necessarily considered by the jury for their
truth, thus rendering them hearsay. Like any other hearsay evidence, it must be properly
admitted through an applicable hearsay exception. Alternatively, the evidence can be
admitted through an appropriate witness and the expert may assume its truth in a properly
worded hypothetical question in the traditional manner." (Id. at p. 684, fn. omitted.)

Sanchez "does not affect the traditional latitude granted to experts to describe background
information and knowledge in the area of his expertise." (Id. at p. 685.) "Gang experts,
like all others, can rely on background information accepted in their field of expertise
under the traditional latitude given by the Evidence Code. They can rely on information
within their personal knowledge, and they can give an opinion based on a hypothetical
including case-specific facts that are properly proven." (Ibid.)
In his supplemental letter brief, defendant asserts that both of the prosecution's
gang experts related case-specific testimonial hearsay in explaining the basis for their

18

ER 1386

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 33 of 121

shared opinion that Nortefio members are engaged in a pattern of criminal activity. 17
Defendant contends that "Whittington's testimony violated Sanchez when he testified to
the case specific facts underlying each of the predicate offenses that he gathered during
an investigation." Whittington testified about two attempted murder convictions suffered
by two Nortefio gang members, each of which involved a stabbing. Whittington's
knowledge of the facts underlying those convictions came from his own investigation.
Marquez testified about two convictions--one for attempted murder and kidnapping and
the other for assault with force likely to cause great bodily injury--suffered by two
~ortefio gang members. Marquez testified as an expert witness in the attempted murder
and kidnapping case, and was one of the officers who took the defendant in_the assault
case into custody. Under Sanchez, an expert is "precluded from relating case-specific
facts about which the expert has no independent knowledge. Case-specific facts are
those relating to the particular events and participants alleged to have been involved in
the case being tried." (Sanchez, supra, 63 Cal.4th at p. 676, italics added.) None of the
convictions at issue here involved defendant, and none of the facts testified to by
Whittington or Marquez related to the events or participants involved in this case.
Accordingly, the underlying facts related_by the prosecution's experts concerning those
convictions are not "case-specific," and thus, their admission did not run afoul of state
hearsay rules or the Sixth Amendment. 18 (Sanchez, at p. 676.) Rather, it is more akin to

17

Defendant objected to the challenged testimony on hearsay and Crawford grounds.
He interposed his objection during the prosecutor's direct examination of Whittington.
The trial court overruled the objection on the grounds that (1) experts can rely on hearsay,
and (2) the testimony was "not being offered for the truth," but rather "as the basis for his
expertise and opinion." Thereafter, the trial court granted defendant's request for a
standing objection.
18

Whittington also testified about a robbery conviction suffered by defendant to
establish that Nortefio members engage in a pattern of criminal activity. Defendant,
19

ER 1387

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 34 of 121

background information concel,"ningthe gang. (Ibid.) Moreover, to the extent that
Whittington and Marquez's testimony was based on their own personal knowledge and
investigation, it was not subject to exclusion on hearsay grounds regardless of whether it
was case-specific. (Ibid.)
Defendant also claims that Marquez related case-specific testimonial hearsay to
the jury when he testified about prior gang-related assaults committed by defendant in
explaining the basis of his opinion that defendant is a member of the Nortefio street gang,
and that such evidence "could have led ... the jury to impute the basest motive to [him]
and conclude [he] deserved conviction of the most serious offenses based on his prior
conduct." As we shall explain, any en-or in admitting this testimony was harmless
beyond a reasonable doubt.
Marquez testified that he based his opinion that defendant is Norteno street gang
member and a Northern Structure prison associate in part on a 2001 conviction in
Tehama County and an incident at the Tehama County Jail. Marquez elaborated: "One
was an incident that happened in Corning where it is documented that [defendant]
attacked a rival gang member, was wearing Nortefio gang clothing, shouted gang terms
and threw gang signs. [,r:] The second case that I considered came from the Tehama
County Jail. And in that case it's documented that [defendant] assaulted another
prisoner. The other prisoner relayed to staff that he believed [defendant] specifically
attacked him on behalf of another Nortefio gang member that the victim had an argument
with prior." Marquez learned of the facts underlying the conviction and the incident at
the Tehama County Jail from a Tehama County probation report. Marquez further
testified that he also considered defendant's "CDC file" in concluding that defendant is a
gang member. In particular, he testified concerning "a rules violation report, CDC 115,

however, does not claim that such testimony violated state hearsay rules or the Sixth
Amendment.
20

ER 1388

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 35 of 121

where [defendant] was found guilty, along with another Northern Hispanic from Santa
Clara County, of assaulting another Northern Hispanic from Stanislaus County."
Assuming for argument's sake that Marquez's testimony concerning these prior
incidents constituted case-specific testimonial hearsay and should have been excluded
under the confrontation clause, its admission was harmless beyond a reasonable doubt
because other witnesses testified, without objection, that defendant admitted engaging in
similar conduct. Defendant's sister testified that defendant told her that he had "beaten
up" another gang member whom he said was a "drop out" while defendant was in prison.
Defendant's uncle testified that defendant told him that he "beat up" someone who had
snitched on defendant while defendant was in prison. Donica Wilson testified that
defendant told her that he was part of the Nortefio street gang and had "beat up" a lot of
people and committed a lot of crimes. Moreover, documentary evidence of defendant's
2001 conviction for assault with a deadly weapon was admitted without objection, and
evidence of his 2011 robbery conviction was properly admitted as detailed below in
section IV (see infra at pp. 31-35). 19
Defendant also takes issue with the following out-of-court statements related by
Marquez in support of his opinions: defendant is a "squad member" for the Northern
Structure prison gang at the Solano prison; defendant goes by the moniker "Monster";
defendant threatened to attack "Southerners" if released in the prison yard; defendant
refused to "program" on the "Lassen yard" and was placed in "administrative detention";
defendant has a Huelga Bird tattoo on his hand; defendant is an active Nortefio gang
member in Redding; and inmates at the Shasta County Jail learned of this incident from
reading newspapers. Again, assuming for argument's sake that the challenged testimony
constituted case-specific testimonial hearsay, its admission was harmless beyond a

19

Records of prior convictions are business records and, therefore, nontestimonial
statements. (People v. Moreno (2011) 192 Cal.App.4th 692, 710.)
21

ER 1389

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 36 of 121

reasonable doubt. In section V (infra at p. 35), we reverse the jury's true findings as to
the gang enhancement and gang-murder special circumstance. Thus, to the extent the
challenged testimony may have influenced the jury's findings as to the gang enhancement
and gang-murder special circumstance, any prejudice has been mitigated. To the exte~t
defendant contends that the admission of the out-of-court statements listed above ·
contributed to the jury's first degree murder verdict by leading "the jury to impute the
basest motive to (defendant]," we disagree. While evidence that a defendant is a member
of a criminal street gang can be prejudicial, here, the defense conceded that defendant
was a Nortefio gang member, and even if they had not, the evidence overwhelming
established that he was a member. Evidence that defendant was known by the moniker
"Monster" and had threatened to attack rival gang members while in prison might also
suggest that defendant is a violent individual, however, other evidence showed that he
goes by the moniker "Monster" and at least three witnesses testified that defendant told
them he had engaged in assaultive conduct while in prison. On the record before us, we
conclude beyond a reasonable doubt that defendant would not have been convicted of a
lesser offense had Marquez's testimony concerning defendant and his prior bad acts been
excluded.

II
The Trial Court Did Not Err in Allowing Marquez
and Defendant's Uncle to Provide Gang Testimony
Defendant next contends that the trial court abused its discretion in allowing
multiple witnesses to testify "regarding the history of the gang, gang customs, predicate
offenses, specific instances of violence and the recapitulation of slides of graffiti and
[defendant's] gang tattoos .... " More particularly, he asserts that such testimony should
have been limited to Whittington, and that Marquez's and defendant's uncle's testimony
on those subjects "was cumulative, inflammatory and should have been excluded" under
Evidence Code section 3 52. Defendant also claims that "the admission of this

22

ER 1390

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 37 of 121

speculative, propensity evidence was so prejudicial" that it violated his federal
constitutional right to due process of law. As we shall explain, defendant forfeited his
contention with respect to much of the challenged testimony, and in any event, his
contention lacks merit.
As a preliminary matter, the People assert that defendant forfeited his federal
constitutional claim and most of his state law claim by failing to object below. Defendant
failed to object to his uncle's testimony on any of the grounds urged on appeal, and thus
forfeited his state and federal claims related thereto. (Evid. Code, § 353; People v.

Partida (2005) 37 Cal.4th 428, 435-438.) Defendant likewise failed to object to large
portions of Marquez's testimony on the grounds urged on appeal, and thus, forfeited his
state and federal claims concerning those portions of the testimony. 20 (Evid. Code,
§ 353; Partida, at pp. 435-438.) We need not parse through Marquez's testimony to

determine which claims were preserved or consider defendant's claim that any additional
objections would have been futile because, as we shall explain, the trial court did not err
in admitting the challenged testimony.
Evidence Code section 352 provides: "The court in its discretion may exclude
evidence if its probative value is substantially outweighed by the probability that its
admission will (a) necessitate undue consumption of time or (b) create substantial danger
of undue prejudice, of confusing the issues, or of misleading the ]ury." We review a trial
court's ruling under this section for abuse of discretion and will reverse a trial court's
exercise of discretion to admit evidence "only if 'the probative value of the [evidence]
clearly is outweighed by [its] prejudicial effect.' [Citation.]" (People v. Carey (2007) 41

20

Defendant objected to Marquez's testimony concerning the relationship between the
Nortefios and the Nuestra Familia and the role of violence in the Nortefio gang as
"repetitive" and "accumulative." Later, half way through Marquez's direct examination,
defendant interposed a standing objection on those same grounds when Marquez was
asked about the role of weapons in the Nortefio gang.
23

ER 1391

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 38 of 121

Cal.4th 109, 128.) "'Prejudice for purposes of Evidence Code section 352· means
evidence that tends to evoke an emotional bias against the defendant with very little
effect on issues, not evidence that is probative of a defendant's guilt.' [Citation.]"
(People v. Tran (2011) 51 Cal.4th 1040, 1048 (Tran).)

Defendant was charged with one count of first degree murder, with a gang-murder
special circumstance and gang enhancement. In order to sustain a true finding on the
gang-murder special-circumstance allegation, the prosecution was required to prove
beyond a reasonable doubt that defendant intentionally killed Sue while he was an active
participant in a criminal street gang, as defined in subdivision (f) of section 186.22, and
the murder was carried out to further the activities of the criminal street gang. (§ 190.2,
subd. (a)(22).)
To sustain a true finding on the gang-enhancement allegation, the prosecution was
required to prove beyond a reasonable doubt that the crime was "committed for the
benefit of, ·at the direction of, or in association with any criminal street gang, with the
specific intent to _promote, further, or assist in any criminal conduct by gang members."

(§ 186.22~subd. (b)(4).)
Defendant complains that his uncle "testified not only to the events on the night of
the stabbing, but also to Nortefios colors and the use of the number 14 and how gangs
operate in County Jail." Much of defendant's uncle's testimony about the Nortefios and
how gangs operate in jail was based on personal experience and was relevant to whether
he (defendant's uncle) was a Nortefio, which in tum was relevant to the prosecution's
claim that Sue's murder was committed in association with the Nortetio street gang and
with the intent to further the gang's activities. (See People v. Albillar (2010) 51 Cal.4th
4 7, 68 (Albillar) ["[I]f substantial evidence establishes that the defendant intended to and
did commit the charged felony with known members of a gang, the jury may fairly infer
that the defendant had the specific intent to promote, further, or assist criminal conduct
by those gang members."].) Such testimony was not duplicative of that offered by
24

ER 1392

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 39 of 121

Whittington or Marquez. To the extent defendant's uncle's testimony concerning the
color red, the number 14, and how the gangs operate in county jail was duplicative of the
testimony offered by Whittington or Marquez, the trial court reasonably could conclude
that the probative value of such testimony outweighed any potential prejudice because it
came from an insider as opposed to an expert witness. "Evidence that is identical in
subject matter to other evidence should not be excluded as 'cumulative' when it has
greater evidentiary weight or probative value." (People v. Mattson (1990) 50 Cal.3d 826,
871,quotingPeople v. Carter(l957)48

Cal.2d 737, 748-749.) Accordingly, the trial

court did not abuse its discretion in allowing such testimony.
Defendant complains that when Marquez testified, "he duplicated [Whittington's
·and defendant's uncle's] testimony and added even more." As the trial court explained in
overruling defendant's objections to certain portions of Marquez's testimony as
cumulative in light of Whittington's testimony, "Although the testimony overlapped to a
certain degree, I don't find that it's cumulative and under Evidence Code Section 352, I
find it to be more probative than prejudicial, that it's highly relevant. [,0 The San Jose
investigator [Whittington], although he had expertise in gangs in genera:!, his primary
focus was on San Jose gangs and evidence associated with Nortefi.o[s], which he
demonstrated he's very familiar with, plus, he testified to other matters, such as
interpreting the text messages and that start [sic] of thing. [,0 And Agent Marquez I
think has a broader understanding of gangs focused on prison gangs, documenting gangs
in prison. He also testified about our area locally and his use of experience talking with
gang members, both connected with the prison and in the Redding area, as well as talking
more about the gang structure and organization both on the street and in the prison. So I
don't find it's cumulative. To the extent that it is, it's relevant." We are persuaded by
the trial court's reasoning and conclude that it did not abuse its discretion in allowing the
challenged testimony.

25

ER 1393

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 40 of 121

"Because there was no statutory error, (defendant's] constitutional claims, insofar
as they are cognizable on appeal, fail." (People v. Valdez (2012) 55 Cal.4th 82, 134.)

III
Marquez Did Not Offer an Improper Opinion on Defendant's Guilt
Defendant claims that the prosecution's gang expert Marquez "improperly
commented on [his) guilt" by referring directly to defendant in responding to a
hypothetical question. Defendant further claims the prosecutor "committed misconduct
and exacerbated the problem" by referring directly to defendant in a follow-up question.
To the extent "additional objection was necessary to preserve any of these issues for
appeal, (defendant] asserts he received ... ineffective assistance of counsel .... " As we
shall explain, Marquez did not offer an opinion on defendant's guilt; accordingly, there
was no error or misconduct, and counsel was not ineffective in failing to object.
In her case-in-chief, the prosecutor posed a hypothetical to Marquez based on the
facts of the charged crime and asked him whether the crime "was committed for the
benefit [of] or in association with a criminal street gang?" Marquez testified that "it is
definitely a gang-related offense." The prosecutor then asked Marquez to explain the
basis of his opinion. Marquez said that his opinion was "based on the totality of the
incident. You have a gang member request that another gang member show up to a party
wearing gang colors. Gang members, as a general rule, arm themselves for their personal
protection and for-the protection of other gang members. [ii] Whether or not the family
member was a gang member, for me, is irrelevant, in that the non-gang family member is
still related to the gang member. Family is family and that extends across the gang to the
immediate family who may have or may not have gang ties. [ii] Again, for, in this case,
Chavez, not to respond to defend his sister to avenge this slight or perceived disrespect
would be seen as cowardice or weakness on his part. And again, it would diminish his
stature within the gang in front of the other gang member who was there. And so Chavez
had an obligation to act to protect his own reputation within the gang."

26

ER 1394

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 41 of 121

The prosecutor then asked Marquez, "How, under that set of facts, do you think it
would further promote the gang and the criminal conduct of the gang specifically?"
Marquez explained that "a gang member committing such a vicious act" would gain
notoriety for himself and stature for the gang in the community. Marquez continued, "I
can assure you that people in prison have heard about this incident. They get newspapers
and they are allowed to watch TV and they see a newscast, so they have heard about this
incident so it _hasincreased the stature of the Nortefios in Shasta County." Defendant's
trial counsel objected on the grounds the testimony was speculative "as far as who has
seen what on what TV." The trial court overruled the objection and then sought to clarify
that Marquez had no personal knowledge that anyone in prison had actually read about
the underlying crime in the paper; and Marquez responded, "Not read in the paper, but ..
. I have talked to confidential informants who have stated things about Vinny Chavez,
Vincent Chavez, in relationship to this homicide." The prosecutor then asked, "[I]n my
hypothetical there were people around who may or may not have been gang members
who watched and knew that Vincent Chavez had killed an innocent man. Would it have
needed to have been another gang member who knew or watched this for the gang to
have benefited from the act?" Marquez responded in the negative, explaining that anyone
who had seen or heard about such an act would fear the perpetrator and that fear would
translate into power.
The prosecutor next asked Marquez, "Hypothetically, would a street gang member
who went to prison after having viciously stabbed someone through the heart gain
additional status in the Nortefio gang in custody?" Marquez responded, "It has been my
experience that that is the case. An individual is going to show up into the in-custody
setting in prison, he's going to have to fill out his new arrival questionnaire, talk about
the criminal offenses he's committed in custody and out of custody, and individuals that
belong to the Nortefio gang and the Northern Structu"reprison gang are going to review
that new arrival questionnaire ... and they are going to know about the ferocity of that
27

ER 1395

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 42 of 121

crime." Thereafter, the trial court asked Marquez, "[I]n general, is your opinion as to
individuals who would commit a crime of murder and then enter the prison, not as to this
specific defendant, but this is based on your. training and experience from what may
occur in a similar situation; is that fair to say?" Marquez responded in the affomative,
explaining that "an individual who commits a murder would have greater status than an
individual that sold narcotics or robbed a 7/11." The trial court then admonished the jury
"that that part of [Marquez's] answer doesn't apply to the defendant in this paiticular
case, that that is something that is going to happen with this defendant because that is up
to the jury to decide what the-outcome is of this particular case. So he's talking in
generalities of individuals who would enter prison after having committed a crime that
would be gang-related .... "
Relying on People v. Vang (2011) 52 Cal.4th 1038, 1048 (Vang), defendant argues
that Marquez, with the prosecutor's assistance, improperly offered opinions on
defendant's guilt and that such testimony should have been excluded. In Vang, the
California Supreme Court held that it was permissible for a gang expert to give his
opinion that an assault committed in the manner described in a hypothetical question
would be gang related. (Id. at p. 1049.) In doing so, the court discussed the Fifth
District's prior decision in People v. Killebrew (2002) 103 Cal.App.4th 644, 647, which
held that a gang expert may not testify about the subjective knowledge and intent of a
defendant with respect to the crime charged. (Vang, at p. 1048.) "To the extent that

Killebrew, supra, l 03 Cal.App.4th 644, was correct in prohibiting expert testimony
regaraing whether the specific defendants acted for a gang reason, the reason for this rule
is not that such testimony might embrace the ultimate issue in the case. 'Testimony in
the form of an opinion that is otherwise admissible is not objectionable because it
embraces the ultimate issue to be decided by the trier of fact.' [Citations.] Rather, the
reason for the rule is similar to the reason expert testimony regarding the defendant's
. guilt in general is improper. 'A witness may not express an opinion on a defendant's
28

ER 1396

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 43 of 121

·guilt. [Citations.] The reason for this rule is not because guilt is the ultimate issue of fact
~or the jury, as opinion testimony often goes to the ultimate issue. [Citations.] "Rather,
opinions on guilt or innocence are inadmissible because they are of no assistance to the
trier of fact. To put it another way, the trier of fact is as competent as the witness to
weigh the evidence and draw a conclusion on the issue of guilt." ' [Citations.]" (Ibid.,
fn. & italics omitted.) The Vang court concluded that the gang expert in that case "could
not testify directly whether [the defendants] committed the assault for gang purposes"
because he was not at the scene and "had no personal knowledge whether any of the
defendants assaulted [the victim] and, if so, how or why." (Ibid.) Under those
circumstances, the court found that "the jury was as competent as the expert to weigh ~he
evidence and determine what the facts were, including whether the defendants committed
the _assault." (Ibid.) The court also determined that the expert "properly could, and did,
express an opinion, based -on hypothetical questions that tracked the evidence, whether
the assault, if the jury found it in fact occurred, would have been for a gang purpose."
1
(lbid.)°l-

Here, Marquez properly opined that a homicide committed in the manner
described in the hypothetical was gang related. We recognize that some of his responses
and one of the prosecutor's questions strayed from the hypothetical and referred directly
to defendant and/or the incident in question. Marquez, however, never testified directly
that defendant stabbed Sue for a gang purpose or with the intent of promoting, furthering,
or assisting the criminal conduct of gang members. In explaining the basis for his

21

Contrary to defendant's assertion, Vang did not hold that an expert Il)ay never offer an
opinion on a defendant's specific intent. To the contrary, the court observed: "It appears
that in some circumstances, expert testimony regarding the specific defendants might be
proper. [Citations.] The question is not before us. Because the expert here did not
testify directly about the defendants, but only responded to hypothetical questions, we
will assume for present purposes the expert could not properly have testified about the·
defendants themselves." (Vang, supra, 52 Cal.4th at p. 1048, fn. 4.)

29

ER 1397

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 44 of 121

opinion that the crime described in the hypothetical was gang related, Marquez stated that
he considered it irrelevant that the family member who had been involved in the
argument that led to the stabbing was not a gang member because "[f]amily is family and
that extends across the gang to the immediate family .... " He then applied that general
statement directly to defendant, stating in pertinent part, "Chavez ha[ d] an obligation to
act to protect his own reputation within the gang." When considered in context, it is clear
that Marquez was offering an opinion as to the expected response of a gang member
under the circumstances of this case. Significantly, he did not testify directly that
defendant stabbed Sue to protect his own reputation within the gang, but rather that a
gang member in defendant's position would have felt obligated to respond with violence.
Marquez's subsequent statement that he had been told that prison inmates knew about
defendant's crime as a basis for his opinion that defendant's actions increased the stature
of the gang, does not amount to an opinion concerning defendant's subjective intent. In
any event, the trial court clarified that Marquez's opinion "as to individuals who would
commit a crime of murder and then enter ... prison" was "not as to this specific
defendant" and admonished the jury that Marquez's response did not apply to "the
defendant in this particular case." Finally, the prosecutor's direct reference to defendant
in the midst of her hypothetical did not turn Marquez's response thereto into improper
opinion testimony. The prosecutor observed that "in my hypothetical there were people
around who may or may not have been gang members who watched and knew that
Vincent Chavez had killed an innocent man. Would it have needed to have been another
gang member who knew or watched this for the gang to have benefited from the act?"
Marquez responded to the question in hypothetical terms and did not refer directly to
defendant but rather to "this individual." Given the context in which the challenged
remarks were made, we find that it was sufficiently clear to the jury that Marquez was
expressing an opinion on how he would expect a gang member to react under the

30

ER 1398

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 45 of 121

circumstances described in the hypothetical, not on defendant's subjective intent in this
instance.
Finally, in light of the foregoing, defense counsel was not deficient for not raising
an objection to the challenged testimony. (See People v. Bradley (2012) 208 Cal.App.4th
64, 90 ["Failure to raise a meritless objection is not ineffective assistance of counsel."]
IV
Evidence of Defendant's Prior Robbery Conviction
Was Properly Admitted as a Predicate Offense
Defendant contends that the trial court abused its discretion and violated his right
to due process of law in allowing the prosecution to introduce evidence of his prior
robbery conviction as a predicate offense to prove a pattern of criminal activity. He is
mistaken.
Over defendant's objection, the trial court allowed the prosecutor to introduce
evidence of defendant's prior robbery conviction as a predicate offense under section
186.22, subdivision (e). The prosecution presented documentary and testimonial
evidence that: defendant, a gang member, committed a robbery on November 6, 2010, in
San Jose; the robbery was not gang related; and defendant was later convicted of that
offense.
Evidence Code section 1101 prohibits the admission of character or propensity
evidence "when offered to prove his or her conduct on a specified occasion." (Evid.
Code,§ 1101, subd. (a); hereinafter section 1101).) Section 1101, however, does not
prohibit, "the admission of evidence that a person committed a crime ... when relevant
to prove some fact ... other than his or her disposition to commit such an act." (Section
1101, subd. (b).) Even when evidence of a prior conviction, however, may be admitted
under subdivision (b) of section 1101, admission of that evidence must still comport with
other policies limiting the admission of evidence, such as those contained in Evidence
Code section 352. (People v. Thompson (1988) 45 Cal.3d 86, 109.)

31

ER 1399

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 46 of 121

To prove the gang-murder special-circumstance and gang-enhancement
allegations, the prosecutor was required to establish, among other things, that the gang's
members engaged in a pattern of criminal activity. (People v. Williams (2009) l 70
Cal.App.4th 587, 608-609; §§ 186.22, subds. (6)(4), (e), (f), 190.2, subd. (a)(22).) A
" 'pattern' " is established by the commission of two or more offenses enumerated in
section 186.22, subdivision (e), committed on separate occasions or by two or more
persons. (§ 186.22, subd. (f); People v. Williams, at p. 609.) An offense need not be
gang related to qualify as a predicate offense under section 186.22, subdivision (e).

(Gardeley, supra, 14 Cal.4th at pp. 610, 621-622.)
Defendant does not dispute that evidence of his prior robbery conviction, which is
among the offenses enumerated section 186.22, subdivision (e), v.iasrelevant and
admissible under section 1101, subdivision (b) to prove the gang's members were
engaged in a pattern of criminal activity. Rather, he contends that evidence of his prior
robbery conviction should have been excluded under Evidence Code section 352 as
unduly prejudicial.
"Without doubt, evidence a defendant committed an offense on a separate
occasion is inherently prejudicial. [Citations.] But Evidence Code section 352 requires
the exclusion of evidence only when its probative value is substantially outweighed by its
prejudicial effect. 'Evidence is substantially more prejudicial than probative [citation]
[only] if, broadly stated, it poses an intolerable "risk to the fairness of the proceedings or
the reliability of the outcome" [citation].' [Citation.]" (Tran, supra, 51 Cal.4th at p.
l 047.) As the court noted in Tran, our Supreme Court has --identified several factors that
might serve to increase or decrease the probative value or the prejudicial effect of
evidence of uncharged misconduct and thus are relevant to the weighing process required
by Evidence Code section 352." (Ibid.) "The probative value of the evidence is
enhanced if it emanates from a source independent of evidence of the charged offense
because the risk that the witness's account was influenced by knowledge of the charged
32

ER 1400

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 47 of 121

offense is thereby eliminated. [Citation.] On the other hand, the prejudicial effect of the
evidence is increased if the uncharged acts did not result in a criminal conviction. This is
because the jury might be inclined to punish the defendant for the uncharged acts
regardless of whether it considers the defendant guilty of the charged offense and because
the absence of a conviction increases the likelihood of confusing the issues, in that the
jury will have to determine whether the uncharged acts occurred. [Citation.] The
potential for prejudice is decreased, however, when testimony describing the defendant's
uncharged acts is no stronger or more inflammatory than the testimony concerning the
charged offense. [Citation.]" (Ibid.)
Here, the evidence of defendant's prior robbery was probative in that it provided
direct evidence of a predicate offense. (See Tran, supra, 51 Cal.4th at p. 1048. )22
Moreover, defendant's conviction of robbery occurred several months before his arrest on
the current change. The probative value of the evidence accordingly was enhanced
because the evidence emanated from an independent source that. could not have been
influenced by knowledge of the charged offense. (See Tran, at p. 1050.) Because
defendant stood convicted of the robbery, there was little danger of confusing the issues
by requiring the jury to determine if defendant was guilty of both the charged offense and
the robbery, and no risk the jury might convict defendant to prevent him from escaping
punishment for the robbery. (See ibid.) The evidence concerning the robbery was far
less inflammatory than the testimony concerning the current offense. (Ibid.) Moreover,
the jury was instructed that it could not consider the evidence of gang activity to prove
that defendant was a person of bad character or that he had a disposition to commit crime.

22

Unlike the present case, the defendant's separate offense in Tran was gang related.
(Tran, supra, 51 Cal.4th at pp. 1045-1046.) As previously mentioned, however, a
separate offense need not be gang related to qualify as a predicate offense under section
182.66, subdivision (f). (Gardeley, supra, 14 Cal.4th at pp. 610, 621-622.)
33

ER 1401

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 48 of 121

(Ibid.) Although defendant offered to stipulate that the Nortenos are a criminal street
gang, the prosecution was not required to accept that stipulation as a sanitized alternative
to presenting predicate offenses, and its refusal to do so does not diminish the probative
value of its preferred evidence, including evidence of defendant's prior robbery
conviction. (See People v. Salcido (2008) 44 Cal.4th 93, 147; People v. Zambrano
(2007) 41 Cal.4th 1082, 1149, disapproved on another point in People v. Doolin (2009)
45 Cal.4th 390, 421, fn. 22.)
Finally, the fact that the prosecutor introduced evidence of four additional
predicate offenses did not make the introduction of evidence of defendant's prior robbery
conviction cumulative. There is no bright line rule concerning the permissible number of
predicate offenses that may be introduced to prove a gang enhancement. (Hill, supra,
191 Cal.App.4th 1104, 1139.) The relevant statute, section 186.22, subdivision (e),
requires evidence of "two or more" predicate offenses. In Tran, the court observed that
"although the court need not limit the prosecution's evidence to one or two separate
offenses ... , the probative value of the evidence inevitably decreases with each
additional offense, while its prejudicial effect increases, tilting the balance towards
exclusion." (Tran, supra, 51 Cal.4th at p. 1049.) In Hill, the court found that the trial
court did not abuse its discretion in admitting evidence of eight predicate offenses where
the prosecution sought to introduce evidence of ten, the trial court exercised its discretion
and eliminated two, and the admission of the eight predicate offenses "created neither a
'street brawl' nor 'endless discussions.'"

(Hill, at p. 1139.)

Here, the admission of the five predicate offenses --created neither a · street brawl'
nor 'endless discussions.'"

(Hill, supra, 51 Cal.4th at p. 1139.) As detailed above, they

wete used to prove an essential element of the gang-murder special circumstance and
gang enhancement -- that the Nortefio criminal street gang is involved in a pattern of
criminal activity. As the People observe, "Three of those predicate offenses, including
[defendant's] prior offense, occurred in Santa Clara County and were introduced by the
34

ER 1402

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 49 of 121

gang expert from that county [(Whittington)]," while the other two "occurred in Shasta
County and were introduced by the gang expert from that county [(Marquez)], who
testified that Nortefios were attempting to establish a stronghold in Shasta.County."

As

the People suggest, the trial court reasonably could conclude that "[t]he various predicate
offenses from both locales were necessary to show that the Norte:fio gang had been
· established in Shasta County, that it was under the same umbrella as the gang in Santa
Clara County, and that any predicate offenses committed in Shasta County would benefit
the gang just as they would if they were committed in Santa Clara County."
For all the foregoing reasons, the trial court did not abuse its discretion in
admitting evidence of defendant's prior robbery conviction.
V
There is Insufficient Evidence to Support the Jury's Findings on the
Gang-enhancement and Gang-murder Special-circumstance Allegations
Defendant next claims that there is insufficient evidence that he "formed the intent
to benefit the gang or assist [in] criminal conduct by gang members before the homicide
was complete," and thus, the jury findings as to the gang enhancement and gang-murder
special circumstance and must be reversed. We agree and shall reverse those findings.
As detailed above, the jury found defendant guilty of first degree murder, and
found true criminal-street-gang special-circumstance and gang-enhancement allegations.

In order to sustain a true finding on the gang-enhancement allegation, the prosecution
was required. to prove that the crime was "committed for the benefit of, at the direction
of, or in association with any criminal street gang, with the specific intent to promote,
further, or assist in any criminal conduct by gang members." (§ 186.22, subd. (b)(4).)
"[T]he Legislature included the requirement that the crime to be enhanced be committed
for the benefit of, at the direction of, or in association with a criminal street gang to make
it 'clear that a criminal offense is subject to increased punishment under the STEP Act
only if the crime is "gang related."'

[Citation.]" (Albillar, supra, 51 Cal.4th at p. 60.)

35

ER 1403

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 50 of 121

"Not every crime committed by gang members is related to a gang." (Ibid.) The gangenhancement statute "does not pose a risk of conviction for mere nominal or passive
involvement with a gang ....

Rather, it applies when a defendant has personally

committed a gang-related felony with the specific intent to aid members of that gang."
(Id. at pp. 67-68.)

In considering a challenge to the sufficiency of the evidence in a criminal case,
"we review the entire record in the light most favorable to the judgment to determine
whether it contains substantial evidence-that
and of solid value-from

is, evidence that is reasonable, credible,

which a reasonable trier of fact could find the defendant guilty

beyond a reasonable doubt. [Citation.] We presume every fact in support of the
judgment the trier of fact could have reasonably deduced from the evidence. [Citation.]
If the circumstances reasonably justify the trier of fact's findings, reversal of the
judgment is not warranted simply because the circumstances might also reasonably be
reconciled with a contrary finding. [Citation.] 'A reviewing court neither reweighs
evidence nor reevaluates a witness's credibility.' [Citation.]" (Albillar, supra, 51 Cal.4th
at pp. 59-60.)
"Expert opinion that particular criminal conduct benefited a gang by enhancing its
reputation for viciousness can be sufficient to raise the inference that the conduct was
'committed for the benefit of ... a[] criminal street gang' within the meaning of section
186.22 [subdivision] (6)(1)." (Albillar; supra, 51 Cal.4th at p. 63.) However, expert
opinion testimony constitutes substantial evidence only if based on conclusions or
assumptions supported by evidence in the record. (Roddenberry v. Roddenberry ( 1996)
44 Cal.App.4th 634, 651-652.) "Where an expert bases his conclusion upon assumptions
which are not supported by the record, upon matters which are not reasonably relied upon
by other experts, or upon factors which are speculative, remote or conjectural, then his
conclusion has no evidentiary value. [Citations.] In those circumstances the expert's
opinion cannot rise to the dignity of substantial evidence. [Citation.]" (Pacific Gas &
36

ER 1404

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 51 of 121

Electric v. Zuckerman (1987) 189 Cal.App.3d 1113, 1135; see also In re Daniel C.

(2011) 195 Cal.App.4th 1350, 1363-1364 (Daniel C.) [gang expert's testimony was
insufficient to sustain conviction when the "underlying premise" of the expert's opinion
was "factually incorrect"].)
Daniel C., supra, 195 Cal.App.4th 1350, is instructive. In that case, a store

employee saw three young men walking around a supermarket at midnight. (Id. at p.
1353.) All three wore articles of clothing with red elements. (Id. at p. 1354.) Two left
. the store, and the third, the defendant, headed toward the liquor aisle. (Id. at p. 1353.)
The employee confronted the defendant when he attempted to leave the store with a
bottle of liquor without paying for it. (Ibid) The bottle broke as the defendant swung it
at the employee. (Ibid) The defendant hit the employee on the ear with the neck of the
bottle, ran out of the store, and drove off in a truck with his companions. (Id. at pp. 13531354.) A gang expert testified that the defendant and one of his companions were active
Nortefios, while the third was a Nortefio affiliate. (Id at p. 1355.) The expert opined that
the robbery was committed to further the interests of the Nortefio ga.Rgin that gangs
commit violent crimes to gain respect and to intimidate others in the community. (Id at
p. 1363.) The juvenile court sustained a robbery charge with a gang enhancement. (Id. at
p. 1358.)
The Court of Appeal reversed the true finding as to the gang enhancement.
(Daniel C., supra, 195 Cal.App.4th 135_0.)It found no factual support for the expert's

opinion. (Id. at pp. 1353-1354.) As the defendant's companions had already left the
store, the assault was not committed in association with them. (Id. at p. 1361.) The
purported objective of gang intimidation was also unfulfilled, as no gang words or signs
were employed during the crime and the·witnesses were unaware of the gang associations
of the three men. (Id. at p. 1363.) The court noted that the juvenile court had found "that
appellant's assault on [the employee] was simply a spur-of-the-moment reaction to [the
employee's] attempt to grab the bottle from him." (Ibid.) Thus, the court concluded that
37

ER 1405

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 52 of 121

"the underlying premise of [the expert's) opinion, that the participants planned or
executed a violent crime in concert in order to enhance their respect in the community, or
to instill fear, was factually incorrect." (Id. at pp. 1363-1364.)
Here, as in Daniel C., the evidence shows that the crime was unplanned.
Defendant was drawn into a dispute between his sister and four strangers over his sister's
dog. The other purported gang member, defendant's uncle, was not present when
defendant stabbed Sue. He was in defendant's sister's backyard. Thus, the crime was not
committed in association with another purported gang member. Defendant did not flash
any gang signs or make any gang-related statements during the fight, and there was no
evidence that Sue or his companions were aware of defendant's gang status. Moreover,
defendant did not initially respond to the dispute between his sister and the four men with
violence. To the contrary, he spoke to the four men, listened to their side of the story,
and shook their hands before they got into their truck to leave. Had his sister not
shattered one of the truck's windows, it appears from the record that defendant simply
intended to return to the party. It was only after his sister smashed the window and a
fight ensued that defendant resorted to violence. Thus, like Daniel C., there is no
evidence to support the gang experts' opinions in this case that the crime described in the
hypothetical posed by the prosecution based on the circumstances of this case was gang
related. An " ' "expert's opinion is no better than the facts on which it is based."
[Citation.]' [Citation.]" (Daniel C., supra, 195 Cal.App.4th at p. 1364.)
The People make much of the fact that defendant, a Nortefi.o, wore red to the party,
directed his uncle, a purported Nortefi.o, to do the' same, and told his uncle, "I did what I
had to do" after stabbing Sue. They claim that "[a] rational jury could have reasonably
inferred from that evidence, while considering the expert testimony regarding gang
lifestyle and reputation, that [defendant] committed the crime because he was a
representative of his gang who had been ready to 'defend the household' and commit
violence on behalf of.the gang as required· by gang r~les if the occasion presented itself

38

ER 1406

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 53 of 121

during the party." There are several problems with the People's claim. While it
reasonably could be inferred that defendant intended to establish a gang presence at the
party by wearing red and directing his uncle to do the same, "[m]ere active and knowing
participation in a criminal street gang is not a crime." (People v. Rodriguez (2012) 55
Cal.4th 1125, 1130.) Moreover, it does not follow that the stabbing was committed for
the benefit of, at the direction of, or in association with a criminal street gang, or that
defendant acted with the intent of promoting, furthering, or assisting criminal conduct by
gang members. There is no evidence that Sue or his companions were gang members.
There is no evidence defendant went to his sister's birthday party intending to engage in
any violent behavior. To the contrary, as detailed above, the evidence shows that the
confrontation was not planned, nor was it instigated by defendant. Rather, defendant was
drawn into a dispute between his sister and the four men over his sister's dog.
Significantly, defendant's initial response was to resolve the dispute through discourse,
not violence. It was only after his sister smashed the truck's window and a fight ensued
that defendant resorted to violence.
As the People note, the prosecution's experts testified regarding gang lifestyle and
reputation. Both testified that violence is part of gang life and that gang members are
obligated to retaliate with violence when a family member is disrespected or risk losing
· stature within the gang and being viewed as weak. Here, however, defendant did not
retaliate with violence when his sister became involved in a dispute with the four men.
He attempted to settle the dispute peacefully by talking with the four men and shaking
their hands, and it was only after his sister smashed the truck's window and a fight
ensued that he resorted to violence. As Marquez acknowledged, defendant's initial
reaction was "completely out of character" for a Nortefio.
Defendant's statement to his uncle that "I did what I had to do," is ambiguous at
best. While it could be construed, as the People suggest, as indicating he was acting in
accordance with established Nortefio rules when he stabbed Sue, it could just as easily be
39

ER 1407

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 54 of 121

construed as meaning that he did what he had to do to protect his sister or himself, and
thus, does not constitute substantial evidence that the stabbing was gang related.
The People also assert that defendant's "conduct after the stabbing was
circumstantial evidence that he committed the crime with the intent to benefit the
Nortefio gang and further the criminal activity of its members." Specifically, they assert
that defendant "repeatedly used his membership status in the Nortefio gang as a tool to
persuade other witnesses not to talk to law enforcement about what he had done." The
portions of the record cited by the People do not support their assertion. Rather, they
show that defendant told Donica Wilson that he had injured himself in an automobile
accident and confirmed that she understood what he had said, and defendant's mother
told Donica Wilson that defendant would kill her family if she told police what she had
seen. In any event, even if there was such evidence, it would not support a finding that
the stabbing itself was gang related. A defendant's attempt to use his gang status to
dissuade witnesses from talking to the police after the commission of a crime, without
more, does not establish that the crime itself was gang related.
Finally, the People claim that "[a] rational jury also could have reasonably inferred
that [defendant] intentionally left his red hat next to the victim as a calling card to
witnesses that the crime was committed by and for the Nortefio gang." Had there been
any evidence that the crime was gang related, we might agree. However, there simply

was no such evidence. The presence of defendant's red hat at the scene, without more,
does not support a finding the crime was gang related. (People v. Rios (2013) 222
Cal.App.4th 542, 564 lfinding of fact must be an inference drawn from evidence rather
than a mere speculation to probabilities without evidence].) For all the foregoing
reasons, we shall reverse the jury's true finding on the gang-enhancement allegation.
We reach the same conclusion with respect to thejury's finding on the gangmurder special circumstance. To sustain a true finding on that allegation, the prosecution
was required to prove, among other things, that the murder was carried out to further the

40

ER 1408

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 55 of 121

activities of the criminal street gang. (§ 190.2, subd. (a)(22).) As previously discussed in
connection with the gang enhancement, there is no evidence, substantial or otherwise, to
support such a finding. Accordingly, we shall reverse the judgment as to the jury's true
finding on the gang-murder special-circumstance allegation as well. 23

VI
The Trial Court Did Not Err in Refusing to Instruct the Jury on Heat of Passion
as a Lesser Included Offense of Murder, and Even Iflt Did, Any Error Was Harmless
Defendant next contends that the trial court erred in refusing to instruct th~ jury on
voluntary manslaughter based on heat of passion as a lesser included offense of murder
and abused its discretion in denying his motion for a new trial on the same ground. As
we shall explain, the trial court's refusal to so instruct the jury was proper, and any error
was harmless under any standard because the jury necessarily rejected the possibility that
defendant acted in the heat of passion by convicting him of first degree murder. Thus,
defendant's motion for a new trial was properly denied.
The jury was instructed under CALCRIM No. 505 that defendant was not guilty of
murder or manslaughter if he acted reasonably in defense of another and under
CALCRIM No. 571 that he was guilty of the lesser included offense of voluntary
manslaughter if he acted unreasonably in defense of another. It was also instructed under
CALCRIM No. 521 that defendant was guilty of first degree murder as opposed to
second degree murder if "he acted willfully, deliberately and with premeditation. The
defendant acted willfully ifhe intended to kill. The defendant acted deliberately if he
carefully weighed the considerations for and against his choice and, knowing the
consequences, decided to kill. The defendant acted with premeditation if he decided to

23

Because we reverse the judgment as to the gang-murder special-circumstance and
gang-enhancement findings, we need not consider defendant's claim that the his trial
counsel was ineffective in failing to request a pinpoint instruction relative to those
allegations.
41

ER 1409

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 56 of 121

kill before completing the act that caused death. [1] ... A decision to kill made rashly,
impulsively or without careful consideration is not deliberate and premeditated." The
trial court refused defendant's request to instruct the jury pursuant to CALCRIM No. 570
that a killing that would otherwise be murder is reduced to voluntary manslaughter if
defendant acted based on a sudden quarrel or heat of passion because it did not "believe
there was any actual provocation or evidence of provocation by the_victim toward the
defendant." 24 After the verdict, defendant moved for a new trial based in part on the
failure to give a heat of passion instruction, and the motion was denied.
A trial court must instruct the jury on all general principles of law relevant to the
issues raised by the evidence, including lesser included offenses. (People v. Moye (2009)
4 7 Cal.4th 537, 548 (Moye).) Instructions on a lesser included offense must be given
when there is substantial evidence from which the jury could conclude the defendant is
guilty of the lesser offense, but not the greater. (People v. Thomas (2012) 53 Cal.4th 771,
813.) The existence of any evidence, no matter how weak, will not justify instruction on
a lesser included offense. (People v. Whalen (2013) 56 Cal.4th 1, 68.)
We independently review the question of whether the trial court erred by failing to
instruct on a lesser included offense. (People v. Sou_za(2012) 54 Cal.4th 90, 113.) When,
consider-ing whether lesser included offense instructions should have been given, we view
the evidence in the light most favorable to the defendant. (People v. Millbrook (2014)
222 Cal.App.4th 1122, 1137.)

24

CALCRIM No. 570 provides in part: "A killing that would otherwise be murder is
reduced to voluntary manslaughter if the defendant killed someone because of a sudden
quarrel or in the heat of passion. [1] The defendant killed someone because of a sudden
quarrel or in the heat of passion if: [fl 1. The defendant was provoked; [1] 2. As a
result of the provocation, the defendant acted rashly and under the influence of intense
emotion that obscured (his/her) reasoning or judgment; [fl AND [fl 3. The
provocation would have caused a person of average disposition to act rashly and without
due deliberation, that is, from passion rather than from judgment."
42

ER 1410

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 57 of 121

Voluntary manslaughter is the intentional but nonmalicious killing of a human
being, and is a lesser offense of murder. (§ 192, subd. (a); Moye, supra, 47 Cal.4th at p.
549.) A killing may be reduced from murder to voluntary manslaughter if it occurs upon
a sudden quarrel or in the heat of passion on sufficient provocation, or if the defendant
k_illsin the unreasonable, but good faith, belief that deadly force is necessary in defense
of another. (People v. Beltran (2013) 56 Cal.4th 935,942,951

(Beltran); People v.

Manriquez (2005) 37 Cal.4th 547, 583.)
"Heat of passion arises when 'at the time of the killing, the reason of the accused
was obscured or disturbed by passion to such an extent as would cause the ordinarily
reasonable person of average disposition to act rashly and without deliberation and
reflection, and from such passion rather than from judgment.'

[Citations.]" (People v.

Barton (1995) 12 Cal.4th 186, 201.) "' "Although section 192, subdivision (a), refers to
'sudden quarrel or heat of passion,' the factor which distinguishes the 'heat of passion'
form of voluntary manslaughter from murder is provocation." '" (People v. Souza,
supra, 54 Cal.4th at p. 116.)
A heat of passion theory of manslaughter thus has both an objective and a
subjective component. (Moye, supra, 47 Cal.4th at p. 549.) "The provocation which
incites the defendant to homicidal conduct ... must be caused by the victim ... or be
. conduct reasonably believed by the defendant to have been engaged in by the victim."
(People v. Lee (1999) 20 Cal.4th 47, 59.) The victim's conduct may have been physical
or verbal, but it must have been sufficiently provocative to cause an ordinary person of
average disposition to act rashly or without due deliberation and reflection. (Beltran,
supra, 56 Cal.4th at p. 939.)
To satisfy the subjective component, the defendant must have killed "while under
'the actual influence of a strong passion' induced by [adequate] provocation." (Moye,
supra, 47 Cal.4th at p. 550.) " ' "[N]o specific type of provocation [is] required," ' " and
"the passion aroused need not be anger or rage, but can be any'"

'[v]iolent, intense,

43

ER 1411

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 58 of 121

high-wrought or enthusiastic emotion'"'

[citations] other than revenge [citation]."

(People v. Breverman (1998) 19 Cal.4th 142, 163.)

Here, the evidence showed that defendant's sister wa:s intoxicated and hysterical at
all· relevant times herein. When she initially accused the four men of kicking her dog,
defendant intervened and the matter was peacefully resolved .. Thereafter, the four men
got inside a truck and were preparing to leave, when defendant's sister shattered the
truck's window with her keys. At that point, the victim Sue and the other three men got
out of the truck. Jim, who had been seated in the backseat of the truck, testified that
when he got out, he observed a "tussle" about 10 feet behind the truck involving Sue and
"like three other people," including defendant and defendant's sister. They were
"swinging and fighting." Defendant's sister testified that Sue attempted to punch her but
missed. Defendant then stepped in front of her and fought with Sue. Sue then fell to the
ground. Immediately thereafter, defendant got into a car driven by his mother. Before
they drove off, defendant got out of the car and retrieved his knife.
Even assuming a jury could find Sue's conduct sufficiently provocative to cause
an ordinary person of average disposition to act rashly or without due deliberation and
reflection, there is no evidence defendant actually, subjectively killed under the heat of
passion. More specifically, there is no evidence, direct or circumstantial, that would
support an inference that defendant subjectively harbored such strong passion, or acted
rashly or impulsively while under its influence when he stabbed Sue. To the contrary,
what little evidence there is regarding defendant's state of mind suggests that his
judgment was not obscured. After stabbing Sue, defendant immediately proceeded to a
waiting car, driven by his mother, and before departing, had the presence of mind to get
out of the car, return to the scene, and retrieve the murder weapon. Because there is
insufficient evidence to support the subjective component of a heat of passion theory of
manslaughter, the trial court properly refused to instruct the jury on that theory. (People
v. Holloway (2004) 33 Cal.4th 96, 141 ["[N]o fundamental unfairness or loss of verdict

44

ER 1412

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 59 of 121

reliability results from· the lack of instructions on a lesser included offense that is
unsupported by any evidence upon which a reasonable jury could rely."].)
In any event, any error in failing to give a heat of passion instruction was
harmless. "Error in failing to instruct the jury on a lesser included offense is harmless
when the jury necessarily decides the factual questions posed by the omitted instructions
adversely to [the] defendant under other properly given instructions." (People v. Lewis
(2001) 25 Cal.4th 610, 646.) Here, the jury was instructed that it could not return a
verdict of first degree murder unless it.found that defendant "carefully weighed the
considerations for and against his choice and, knowing the consequences, decided to
kill." As our colleagues in Division One of the First District Court of Appeal recently
recognized in People v. Peau (20 I 5) 236 Cal.App.4th 823, 831-832, such a finding is
inconsistent with a finding the defendant acted-in a heat of passion. Defendant
acknowledges that the jury "implicitly found [he] premediated the act" by finding him
guilty of first degree murder, but argues that the "finding must be given little weight
because of the vast amount of ... improper gang evidence admitted likely prejudiced the
jury." As detailed above, the gang evidence was properly admitted. Because the jury
necessarily found that Sue's murder was willful, deliberate, and premeditated, we
conclude that any error in failing to give a heat of passion instruction was harmless
beyond a reasonable doubt, and that the trial court properly denied his motion for a new
trial to the extent it was based on the failure to so instruct the jury. (See Peau, at p. 828.)
VII
There Was No Cumulative Error
Defendant claims that the cumulative effect of the trial court's errors requires
reversal of the judgment. We have concluded that the only potential error was the failure
to give a heat of passion instruction, and that any such error was harmless under any
standard. There are no additional errors to cumulate with that error.

45

ER 1413

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 60 of 121

VIII
The Minute Order Must Be Corrected to Reflect
That The Trial Court Found Defendant Had One Prior Strike Conviction
Finally, defendant contends, and the People concede, that a May 1, 2013, minute
order should be conected to conform to the trial court's finding that defendant had one
prior strike conviction, not two, within the meaning of section 1170.12. We agree.
The first amended information only alleged one prior strike conviction under
section 1170.12, and the trial court only determined that defendant had one prior strike
conviction within the meaning of that section. The minute order, however, erroneously
states that the trial court found true "Special Allegation of 2 PRIOR SERIOUS OR
VIOLENT FELONIES pursuant to Section 1170.12 of the Penal Code." We shall direct
the trial court to correct the minute order to conform with the trial court's finding.

(People v. Farell (2002) 28 Cal.4th 381,384, fn. 2.)
DISPOSITION
The judgment is rever.sed as to the true findings on the gang-murder special
circumstance and gang enhancement, and otherwise affirmed. The trial court is directed
on remand to strike those true findings from the record of conviction and resentence
defendant. The trial court also is directed to correct the May 1, 2013, minute order to
reflect that the trial court found defendant has one prior conviction within the meaning of
section 1170.12.

Isl
Blease, Acting P. J.
I concur:

Isl
Hoch, J.

46

ER 1414

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 61 of 121

•Mauro, J., Dissenting.
Part V of the majority opinion concludes there is insufficient evidence to support
the true findings on the gang-murder special circumstance and gang-enhancement
allegations. The majority opinion reverses the judgment as to those findings and
otherwise affirms the judgment. I disagree with Part V of the majority opinion and the
disposition pertaining to Part V. I otherwise concur with Parts I through IV and VI
through VIII of the majority opinion and the remainder of the disposition. I would affirm
the judgment.
The jury found defendant Vincent Gino Chavez guilty of the first degree murder
of Sue Saeturn (Pen. Code, § 187, subd. (a)) 1 and found true the special circumstance that
defendant intentionally killed Sue while defendant was an active participant in a criminal
street gang and that the murder was carried out to further the activities of the gang.

(§ 190.2, subd. (a)(22).) The jury also found true allegations that the murder was
committed for the benefit of, at the direction of, or in association with a criminal street
gang, with the specific intent to promote, further, or assist in criminal conduct by gang
members. (§ 186.22, subd. (b).)
Defendant contends there is insufficient evidence that he "formed the intent to
benefit the gang or assist [in] criminal conduct by gang members before the homicide
was complete" and thus the jury findings as to the gang enhancement and gang-murder
special·circumstance must be reversed. The majority agrees, but I disagree.
In considering a challenge to the sufficiency of the evidence in a criminal case,
--we review the entire record in the light most favorable to the judgment to determine
whether it contains substantial evidence -- that is, evidence that is reasonable, credible,
and of solid value -- from which a reasonable trier of fact could find the defendant guilty

Undesignated statutory references are to the Penal Code.

ER 1415

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 62 of 121

beyond a reasonable doubt. [Citation.] We presume every fact in support of the
judgment the trier of fact could have reasonably deduced from the evidence. [Citation.]
If the circumstances reasonably justify the trier of fact's findings, reversal of the
judgment is not warranted simply because the circumstances might also reasonably be
reconciled with a contrary finding. [Citation.] 'A reviewing court neither reweighs
evidence nor reevaluates a witness's credibility.' [Citation.]" (People v. Albillar (2010)
51 Cal.4th 4 7, 59-60.) Expert opinion that particular criminal conduct benefited a gang
by enhancing its reputation for viciousness can be sufficient to raise the inference that the
conduct was committed for the benefit of a criminal street gang. (Id. at p. 63.)
Applying the foregoing standards, I believe there is substantial evidence from

a

which reasonable jury could find true the gang-murder special circumstance and gangenhancement allegations.
Michael Whittington, a former gang detective and gang intelligence officer with
the San Jose Police Department, testified for the prosecution as an expert on gangs.
Whittington explained that violence is a part of gang life, and that it "is done in order to
enact fear in the community, [and] fear in rivals for the purposes of gaining territory and
control." It is common for gang members to carry weapons. "Weapons are tools of the
trade" and "benefit the gang because the gang needs to be able to fight at a moment's
notice; therefore, weapons will traditionally be found in or around gang members."
In gang culture, respect is synonymous with fear. Whittington testified that Nortefios
claim the color red and dress in the colors red, black, and white. Whittington opined
that defendant is a Nortefio gang member based on his tattoos, his writings, his prior
conviction, and his actions on the night in question.
Whittington further testified that gang members are obligated to retaliate with
violence when a family member is disrespected.
Robert Marquez, a veteran gang investigator who had been assigned to the
Redding Police Department, also testified as a gang expert for the prosecution.
2

ER 1416

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 63 of 121

According to Marquez, violence is crucial to all prison and street gangs because it
translates into fear, which translates into power. Fear benefits the gang because it helps
it control its members, creates a level of notoriety which helps with recruiting new
members, and dissuades members of the community from reporting the criminal activities
of gang members.
Dr. Rahn Minagawa, a clinical and forensic psychologist, testified for the defense
as an expert in gang psychology. Minagawa testified defendant was a Nortefio gang
member. He based his opinion on defendant's tattoos, history, and prior interactions with
law enforcement.
During closing argument, defense counsel conceded defendant is a gang member.
On the night of the murder, defendant attended a birthday party at his sister's
home. Defendant's mother drove defendant, his uncle, and his uncle's girlfriend to the
party. Prior to the party, defendant texted his uncle and told him to wear red. Defendant
wore a red hat and red shirt to the party. Defendant's uncle wore red shoes and a red belt,
and he also died his facial hair red and had a red bandana in his back pocket.
Defendant's uncle testified red is the primary co !or of the N ortefio gang. Responding to a
hypothetical similar to the facts of this case, Michael Whittington noted that by wearing
red and showing visible tattoos, the individuals in the hypothetical were demonstrating
their allegiance to the gang and showing their strength in numbers. Here, the jury could
infer from the evidence that defendant intended to show gang colors that evening in
support of his gang. Defendant's uncle also testified Nortefio gang members often use
monikers and that defendant's moniker was --Monster." Defendant's uncle and his then
girlfriend testified that defendant usually carried a pocket knife in his back pocket. The
jury could infer that the knife was a tool of the gang trade and carrying it benefitted the
gang because a gang member must be ready to fight at a moment's notice.
The majority notes that mere active and knowing participation in a criminal street
gang is not a crime. (People v. Rodriguez (2012) 55 Cal.4th 1125, 1130.) But as I will
3

ER 1417

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 64 of 121

explain, here the jury could infer defendant did more than merely belong to a gang, wear
gang colors and carry a weapon for the gang.
Thatnight, Sue and others left a party across the street from defendant's sister's
house and walked to a truck parked nearby. Defendant's sister owned a dog and thought
she saw one of the members of Sue's group kick the dog. The majority makes much of
the fact that there was an initial cordial exchange between the two groups, but the jury
could infer that at the time of the cordial exchange, defendant did not view Sue as having
disrespected defendant's sister. After defendant's sister shattered the truck window,
however, the driver of the truck began screaming and Sue tried to punch defendant's
sister. The jury could infer that once Sue tried to hit defendant's sister, defendant viewed
Sue as having disrespected his sister. The jury could also deduce that defendant, a gang
member, felt obligated to retaliate with violence when his sister was disrespected,
furthering the activities of his gang by stabbing Sue in the chest more than once.
Although defendant made a point to retrieve his knife from the scene of the crime,
his red hat was left next to Sue's bod3/. Later, defendant's uncle sent a text to defendant
stating, "And your hat, nigga, you got them outtie." The jury could infer that defendant
left the red hat at the murder scene as a gang .calling card to spread fear of, and respect
for, the gang.
Defendant's mother drove defendant tcithe home of Donica and John Wilson so
that defendant could wash the blood off his hands. The jury could infer that defendant's
mother was assisting defendant in evading the police. Before leaving Donica's home,
defendant told Donica the blood was from a car accident. Donica said she "understood."
Defendant asked, "Do you really understand?" to which Donica replied, "Yes, I do."
After the incident, defendant told his sister people who talk to the police are beaten or
killed. The jury could infer that defendant was seeking to dissuade witnesses by instilling
fear of gang retaliation. This inference is further supported by the evidence that
defendant's mother told Donica defendant would kill Donica's whole family if she told
4

ER 1418

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 65 of 121

the police what she had seen. Defendant's mother pleaded guilty to dissuading a witness
by force or threat and influencing testimony by a bribe in connection with this case, and
she admitted those crimes were committed for the benefit of, in association with, or at the
direction of a criminal street gang.
Defendant's uncle asked defendant what happened at the murder scene and
defendant responded, "I did what I had to do." The majority says defendant's response is
ambiguous, could be construed in different ways, and "could just as easily be construed
as meaning that he did what he had to do to protect his sister" or himself. (Maj. opn.,
ante, at pp. 38-39.) But our job is not to reweigh the evidence or consider ways in which
the jury could have reached a different result. Our job is to view the evidence in the light
most favorable to the judgment and determine whether there is substantial evidence to
support the jury verdict. Here, the jury could infer that when defendant said he did what
he had to do, he meant he had to respond to the disrespect directed toward the sister of a
gang member.
Responding to a hypothetical base1 on these facts, Marquez testified that in
responding violently to the disrespect shown to his immediate family member, the gang
member in the hypothetical acted in accordance with established street-gang rules.
Had the gang member failed to respond in that manner he would have lost stature in
the gang and been viewed as weak. The crime benefited the gang because the "sheer
ferocity" of the act would encourage fellow gang members to follow orders and would
instill fear in the community. It would also increase the gang member's notoriety within
the garig and the gang's stature within the community.
The majority notes there is no evidence Sue or his companions were gang
members. But there is also no evidence gang members only commit crimes against other
gang members. Rather, there is evidence gang members are obligated to retaliate with
violence when a family member is disrespected. The jury could deduce that Sue was a
victim because he disrespected the sister of a gang member.
5

ER 1419

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 66 of 121

The majority also explains there is no evidence defendant went to his sister's
birthday party intending to engage in violent behavior. But based on the evidence, the
jury could infer defendant came to the party armed and ready to fight in furtherance of
the gang at a moment's notice.
The record indicates defendant did not make any gang-related statements or flash
any gang signs during the fight with Sue; and after the murder defendant told his sister "I
did it for you." Again, however, as long as there is substantial evidence to support the
verdict, it does not matter whether there is other evidence that would support a different
result. Here, the jury could find defendant was a gang member who wore gang colors,
had gang tattoos, encouraged his uncle to wear gang.colors, carried a knife to a birthday
party, had attacked people in support of the gang in the past, was motivated to retaliate
with violence when his sister was disrespected, killed the person who disrespected his
sister by stabbing him repeatedly, left his red hat next to the victim, threatened witnesses,
and did all those things in furtherance of the gang.
Considering the evidence in the light most favorable to the judgment, and
presuming every fact in support of the judgment the trier of fact could reasonably
deduce from the evidence, I believe there is substantial evidence to support the judgment.
I would affirm the judgment.

/s/
Mauro, J.

6

ER 1420

APPENDIX E

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 113 of 121

Court of Appeal, Third Appellate District - No. C074.316
S238536

IN THE SUPREME COURT OF CALIFORNIA
En Banc

SUPREME COURT

Fl LED
JAN112017

THE.PEOPLE, Plaintiff and Respondent,

v.

Jorge Navarrete Clerk

VINCENT GINO CHAVEZ, Defendant and Appellant.

Deputy

The petition for review is denied.

CANTIL-SAKAUYE
Chief Justice

ER 1463

~

1

APPENDIX F

. RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 117 of 121

V

-

'

.

-

,

ABSTRACTOFJUDGMENT·PRISONCOMMITMENT
• INDETERMINATE
{NOTVALIDWITHOUT
COMPLETED
PAGETWOOFCR-292ATTACHED]

CR-292

SUPERIOR COURTOFCALIFORNIA,COUNTYOF: SH AST A
PEOPLEOF THE STATEOF CALIFORNIAvs.

-B

JUN-~0 2017.,...-h

A22696113

0
0

BOOKINGNO,:
COMMITMENTTO STATEPRISON
ABSTRACTOF JUDGMENT
DATE OF HEARING

NOT PRESENT

-

-0

BYN,1"4DD

G.GAUL

7
REPORTER

•

PROBATIONNO, OR PROBATIONOFFICER

D.BENSON

COUNSELFOR PEOPLE

D. IRVING

l®APPTO,

Defendantwasconvictedof the commissionof the followingfelonies:

...
COtMCTED
BY

(numberof pagesattached)

COOE

1

PC

I

L.JENSEN

0 Additionalcountsare listedon attachment

cowr

IMMEDIATESENTENCING

COUNSELFOR DEFENDANT

E. MEES

_

l

JUDGE

06-30-17

N.SINDORF

.---C
., ,_

- .. ;ouNTY
SUPERIORCOURT
EDDINGBRANCH
1

AMENDED
ABSTRACT

DEPT. NO.

CLERK

1.

F ·1LED·

12F1499

.

AKA:
CII NO.:

03-10-82

008:

DEFENDANT:VINCENT
GINOCHAVEZ,JR.

SECTIDNNO.

187{a)

OATEOF

YEARCRIME
C(M.4ITTED

CRIME

FIRSTDEGREEMURDER

CONVIC110H
•

s§~

(MO..OATt/YEARJ

04-25·13

2011

. .
. ..
. .

4

. .
ENHANCEMENTS
chargedand found to be true TIED TO SPECIFICCOUNTS(mainlyin the PC 12022series). List each count
enhancementhorizontally.Enter time imposedfor each or "S" for stayed. DO NOTLIST ANY STRICKENENHANCEMENT(S).

COUNT

llME IMPOSED

EMWlecMENT

-PC1170.12

1

TIMEIMPOSED
0R "S'FORSTAVED

~

r

TIMEU.IPOSED

ENHM'CEMENT

TOTAi.

OR'$"FCIIISTAYEO

50

.

PC12022(b)

1

ENHANCEMENT

OR"S'FORSIAYED

u

~

t;

t
I
I
I
I
I

X

. .
2.

II

1

·1 00
00

1

I
I

I

t
3.

ENHANCEMENTS
chargedand found to be true FOR PRIORCONVICTIONSOR PRISONTERMS(mainly in the PC 667 series).
Lisi all enhancemenls
horizontally.Enter lime imposedfor each or •s•for stayed. DO NOT LIST ANY STRICKENENHANCEMENT(S).
ENIWICEMENT

667.S(b)
667(a)(1)

TIMEIMPOSED
OR'$"FORSTAYED

ENHAIICEMENT

TIMEIMPOSED
OR'$"FOR6TAYED

TIMEIMPOSED

ENHANCEMENT

011'S" FORSIAYED

s
s

TOTAi.

I
t

i

.
Defendant was sentenced to State Prison for an INDETERMINATE TERM as follows:
0 LIFE WITHOUT THE POSSIBILITY OF PAROLE on counts __
0 LIFE WITH THE POSSIBILITY OF PAROLE on counts __
years to Life on counts __
c. 0 __
6.
a. D 15 years to Life on counts_
d. 0 __
years to Life on counts __
b. 18125 years to Life on counts 1
.
PLUS enhancement time shown above.
7. 0 Additional delenninate term (see CR-290).
8. Defendant was sentenced pursuant to ~ PC 667(b}•(i) or PC 1170.12 0 PC 667.61

4.
5.

.

:"'

D

PC667.7

0

other (specify):

This form is prescribedunderPC 1213.5to satisfy the requirementsof PC 1213for indetennlnatesenlences. Attachmentsmay be used but musl be referredto In this document.

Ferm~'°'

MandaloryU,o

Ju<fdaCounc.l
olCaiforrls
CR-292(Re-,.Juy 1,2009)

ABSTRACT
OFJUDGMENT
- PRISON
COMMITMENT
- INDETERMINATE

Page 1 of 2
I PenalCode,
§§ 121J,1213.5

I

j

ER 1464 f

..

..RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 118 of 121

' '

PEOPLE
Of THESTATE
Of CAUfORIM
\'S.
DEFENDANT:
VINCENTGINOCHAVEZ JR.

12F1499

-

I

·A

. -s

I

-e

I

-0

FINANCIAL OBLIGATIONS (plus any applicable penalty assessments):

9.

a.
Restttution Finelsl:
Case A: S10,000
$__
Case B:
Case C:
Case D:
b.

s__
s__
s__

per PC 1202.45 suspended unless parole is revoked.

per PC 1202.4(b) forthwith per PC 2085.5;
S__
per PC 1202.44 Is now due, probation having been revoked.

per PC 1202.45 suspended unless parole is revoked.

s__

per PC 1202.4(b) forthwith per PC 2085.5;
per PC 1202.44 is now due, probation having been revoked.

per PC 1202.45 suspended unless parole is revoked.

$__

s__
s__

per PC 1202.4(b) forthwith per PC 2085.5;
S__
per PC 1202.44 is now due, probation having been revoked.

per PC 1202.45 suspended unless parole is revoked.

Restitution per PC 1202.4(f}:

s=

0

Case A: S13,828.38
Case B: S
CaseC:
CaseD: $__
C.

per PC 1202.4(b) forthwith per PC 2085.5;
S10,000
per PC 1202.44 Is now due, probation having been revoked.

E.infilfil:

0

Amount to be determined
Amount to be determined
Amount to be determined
Amount to be determined

0 • Victim name(s), if known,

Case A: $

0

D
0

per PC 1202.5.
includes:

s__

to
to
to
to

!El victim(s)'
D victim(sr
D victim(s)'

O

victlm(s)'

per VC 23550 or __

D $50 Lab Fee per HS 11372.5(a)

s__

D

d.

includes:

per PC 1202.5. $__
per VC 23550 or __
S50 Lab Fee per HS 11372.5(a)

0

Court Security Fee: $40.00 per PC 1465.8.

10. TESTING

a. 0

Restitution
Restitution
Restitution
Restitution

Compliance with PC 296 verified

Fund
Fund
Fund
Fund

D • Victim

and amount breakdown In item 11, below.

Case B: S__
per PC 1202.5.
per VC 23550 or __
O includes: 0 S50 Lab Fee per HS 11372.5(a)
CaseC: $__
per PC 1202.5. S__
per VC 23550 or __
O includes: 0 $50 Lab Fee per HS 11372.5(a)
Case D: S

D
0
0
D

names(s) in probation officer's report.

O county jail O prison in lieu of fine D
D S__ Drug Program Fee per HS 11372. 7(a)
days D county jail D prison in lieu of fine D
Os __ Drug Program Fee per HS 11372.7(a)
days O county jail D prison In lieu of fine D
D s__ Drug Program Fee per HS 11372. 7(a)
days •-county jail D prison in lieu of fine D
D S__ Drug Program Fee per HS 11372. 7(a)
days

e.

Criminal Conviction Assessment: S30.00 per GC 70373.

b.

0

AIDS per PC 1202.1

d.

0

concurrent D consecutive
for each qualifying offense.
concurrent D consecutive
for each qualifying offense.
concurrent D consecutive
for each qualifying offense.
concurrent O consecutive
for each qualifying offense.

other (specify):

11. Other orders {specify):
VICTIM RESTITUTIONTOBE PAID TOVICTIM LIEWSAETERN PLUS 15%ADMINISTRATIONFEE

12. IMMEDIATE SENTENCE:

14. CREDIT FOR TIME SERVED

0

Probation lo prepare and submit
Post-sentence report to CDCR per PC 1203c.

CASE

Defendant's race/national origin: HISP

A

TOTAL CREDITS

430

ACTUAL

430

B
13. EXECUTION OF SENTENCE IMPOSED:
a. O at initial sentencing hearing.
b. 18) at resentencing per decision on appeal.
c, D after revocation of probation.
d. 0 at resentencing per recall of commitment. (PC 1170(d).)
e. D other (specify):

C

LOCAL CONDUCT

0

•

•
•
•
D

D

D

D
DateSentencePronounced:

06-30-17

•

4019
2933.1
4019
2933.1
4019
2933.1
4019
2933.1

Time ServedIn State lnsmuuon:
DMH
CRC
CDCR
1
I
J
I
I
I

D

15. The defendant Is remanded to the custody of the sheriff 1'81
forthwith
after 48 hours excluding Saturdays, Sundays, and holidays.
To be delivered to
[8J the reception center designated by the director of the California Department of Corrections and Rehabilitation.
other (specify):

D

CLERK OF THE COURT
t hereb certl

the fore oin to be a correct abstract of the ·ud men! made In this action.

OEPlllYS SIGNATURE

N.SINDOR~"
CR-202 (Rav. Juty 1,2009)

•

DATE

.2.,
ABSTRACT OF JUDGMENT-

PRISON COMMITMENT-

06-30-17
INDETERMINATE

Page 2 of 2

ER 1465

-

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 119 of 121

THIS INSTRUMENTIS IGINAL
OR
A CORRECTCOPY OF THE
OFFICE
ON FILE IN THIS

ATTEST

JULO5 2017

'>

ri!lr·:oonof the
Ueputy
1,,,----~-~--:-

ilf Sha&ta
o O!ln~·

~=,,----:.---:--

ER 1466

r

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-13, Page 116 of 121

•

ABS~T OFJUDGMENT
- PRISON
COMMITME.ETERMINATE
SINGL, CONCURRENT,
ORFULL-TERM
CONSECU COUNTFORM

AL.1.JJ\
SUPERIOR COURT OFCALIFORNIA,COUNTYOF:

PEOPLEOF THE STATEOFCALIFORNIAvs.

OOB:

DEFENDANT:VINCENT
GINOCHAVEZ,JR.

03-10-82

A22696113

BOOKINGNO.:

0

COMMITMENTTO STATEPRISON
ABSTRACTOF JUDGMENT

181MIENOEO

DATE OF HEARING

DEPT. NO.

7

CLERK

REPORTER

I

REDOINGBRANCH
BYN.CARR

JUDGE

D. BENSON

D. IRVING

..

2.

I

.\181
APPTO.

L.JENSEN

I

Sl:C1lON
NUMBER

IMMEDIATESENTENCING

COUNSEL FOR DEFENDANT

1. Defendantwas convictedof the commissionof the following felony:

I PC I 211/212.5

LJ

PROBATIONNO, OR PROBATION OFFICER

E.MEES

I

I 2nd DEGREEROBBERY

CO//IIICTEO
BY

OATEOF

YEARCRUAE

CONVICTION
COMMITTED (MOJOATE/YEAR)

CRll.'E

2010

! ~

01-27-12

~

i;

X

L

3.

TIMEl~!POSEO

ENHANCS\ENT

TIMEIMPOSED

OR"S"FORSTAYED

ENHANCEMENT

OR'S' FOR6TA'll:0

TIME
IMPOSED
OR'S"FOR61A\t0

1

TIME
IMPOSED

0

YRS.

4

l

ENHANCEMENTScharged and found to be true TIED TO SPECIFIC COUNTS (mainly in the PC 12022 series): List each count enhancement
horizontally. Entertime imposedfor each or "S" for stayed. DO NOT LIST ANY STRICKEN ENHANCEMENT(S).

COUtfl'

.

I

G.GAUL

N. SINDORF

I

i

SHA oTA COUNTYSUPERIOR COURT

NOTPRESEl'IT

COUNSELFOR PEOPLE

1

r

ABSTRACT

06-30-17

COUNT COOE

-CR-290.1

FILED
· JUN~ 0 2017
j»

CASE NUMBER

C1114035

AKA:
CII NO.:

l

{Not to be used for multiolecount convictionsor for 1/3 consecutivesente11cesl
SANTA CLARA

I MOS.

I oo

rotAL

ENHANCEMENTScharged and found to be true FOR PRIOR CONVICTIONSOR PRISON TERMS (mainly in the PC 667 series). List all
enhancementshorizontally.Enter time imposed for each or 'S" for stayed. DO NOT LIST ANY STRICKEN ENHANCEMENT(S).
TIMEIMPOSED

TIME
IMPOSED

OR'S"FORSTAl'ED

667(a)(1)
4.
5.

TIMEV.!POSED

OR'S'FOR&IA't'S>

TOTAi.

OR'S"r0R$TAY£!1

5

l8l Deft.sentencedper: l8'lPC 667(b)-(i) or PC 1170.12 (two strikes) 0
FINANCIALOBLIGATIONS(plus any applicable penalty assessments):
RestitutionFine(s):S __
$ __

I

PC 1170(a)(3).Pre-confinementcredits equal or exceed lime imposed.
(Paper Commitment.)Deft. ordered to report to local Parole Office upon release.

per PC 1202.4(b)forthwith per PC 2085.5; $__
per PC 1202.45 suspended unless parole is revoked.
per PC 1202.44 is now due. probation having been revoked.

Restitutionper PC 1202.4(1):181
$3800.00 / 0 Amount to be determined to l8l victim(s)"
D Restitution Fund
181-Victimname(s).if known, and amount breakdownin item 8 below. D "Victim name(s) in probation officer's report.
Fine(s):$__

per PC 1202.5. $__

D

D

D concurrent D consecutive
Includes:D $50 Lab Fee per HS 11372.5(a) D $__
Drug Program Fee per HS 11372.7(a) for each qualifyingoffense.
181
Court SecurityFee of S 40.00 per PC 1465.8.
l8lCriminal ConvictionAssessmentof S ~ per GC 70373.
per VC 23550 or __

days

county jail

prison in lieu of fine

D

7.

0 Compliancewith PC 296 verified b. 0 AIDS per PC 1202.1 c. 0 other (specify): __
IMMEDIATESENTENCE:D Probation to prepare and submit a post-sentencereport to CDCR per PC 1203c. Dell's Race/Nat'!Origin hlsp

8.

Other orders (specify): Victimrestitution to Kyung Han plus 15%administrativefee

9.

j TOTALTIMEIMPOSED
EXCLUDING
COUNTY
JAILTERM:

6.

TESTING: a.

9

1

oo

10. 0 This sentenceis lo run concurrentwith (specify):
1
11. Executionof sentenceimposed: a. D at initial sentencing hearing. b. 181al resentencingper decision on appeal. c. D after revocationof prob~tlon.
d. D at resentencin errecall of commitment. PC 1170 d . e. D other s ecif :
I
,
ACTUAL lOCAl
LOCAL CONDUCT
. 12. DATE SENTENCEPROUNOUNCED CREDIT FOR TOTAl DAYS:
O 4019 TIME SERVED
06-30-17
DMH
TIME SPENT
258
CRC
COCR
TIME 225
CREDITS 33
!'vi
IN STATE
2933_1 INSTITUTION:
IN CUSTODY
INCLUDING:
le.I
13. The defendantis remandedto the custody of the sheriff
forthwith
after 48 hours excluding Saturdays, Sundays, and holidays.
To be deliveredto·,_·:=·
.181the reception center designatedby the director of the California Departmentof Corrections and Rehabilitation.
D ~ther (sP:~lfy):
'
·
to be a correct abstract of the ·ud ment made in this action.
OEPUlYS SIGNATURE

•

N.SINDORF
~ ~•-

,.; •

~

- !-~

·"

,

DATE

,

06-30-17

Thls-torm
Is prescribed
underPC 1213.5 lo satisfytherequirements
of PC1213 fordeterminate
sentences.Attachments
maybe usedbutmustbe referredto In lhis document.
Fonn~lot
MandmyUst
Judldalo:.inclrt.Cai!«lia
CR•290.1(Rev.J,Jy 1,2003;
I

.

ABSTRACT
OFJUDGMENT-PRISON
COMMITMENT
- DETERMINATE
SINGLE,CONCURRENT,
ORFULL-TERM
CONSECUTIVE
COUNTFORM

Penal
Code,
§i 1170,121J.1213.S

ER 1467

I

APPENDIX G

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-4, Page 98 of 102
.__
,l
,.:,,

ABSTRACT
OFJUDGMENT
- PRISONCOMMITMENT
- INDETERMINATE
CR-292

[NOTVALIDWITHOUTCOMPLETED
PAGETWOOFCR-292ATTACHED]

...
..- I L E -o

SUPERIOR COURTOF CALIFORNIA.COUNlY OF: SHASTA
PEOPLEOF THE STATE OF CALIFORNIAvs.
DEFENDANT:VINCENT
GINOCHAVEZ,
ESQ.

DOB:

03•10-85

12F1499

~B

Mk
CII NO.:

A22696113

•
•

BDDK!NGNO.:
COMMITMENTTO STATE PRISON
ABSTRACTOF JUDGMENT

NOT PRESENT

COllRT
"' c:alt' FTHESUPERIOR

:NBENSON,
DEPUTY
CLERK
BY:Eihl

AMENDED

ABSTRACT

DEPT.NO.

DATE OF HEARING

JUDGE

10

06-10-13
REPORTER

CLERK

G.. GAUL

LJ

PROBATIONNO. OR PROBATIONOFFICER

A. CHERLAND

E.BENSON

b-6

JUL12 2013

COUNSELFOR PEOPLE

18JAPPTD.

COUNSELFOR DEFENDANT

K.. KAFEL

J.ASKEW

Defendant was convicted of the commission of the following felonies·
Additional counts are listed on attachment
:..._ (number of pages attached)

O

COUNT COOE

1

PC

IMMEDIATESENTENCING

Y.PIERCE

BY

YEARCRIME

CRIME

SECTlONNO.

1871a)

COIMCTEO
DATEOF

CONVCTION

i

04-25-13

X

COMMITTED (MO.illATE/YEAR)

FIRSTDEGREE
MURDER

2011

- .

I

ili

.:

ffi ~§

i

!Jj
z

8 "
0

i?i:
!;;

:g

.-

- .
. -

-

2.

ENHANCEMENTS charged and found to be true TIED TO SPECIFIC COUNTS (mainly in the PC 12022 series). List each count
enhancement horizontally. Enter time imposed for each or"$" for stayed. DO NOT LIST ANY STRICKEN ENHANCEMENT($).

COUNr

1
1

1

3.

.

ENHANCEMENT

PC190.2la)(221
PC1170.12
PC186.22(bl(5)

TIMEIMPOSED
ORTFORSTA'l!D

ENHANCEMENT

TIIE IMPOSED
OR"S"FORSTAYED

ENHANCEMENT

TIMEIMPOSED

TOTAL

OR"S"fORSiAYm

s
s

00)

150
130

00)

ENHANCEMENTS charged and found to be true FOR PRIOR CONVICTIONS OR PRISON TERMS (mainly in the PC 667 series).
List all enhancements horizontally. Enter lime imposed for each or •s•for stayed. DO NOT LIST ANY STRICKEN ENHANCEMENT($).
ENHANCcMENT

TIMEIMPOSEO
OR1rfORST_,'\'ED

ENHANCEMENT

TIMEIMPOSED
DRTFORSTAYflJ

TIME
IMPOSED

ENHANCEMelT

Defendant was sentenced to State Prison for an INDETERMiNATE TERM as follows;
181LIFE WITHOUT THE POSSIBILITY OF PAROLE on counts 1
5. 0 LIFE WITH THE POSSIBILITY OF PAROLE on counts __
6.
a. D 15 years to Life on counts _
c. D __
years to Life on counts __
b. D 25 years to Life on counts__
d. D __
years to Life on counts __
PLUS enhancement time shown above.
7. D Additional determinate term (see CR-290).
8. Defendant was sentenced pursuant to D PC 667(b)-(i) or PC 1170.12 D PC 667.61 D PC667.7

OR"S"FORSTAYED

TOTAL

4.

181
other

(specify): 190.2(a){22)

This form is prescribed under PC 1213.5 to satisfy the requirements of PC 1213 for indetennlnate sentences. Attachments may be used but must be referred to in this document
Page 1 of 2
Penale.do,
Form
Adopted
lorMandalo<y
Use
ABSTRACT
OFJUDGMENT-PRISONCOMMITMENT
- INDETERMINATE
§§1213,1213.5
Jod'odal
Councilol ca'lfomla
CR-292(Nev.July1.2009)

696

ER 320

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-4, Page 99 of 102

PEOPLE
OFTHESTATE
OFCALIFORNIA
vs.

DEFENDANT:
VINCENT
GINOCHAVEZ,
JR.

12F1499

/

/

9.

-A

I

-a

I

.c

I

-0

FINANCIAL OBLIGATIONS (plus any applicable penalty assessments):

a.
Restitution Fine(s):
case A:. $10,000.0

per PC 1202.4(b) forthwith per PC 2085.5;
$__
per PC 1202.44 is now due, probation having been revoked.

per PC 1202.45 suspended unless parole is revoked.

per PC 1202.4(b) forthwith per PC 2085.5;
$__
per PC 1202.44 is now due, probation having been revoked.

per PC 1202.45 suspended unless parole is revoked.

Case C: $__
$__ ._

$__
per PC 1202.4(b) forthwith per PC 2085.5;
per PC 1202.44 is now due, probation having been revoked.

per PC 1202.45 suspended unless parole is revoked.

Case 0: $__
$__

per PC 1202.4(b) forthwith per PC 2085.5;
$__
per PC 1202.44 is now due, probation having been revoked.

per PC 1202.45 suspended unless parole Is revoked.

$__
Case B: $__

· $__

b.

Restitution per PC 1202.4{f):

Case A:
CaseB:
CaseC:
CaseD:

O

$13,828.38

0
0
D

$__

$__
$__

D • Victim
c.
Fine(sl:
CaseA: $__
D includes:

CaseD:

d.

to
to
to
to

be
be
be
be

determined
determined
determined
determined

to
to
to
to

181victim(s)'
D victim(s)*
D victim(s)*
D victim(s)'

D

Restitution
Restitution
Restitution
Restitution

D
D
D

name(s), if known, and amount breakdown in item 11, below.

Fund
Fund
Fund
Fund

D • Victim

names(s) in probation officer's report.

__

days D county jail O prison in lieu of fine O concurrent D consecutive
D $__ Drug Program Fee per HS 11372. 7(a) for each qualifying offense.

Oincludes:

per VC 23550 or __
per PC 1202.5. $__
D $50 Lab Fee per HS 11372.5(a)

days D county Jan D prison in lieu of fine D concurrent D consecutive
0_$ __
0rug Program Fee per HS 11372.7(a)
for each qualifying offense.

$__
includes:

D

per PC 1202.5. $__
per VC 23550 or __
0 $50 Lab Fee per HS 11372.5(a)

days

$__
0 includes:

per VC 23550 or __
per PC 1202.5. $__
D $50 Lab Fee per HS 11372.5(a)

days O county Jail D prison in lieu of fine D concurrent D consecutive
D $__
Drug Program Fee per HS 11372.7(a)
for each qualifying offense.

Case 8: $__
CaseC:

Amount
Amount
Amount
Amount

perPC1202.5.
$__
perVC23550or
D $50 Lab Fee per HS 11372.5(a)

Court Security Fee: $40.00 per PC 1465.8.

10. TESTING

a.

0

CompliancewithPC296verified

D

D $__

county jail D prison in lieu of fine D concurrent D consecutive
Drug Program Fee per HS 11372. 7(a)
for each qualifying offense.

e. Criminal Conviction Assessment: $30.00 per GC 70373.
b.

0

AIDSperPC1202.1

d.

0

other(specify):

11. Other.orders (specify):

VICTIMRESTITUTION
TOBEPAIDTOVICTIMLIEWSAETERN
PLUS15%ADMINISTRATION
FEE

14. CREDIT FOR TIME SERVED

12. IMMEDIATE SENTENCE:

D Probation

to prepare and submit
Post-sentence report to CDCR per PC 1203c.

CASE
A

Defendant's race/national origin: HISP

TOTAL CREDITS

430

ACTUAL

430

LOCAL CONDUCT

!,,J •019

D 2933_1
D •01s
D 2933_1

0

B
C

R

D

•

13. EXECUTION OF SENTENCE IMPOSED:
a.
b.
c.
d.
e.

181at initial sentencing hearing.
0 at resentencing per decision on appeal.
D after revocation of probation.
D at resentencing per recall of commitment
D other (specify):

D

Date Sentence Pronounced:
(PC1170(d).)

06-10-13

181

4019
2933.1
4019
2933_1

Time Served In Stata Institution:
CRC
DMH
CDCR

I

I

I . I

I

I

D

15. The defendant is remanded to the custody of the sheriff
forthwith
after 48 hours excluding Saturdays, Sundays, and holidays.
the reception center designated by the director of the California Department of Corrections and Rehabilitation.
To be delivered to
other (specify):

181
D

CLERK OF THE COURT

CR-292 (Rev, July 1. 2009)

ER 321

RESTRICTED Case: 19-15543, 03/26/2019, ID: 11242456, DktEntry: 2-4, Page 100 of 102
E · ) DETERMINATE
- PRISONCO
ABS •·. \CT OFJUDGMENT
COUNTFORM
CONSECU11VE
ORFULL-TERM
SINGtE;CONCURRENT,
sentences]
orfor113consecutive
countconvictions
{Notlo beusedfor multiale
SUPERIOR COURTOF CALIFORNIA,COUNTI OF:

PEOPlE OF THE STATEOF CALIFORNIAvs.
JR.
GINOCHAVEZ,
DEFENDANT:VINENT

DOB:

03-1 O.a2

I L ED

f

CASE NUMBER

C1114D35

Af<;,_

enNO.: A22696113
BOOKINGNO.:

•

COMMITMENTTO STATE PRISON
ABSTRACTOF JUOGMENT

AMENDED
181

~
JUL12 2013

NOT PRESENT

CLERKOI
J~~ESUPE~~RCOURT
BY:i:11

ABSTRACT

DATE OF HEARING

OEPT. NO.

06-10-13

10

CLERK

REPORTER

~

G.GAUL
Y. PEARCE

I

~APPTO.

J.ASKEW
YEARCAIME

Defendant was convicted of the commission of the following felony:

I

IMMEDIATESENTENCING

COUNSELFOROEFeNOANT

K.KAFEL

NUMBER
SECTION

I PC I 211/212.5

1

•

PROBATIONNO. OR PROBATIONOFFICER

COUNSELFOR PEOPLE

COUKT CODE

. -··

Cl

JUDGE

A.CHERLAND

E.BENSON

1.

CR-290.1

SANTA CLARA

I

I 2J>dDEGREEROBBERY

COMMITTED

CRIME

B'f
CONVICTED
DATEOF
CONVICTION
Ii'
ili
!;,
{MOJDATE/YEAR) a:
§ ~

IMPOSED

a;::!f
,-_;:

YRS.

X

01-27-12

2010

TIME

,,s

4

L

I MOS.
I oo

ENHANCEMENTS charged and found to be true TIED TO SPECIFIC COUNTS (mainly in the PC 12022 series). List each count enhancement
horizontally. Enter time imposed for each or •s•for stayed. DO NOT LIST ANY STRICKEN ENHANCEMENT(S).

2.

TIMEIMPOSED

TIMEIMPOSED

OR"S"FORSTAYED

ORTF-ORSTAVBJ

1

TIMEIMFOSED

ENHANCEMENT

TOTAL

ORTFORSTA"tEJ

00

12022(b)
ENHANCEMENTS charged and found to be true FOR PRIOR CONVICTIONS OR PRISON TERMS (mainly In the PC 667 series). List all
enhancements horizontally. Enter time imposed for each or "S" for stayed. DO NOT LIST ANY STRICKEN ENHANCEMENT(S).

3.

IMPOSED
TIME

ENHANCEMENT

ENHANCEMENT

ORT FORSTAYED

5

667(a)(1)

D

4.

D

5.

FINANCIAL OBLIGA TlONS (plus any applicable penalty assessments):

Deft. sentenced per:

Restitution Fine(s): $ __
$ __

667.S(b)

S

667(a)(1)

PC 667(b)-(i) or PC 1170. 12 (two strikes)

D

00

5

S

PC 1170(a)(3). Pre-confinement credits equal or exceed time imposed.
(Paper Commitment.) Deft. ordered to report to local Parole Office upon release.

per PC 1202.45 suspended unless parole is revoked.
per PC 1202.4(b) forthwith per PC 2085.5; $__
per PC 1202.44 is now due, probation having been revoked.

D Restitution Fund
to ~ victim(s)*
Restitution per PC 1202.4(1): ~ $3800. DO/ D Amount to be determined
D "Victim name(s) In probation officer's report.
"Vtclimname(s), if known, and amount breakdown In item 8 below.
181
Fine(s): $_._per

PC 1202.5. $__

perVC 23550 or __

days

D

county jail

• prison in lieu of fine

D

concurrent

D

consecutive

D $__ Drug Program Fee per HS 11372.7(a) fur each qualifying offense.
Includes: D $50 Lab Fee per HS 11372.5(a)
per GC 70373.
Criminal Conviction Assessment of$~
181
Court Security Fee of$ 40.00 per PC 1465.8.
181
D

•

C()!Tlpliance with PC 296 verified

b.

•

AIDS per PC 1202.1

6.

TESTING:

7.

lMMEDlA TE SENTENCE:

8.

Other orders (specify): Victim restitution to Kyung Hanplus 15%administrative fee

9.

ITOTALTIMEIMPOSEDEXCLUDINGCOUNTYJAILTERM:

a.

D Probation to prepare and submit a post-sentence

c.

• other (specify): __

report to CDCR per PC 1203c. Deft's Race/Nafl Origin~

00

10

10. D This sentence Is to run concurrent with (specify):

11. Execution of sentence imposed: a. D at initial sentencing hearing. b. D at resentencing per decision on appeal. c. 0 after revix:ation of probation.
Case12f1499
Shasta Coun
other s c· : aftertrialln
e.
er recall of commitment. PC 1170 d.
d. D at resentencin
12.
OMH

COCR

CRC

after 48 hours excluding Saturdays, Sundays, and holidays.
forthwith
13. The defendant is remanded to the custody of the sheriff
181the reception center designated by the director of the California Department of Corrections and Rehabilitation.
To be delivered to
D Other (specify):
to be a correct abstract of the ·udgment made in this action.
OATE

07-12-13
lorMln.-.Y Use
FormAdoplld
Jucfid;iCoGnalofCailomia
CR-2II0-1(R<v. .h.ly1;2009)

- DETERMINATE
- PRISONCOMMITMENT
OF JUDGMENT
ABSTRACT
COUNTFORM
CONSECUTIVE
ORFULL-TERM
SINGLE,CONCURRENT,

§§ 1170_1~

ER 322

1~

APPENDIX H

Case: 19-15543, 01/29/2021, ID: 11986844, DktEntry: 47, Page 1 of 1

FILED
JAN 29 2021

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

VINCENT GINO CHAVEZ,
Petitioner-Appellant,
v.

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 19-15543
D.C. No. 2:18-cv-00952-JKS
Eastern District of California,
Sacramento

SULLIVAN, Warden,
ORDER
Respondent-Appellee.

Before: W. FLETCHER, IKUTA, and VANDYKE, Circuit Judges.
The panel has voted to deny the petition for panel rehearing, filed by
Petitioner on December 29, 2020 (Dkt. Entry 46).
The petition for panel rehearing is DENIED.

